U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                            The Department of 

                        Justice’s Efforts to Prevent 

                           Staff Sexual Abuse of 

                              Federal Inmates 


                                      September 2009




                         Report Number I-2009-004
                                   EXECUTIVE DIGEST 



       This review examined the efforts of the Department of Justice (DOJ or
Department) to deter the sexual abuse of federal prisoners by federal
correctional and law enforcement personnel. It is a crime for a prison
employee to engage in any sexual contact or sexual relations with a federal
prisoner.1 Under the federal criminal code, consent by a prisoner is never a
legal defense because of the inherently unequal positions of prisoners and
correctional and law enforcement staff who control many aspects of prisoners’
lives. Apart from criminal charges, federal corrections staff may be subject to
administrative discipline for engaging in sexual misconduct that is not criminal
but violates employee conduct policies, such as using indecent language or
gestures, or surveilling prisoners for the purpose of sexual gratification.

      Staff sexual abuse of prisoners has severe consequences for victims,
undermines the safety and security of prisons, and in some cases leads to
other crimes. Prisoners who are victims of staff sexual abuse may suffer
physical pain, fear, humiliation, degradation, and desperation, and this harm
can last beyond the victims’ incarceration. Moreover, because female prisoners
in particular often have histories of being sexually abused, they are even more
traumatized by further abuse inflicted by correctional staff while in custody.

       In addition to traumatizing prisoners, federal personnel may also neglect
their professional duties and subvert their prison’s security procedures in order
to engage in and conceal their prohibited sexual relationships with prisoners.
Federal personnel who are sexually involved with prisoners can be subject to
extortion demands and may be more easily pressured to violate other prison
rules and federal laws. Compromised personnel who have been found to have
sexually abused prisoners also have been found to have provided contraband
to prisoners, accepted bribes, lied to federal investigators, and committed other
serious crimes as a result of their sexual involvement with federal prisoners.




       1   18 U.S.C. §§ 2241-2245 (2007).



U.S. Department of Justice                                                   i
Office of the Inspector General
Evaluation and Inspections Division
       The Prison Rape Elimination Act of 2003 directs prison officials to make
the prevention of sexual abuse in prisons a top management priority.2 The
Prison Rape Elimination Act defines “prisons” broadly to include not only federal
and state prisons and local jails, but also short-term lockups such as
cellblocks and other holding facilities regardless of their size.

      The Federal Bureau of Prisons (BOP) and the U.S. Marshals Service
(USMS) have custodial control of federal prisoners and are responsible for
maintaining safe, humane, and secure facilities. As of July 23, 2009, the BOP
managed 115 prisons at 93 locations that housed approximately 171,000
federal prisoners. The USMS assumes custody of individuals arrested by all
federal agencies and is responsible for housing, transporting, and ensuring the
safety and security of prisoners from the time they are brought into federal
custody until they are acquitted or incarcerated at a designated BOP prison.
The USMS has operational control of courthouse cellblocks in each of the 94
federal judicial districts across the country. BOP and USMS officials are
responsible for reporting all allegations of staff sexual abuse and sexual
misconduct to the Department’s Office of the Inspector General (OIG).

       The OIG and Federal Bureau of Investigation (FBI) have jurisdiction for
investigating allegations of sexual abuse and sexual misconduct involving
federal prisoners. In practice, generally the FBI investigates inmate-on-inmate
sexual abuse, and the OIG investigates staff-on-inmate criminal sexual abuse.
The OIG refers the remaining allegations to the BOP or USMS for investigation.
If OIG investigators substantiate an allegation of criminal sexual abuse, they
refer the case to the U.S. Attorney in the district where the allegation arose, the
DOJ Civil Rights Division, or the DOJ Public Integrity Section for a decision on
whether to prosecute the offense.

      In April 2005, the OIG issued a report concluding that the penalties
under federal law for staff sexual abuse of federal prisoners without the use of
threat or force were too lenient and resulted in U.S. Attorneys declining to
prosecute cases.3 Further, the criminal statutes at the time did not apply to
personnel working in private facilities that housed federal prisoners pursuant
to contracts with the federal government. The OIG recommended that the
Department seek legislation to address those issues and to make sexual abuse
statutes applicable to personnel working in privately managed contract prisons
as well as those working in BOP-managed prisons.


       2 The Prison Rape Elimination Act of 2003, Pub. L. No. 108-79, 117 Stat. 972 (codified
in 42 U.S.C. §§ 15601-15609), was signed into law on September 4, 2003.

       3 U.S. Department of Justice, Office of the Inspector General, Deterring Staff Sexual
Abuse of Federal Inmates, Special Report (April 2005).


U.S. Department of Justice                                                                 ii
Office of the Inspector General
Evaluation and Inspections Division
       Congress subsequently passed two laws, the Violence Against Women
and Department of Justice Reauthorization Act of 2005 (DOJ Reauthorization
Act of 2005), which increased the maximum criminal penalty for certain sexual
abuse crimes, made those crimes felonies instead of misdemeanors, and
extended federal criminal jurisdiction to all personnel working in private
prisons under contract to the federal government.4 The Adam Walsh Child
Protection and Safety Act of 2006 (Adam Walsh Act) further increased the
maximum penalties for certain sexual abuse crimes and requires federal
employees who are found guilty of any criminal sexual abuse offense involving
a federal prisoner to register as a sex offender.5

      The OIG conducted this review to assess the Department’s efforts to
deter staff sexual abuse of federal prisoners. We analyzed trends in allegations
of sexual abuse and sexual misconduct made against BOP and USMS
employees from fiscal year (FY) 2001 through FY 2008; the effectiveness of BOP
and USMS policies and procedures for detecting, reporting, and responding to
allegations of staff sexual abuse; and the efforts of the OIG, FBI, and BOP to
investigate alleged staff sexual abuse and sexual misconduct. We also
analyzed the effect of the 2005 and 2006 legislation on prosecutions of criminal
sexual abuse cases and prison sentences for convicted staff sexual abusers.

RESULTS IN BRIEF

       The Department’s progress in implementing staff sexual abuse
prevention programs since 2001 has been mixed. The Department has
conducted research and gathered data on allegations and incidents of staff
sexual abuse and sexual misconduct, and has advocated for increased criminal
penalties and expanded federal criminal jurisdiction for criminal sexual abuse
to all private prisons under contract to the federal government. The
Department also has continued to investigate, prosecute, and discipline federal
personnel who have engaged in sexually abusive behaviors with prisoners.
Despite those efforts, the Department needs to further improve its efforts to
deter, detect, investigate, and prosecute staff sexual abuse of federal prisoners.




        4 The Violence Against Women and DOJ Reauthorization Act of 2005 (DOJ

Reauthorization Act of 2005), Pub. L. No. 109-162, 119 Stat. 2960 (relevant sections are
codified in 18 U.S.C. §§ 2241-2244 and § 1791), was signed into law on January 5, 2006.

       5  The Adam Walsh Child Protection and Safety Act of 2006, Pub. L. No. 109-248, 120
Stat. 587(codified primarily in sections of 42 U.S.C. as well as 10 and 18 U.S.C.), was signed
into law on July 27, 2006.


U.S. Department of Justice                                                                 iii
Office of the Inspector General
Evaluation and Inspections Division
Improvements are needed in the BOP’s efforts to deter sexually abusive
behavior.

      The BOP has an established program for preventing, reporting,
responding to, and investigating allegations of staff sexual abuse and sexual
misconduct, and for disciplining BOP staff members who are found to have
engaged in sexually abusive behavior with prisoners. However, allegations of
criminal sexual abuse and non-criminal sexual misconduct more than doubled
from FY 2001 through FY 2008. These allegations increased at a faster rate
than either the growth in the prisoner population or the number of BOP staff.
BOP officials told us they believe this increase is due to the BOP’s efforts
during this time period to educate and encourage staff and inmates to report
abuse.

      Sexual abuse was alleged to have occurred throughout the BOP during
our 8-year review period, with allegations made at all but 1 of the BOP’s 93
prison sites and against staff in every occupational category except human
resources. We found that while staff in 15 of 16 BOP occupational categories
were named in the allegations, employees who have the most contact with
prisoners were more likely to be involved in allegations of sexual abuse and
sexual misconduct with prisoners than others. The occupational categories
that had the highest rates of allegations were food services, recreation, and
education and vocational training.

      We also found that the majority of allegations (65 percent) involved
accusations of criminal sexual abuse rather than non-criminal sexual
misconduct. Overall, female staff members were alleged to have committed
sexual abuse and sexual misconduct in numbers disproportionate to their
representation in the BOP workforce. While female staff members made up
about 27 percent of the BOP workforce in each year of the study period, they
were the subjects in 30 to 39 percent of allegations of staff sexual abuse and
sexual misconduct throughout the study period.

      In addition, we found that BOP officials at some prisons are not
adequately considering all alternatives for safeguarding prisoners who reported
being abused, which can result in fewer incidents of abuse being reported. In
some locations, officials routinely placed alleged sexual abuse victims in a
special housing unit or a local jail and then transferred them to another facility
to protect them from further abuse. However, segregation and transfer can
have negative effects on the victims and can reduce their willingness to report
abuse and to cooperate in investigations. While less restrictive protective
measures are available and in some circumstances would be sufficient, some
BOP prison officials do not use them. We concluded that BOP prison officials
should consider how best to protect alleged victims of sexual abuse only after


U.S. Department of Justice                                                   iv
Office of the Inspector General
Evaluation and Inspections Division
assessing the risks to their safety and the safety of the facility, and consider
less restrictive protective methods.

      We found that Psychology and Medical Services staff at some prisons
could not verify that all inmate victims who had reported being sexually abused
by a staff member had been referred for required psychological and medical
assessments. The potential failure to provide victim services may have
stemmed in part from guidance the BOP provides concerning which staff
members should be notified of allegations of staff-on-inmate sexual abuse.

        We also found that information in the BOP’s allegation database, which
is maintained by the Office of Internal Affairs (OIA), did not always identify the
specific prison facility where incidents of sexual abuse and sexual misconduct
were alleged to have occurred. For example, the BOP has 14 correctional
complexes that include multiple prisons with different security levels located in
close proximity to one another. Also, other stand-alone facilities may have
satellite camps that have a different security level than the main facility. In
order to conduct trend analysis by type of facility, an OIA official told us that
the BOP would have to conduct a manual review of each investigative case file.
This method of recording makes it difficult for senior BOP regional and
headquarters administrators to review the number of allegations at each prison
facility to identify trends and determine whether corrective measures are
needed.

       Finally, we found that the BOP’s staff training on the prevention of
sexual abuse was outdated and the BOP has not established effective goals and
oversight mechanisms for its sexual abuse prevention program. The BOP’s
staff training has not been updated to reflect the changes to the law that
occurred in 2006 and does not adequately address the unique challenges faced
by female staff in working in cross-gender situations. Educational materials
provided to prisoners were also outdated and were subject to being
misinterpreted to mean that prisoners themselves could be disciplined if they
reported abuse committed by staff. In addition, the BOP has established no
overall goal for the reduction of sexual abuse, and the BOP does not review the
program directly during its periodic reviews of each prison. We concluded that
the BOP could increase the effectiveness of its sexual abuse prevention
program by improving staff training and inmate education about sexual abuse
prevention and reporting, and by providing better oversight of institutions’
sexual abuse prevention programs.




U.S. Department of Justice                                                     v
Office of the Inspector General
Evaluation and Inspections Division
The USMS does not have a sexual abuse prevention program.

       In the 6 years since the passage of the Prison Rape Elimination Act, the
USMS has not established a zero-tolerance standard for staff sexual abuse in
its cellblocks and transportation system, and it has not taken action to make
the deterrence of staff sexual abuse a management priority. The USMS also
does not have a program for preventing, detecting, investigating, and
addressing staff sexual abuse in its cellblock and transportation operations.
The USMS has not provided training to USMS personnel about their
responsibilities for responding to allegations of staff sexual abuse and the
potential consequences of engaging in sexual acts or behaviors with prisoners.

      The USMS also has not provided prisoners with information about how
to report staff sexual abuse. Furthermore, USMS administrators are not
providing oversight of USMS operations to ensure that personnel are
responding appropriately to such allegations by protecting the alleged victim
and providing victim services, securing the crime scene, collecting physical
evidence, and ensuring that staff sexual abusers are dealt with appropriately.
USMS officials said they believe the agency’s general policies for protecting
prisoners and USMS personnel are adequate to protect against staff sexual
abuse. However, we concluded that the USMS policies do not provide sufficient
guidance to staff for reporting and responding to allegations of staff sexual
abuse of federal prisoners in USMS custody.

Investigating staff sexual abuse has many challenges.

      OIG and BOP investigators told us that investigating staff sexual abuse
and sexual misconduct poses many challenges that make it difficult to
conclude whether sexual abuse or misconduct occurred. Victims of sexual
abuse often delay reporting incidents because they do not want to be isolated
in the special housing unit and transferred to another prison. When abuse is
not reported promptly, the victim’s memory of the incident may blur and
important details and physical evidence are lost. Moreover, opportunities to
develop further evidence often cannot be explored because it would expose the
inmate to further abuse. In addition to the general challenges in conducting
investigations in a prison environment, BOP local investigators told us that a
lack of training and experience has hampered their investigations.

      Due to these challenges, the majority of staff sexual abuse and sexual
misconduct cases conducted by the BOP local investigators, OIA investigators,
OIG, and FBI do not conclusively establish whether or not the alleged abuse




U.S. Department of Justice                                                 vi
Office of the Inspector General
Evaluation and Inspections Division
occurred.6 BOP local investigators had the highest percentage of inconclusive
investigations (94 percent), followed by OIA investigators (71 percent), FBI
Special Agents (80 percent), and OIG Special Agents (56 percent).7

Prosecutions of staff sexual abuse have increased.

       Since 2006 when new laws changed misdemeanor sexual abuse
crimes to felony crimes, the percentage of cases accepted for prosecution
has increased. From FY 2001 through FY 2008, U.S. Attorneys accepted
102 (40 percent) of the 257 staff sexual abuse cases referred for
prosecution by the OIG’s Investigations Division. The acceptance rate of
staff sexual abuse cases rose from 37 percent under the old laws to
49 percent under the new laws.

        Of the 90 cases that were accepted for prosecution by Assistant
U.S. Attorneys and resolved during the period of our review, 83 resulted
in convictions, 1 resulted in an acquittal, and 6 were dismissed prior to
trial. Seventy-five of the 83 convictions resulted from guilty pleas, while
the remaining 8 were convicted at trial. Of the 83 convictions, 60 were
either solely for sexual abuse or for sexual abuse in addition to another
charge. The remaining 23 cases involved a conviction solely on a charge
other than sexual abuse, such as introducing contraband into a prison,
making a false statement during an investigation, or accepting a bribe.
All of these cases included an incident of staff sexual abuse that
investigators considered substantiated when referring the case for
prosecution. Since the changes in the law, the proportion of convictions
that involved sexual abuse offenses, as opposed to non-sexual abuse
offenses, has decreased.

       Also since the change in laws, the percentage of defendants convicted on
sexual abuse charges that received prison time has increased from 30 percent
to 78 percent. Although more defendants were incarcerated, the terms of
incarceration were not always longer. The majority of sentenced defendants
who received prison time received 1 year or less whether sentenced under the
old or new laws.


       6 Allegations of staff sexual abuse and sexual misconduct not handled by the OIG or

FBI are investigated either by the BOP’s Office of Internal Affairs or facility investigators.

       7  The BOP’s lower rate of conclusive outcomes for its investigations is at least partially
a result of the process whereby the OIG and the FBI take the cases that have the potential to
be criminally prosecuted. Consequently, cases investigated by BOP staff, especially those
investigated by facility staff rather than by OIA investigators, typically have fewer viable
investigative leads to enable conclusive decisions.


U.S. Department of Justice                                                                  vii
Office of the Inspector General
Evaluation and Inspections Division
RECOMMENDATIONS

     Our report contains 21 recommendations to help the Department
improve its efforts to prevent the sexual abuse of prisoners:

       	 We recommend that the BOP consider alternatives to automatically
          isolating and transferring prisoners that allege sexual abuse and that
          the BOP develop procedures to ensure that alleged victims receive
          appropriate psychological and medical assessments. We further
          recommend that training for BOP staff members be updated to
          include the latest changes in the law concerning sexual abuse crimes
          and be strengthened to address more fully the challenges of cross-
          gender supervision of prisoners. BOP staff members responsible for
          investigating allegations need additional training to potentially
          improve the rate of conclusive outcomes for sexual abuse
          investigations. The BOP also must improve its oversight of its
          institutions’ implementation of their sexual abuse prevention
          programs to ensure deficiencies are corrected and best practices are
          shared.

       	 We recommend that the USMS implement a program for preventing,
          detecting, investigating, and addressing staff sexual abuse in its
          cellblock and transportation operations. The USMS must develop new
          policies or revise existing policies to provide specific guidance to
          USMS staff members on the protocol for responding to sexual abuse
          allegations and providing victim services. We further recommend that
          the USMS periodically assess the implementation of its sexual abuse
          prevention program by USMS staff members.

       	 We recommend that the Executive Office for United States Attorneys
          train federal prosecutors about sexual abuse in prisons and strategies
          for effective prosecution of sexual abuse cases.




U.S. Department of Justice                                                 viii
Office of the Inspector General
Evaluation and Inspections Division
                                      TABLE OF CONTENTS 



BACKGROUND ..........................................................................................1 


PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG’S REVIEW ........15


RESULTS OF THE REVIEW ....................................................................19


      Section I: Data on BOP Staff Sexual Abuse .......................................19 


      Section II: BOP Efforts to Prevent and Intervene in Staff Sexual 

      Abuse Incidents ................................................................................33 


      Section III: USMS Policies and Practices Relevant to Staff 

      Sexual Abuse ....................................................................................51 


      Section IV: Investigations of Staff Sexual Abuse Allegations ..............55 


      Section V: Prosecutions of Staff Sexual Abuse Cases ........................63 


CONCLUSION AND RECOMMENDATIONS ..............................................79


APPENDIX I: NUMBER OF ALLEGATIONS REPORTED BY 

   BOP-MANAGED INSTITUTIONS .......................................................85 


APPENDIX II: FEDERAL SEXUAL ABUSE CRIMES ...............................89


APPENDIX III: U.S. SENTENCING GUIDELINES ....................................91 


APPENDIX IV: TIME FRAMES FOR REPORTING ALLEGATIONS 

   TO THE OIG......................................................................................93 


APPENDIX V: THE FEDERAL BUREAU OF PRISONS’ RESPONSE .........95


APPENDIX VI: OIG’S ANALYSIS OF THE FEDERAL BUREAU 

   OF PRISONS’ RESPONSE ...............................................................103


APPENDIX VII: THE UNITED STATES MARSHALS SERVICE’S 

   RESPONSE......................................................................................111


APPENDIX VIII: OIG’S ANALYSIS OF THE UNITED STATES 

   MARSHALS SERVICE’S RESPONSE ...............................................115



U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX IX: THE EXECUTIVE OFFICE FOR UNITED STATES 

   ATTORNEYS’ RESPONSE ...............................................................117


APPENDIX X: OIG’S ANALYSIS OF THE EXECUTIVE OFFICE 

   FOR UNITED STATES ATTORNEYS’ RESPONSE ........................... 121





U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      BACKGROUND 



Introduction

       This review examined the efforts of the Department of Justice (DOJ or
Department) to deter the sexual abuse of federal prisoners by correctional and
law enforcement employees and to detect and prosecute those employees who
have sexually abused federal prisoners. As part of the review, the Office of the
Inspector General (OIG) evaluated trends in the number and types of sexual
abuse allegations against Federal Bureau of Prisons (BOP) and U.S. Marshals
Service (USMS) employees, and the effectiveness of the BOP’s and USMS’s
policies and procedures for deterring staff sexual abuse of prisoners. The OIG
also examined the effect of 2006 legislation that increased the penalties for
sexual abuse crimes by federal correctional and law enforcement employees.

      The term “sexual abuse,” as used in this report, describes a range of
behaviors that include inappropriate touching, obtaining sexual relations
through intimidation, and sexual assault by coercion, threats, or force. Any
sexual contact between prison employees and prisoners is always illegal.
Consent by a prisoner is never a legal defense because of the inherently
unequal positions of prisoners and the correctional staff who control many
aspects of prisoners’ lives. In fact, in most cases prison employees obtain sex
from prisoners without resorting to the use of overt threats or force.

       Sexual abuse of prisoners by prison staff members has severe
consequences for victims and also undermines the safety and security of
prisons. Prisoners who are victims of sexual abuse may suffer physical pain,
fear, humiliation, degradation, and desperation, and this harm can last beyond
the victims’ incarceration. According to the Prison Rape Elimination Act of
2003, after victims of prison rape are released from prison they may suffer
physical and psychological effects that hinder their ability to integrate into the
community and maintain stable employment, and this may lead to re-
offending. Moreover, because female prisoners in particular often have
histories of being sexually abused, they are even more traumatized by further
abuse inflicted by correctional staff while in custody.8 Consequently, the
National Prison Rape Elimination Commission, which was created by Congress
in 2003 to recommend national standards for eliminating sexual abuse in



       8  U.S. Department of Justice, Federal Bureau of Prisons, Institutional Cross
Development Series, Course Code Number 51329, “Managing Female Offenders,” February
2003, Chapter 1, Understanding Female Offenders. The BOP estimates that 80 percent of all
female offenders have experienced physical or sexual abuse at one point in their lives.


U.S. Department of Justice                                                             1
Office of the Inspector General
Evaluation and Inspections Division
prison systems, urges correctional agencies to implement proactive measures
to protect prisoners from sexual abuse.

      In addition to harming the victims of sexual abuse, staff sexual abuse of
prisoners can also compromise the safety and security of prisons.9 For
example, a staff member who is sexually involved with a prisoner can be
subject to extortion demands and may be more easily pressured to violate other
prison rules and federal laws. The staff member may also neglect his or her
duties and subvert the institution’s security procedures to engage in and
conceal the prohibited sexual relationship. As other prisoners learn or suspect
that a sexual relationship exists between a prisoner and a staff member, the
prisoner may be subject to retaliation or pressure from other prisoners seeking
an advantage for themselves.

      BOP staff members have committed other crimes related to their sexual
abuse or sexual misconduct, including smuggling contraband into prisons for
prisoners with whom they were involved. Our review found that approximately
21 percent (26 of 122) of BOP staff members who admitted they had engaged in
sexual abuse or sexual misconduct with an inmate also admitted smuggling
contraband into the prison for the inmate.10 BOP officials told us that
controlling contraband, which includes any item that prisoners are not allowed
to possess in a prison, is a serious issue because it can shift the balance of
power within a prison from prison staff to prisoners who can threaten to expose
the correctional officers’ sexual relations. This can create a dangerous
environment for staff and prisoners. Among the types of contraband BOP staff
admitted to providing prisoners with whom they were sexually involved were
weapons, drugs, alcohol, cellular telephones, and money.

       Other staff members who were involved in sexual relationships or sexual
misconduct with prisoners have gone as far as helping prisoners to escape and
bribing public officials and witnesses. In one case, a male BOP correctional
officer agreed to pay a female inmate with whom he had engaged in a sexual
act $5,000 to arrange for his wife’s murder. Of the 90 BOP staff members
prosecuted for sexually abusing an inmate during the period of our review,
about 38 percent (34) were convicted of other crimes committed in connection
with the sexual abuse of an inmate.


       9 See Maureen Buell, Elizabeth Layman, Susan McCampbell, and Brenda V. Smith,

“Addressing Sexual Misconduct in Community Corrections,” Perspectives: The Journal of the
American Probation and Parole Association 27:2 (2003). The report was sponsored by the
National Institute of Corrections as mandated in the Prison Rape Elimination Act of 2003.

       10 U.S. Department of Justice, Federal Bureau of Prisons, Office of Internal Affairs
Report for Fiscal Year 2007, 33-70; and Fiscal Year 2008, 26-31.


U.S. Department of Justice                                                                    2
Office of the Inspector General
Evaluation and Inspections Division
      The cases examined as part of this review demonstrate that staff sexual
abuse has far-reaching and serious consequences for the safety and security of
BOP prisons. For example, an Operations Lieutenant in charge of a prison
during his shift abandoned his duty post on several occasions to engage in
sexual relations with a female inmate. In another instance, a Unit Manager
manipulated the BOP’s database to remove information about the inmate’s
gang affiliation and to enter a falsified transfer request that allowed the inmate
to move from a high security prison to a low security prison.

       In one particularly egregious case, a ring of correctional officers provided
contraband to prisoners in return for sexual favors, permitted prisoners to
leave their cells without authorization, and provided other BOP employees with
keys to staff offices so that they could engage in sexual acts with prisoners.
Moreover, the correctional officers conspired to keep their illegal activities from
being reported to authorities and intimidated prisoners to keep them from
cooperating with investigators once the corruption was discovered.11

       As these cases demonstrate, staff sexual abuse crimes have had serious
consequences not only in prisons but also for individuals outside the prison,
for the local community, and for other law enforcement personnel.

      In the remainder of this Background section, we discuss laws that
pertain to staff sexual abuse of and sexual misconduct with prisoners, the DOJ
components responsible for the custodial control of prisoners, and the DOJ
components responsible for investigating and prosecuting allegations of staff
sexual abuse.

Prevention of Staff Sexually Abusive Behavior

      The Prison Rape Elimination Act established the National Prison Rape
Elimination Commission to study federal policies and practices and to
recommend national standards for eliminating sexual abuse in prison systems.
The Act also established the DOJ Review Panel on Prison Rape to gather
information about prison sexual abuse. In addition, the Act directed officials of
the DOJ Bureau of Justice Statistics to determine the prevalence and effects of
prison sexual abuse, identify prisons with the highest and lowest prevalence of
abuse, and identify the reasons for these prisons’ success or failure.


        11 Six of the correctional officers were indicted in 2006, and when federal agents went

to the prison to arrest them, one of the correctional officers pulled a gun he had smuggled in
and began shooting. He wounded a BOP Lieutenant and an OIG Special Agent, who returned
fire and killed the correctional officer. The agent, William Sentner III, died of his gunshot
wound. Several other correctional officers under indictment were subsequently convicted on
charges stemming from the investigation.


U.S. Department of Justice                                                                  3
Office of the Inspector General
Evaluation and Inspections Division
      The Prison Rape Elimination Act directs federal officials to establish a
zero-tolerance standard for prison sexual abuse and to make the prevention of
sexual abuse in prisons a top priority.12 To meet this standard, the Act directs
federal officials to develop and implement national standards to prevent, detect,
and punish prison sexual abuse; increase the accountability of prison officials
who fail to detect, prevent, reduce, and punish prison sexual abuse; and
protect the Eighth Amendment rights of prisoners which prohibit cruel and
unusual punishment. While the Act focuses primarily on the sexual abuse of
prisoners by other prisoners, its provisions also apply to the sexual abuse of
prisoners by correctional staff.

Criminal Offenses and Penalties

       Federal law criminalizes all sexual relations and sexual contact between
federal correctional staff and prisoners.13 Illegal sexual behavior between a
staff member and a prisoner ranges from sexual acts and contact without the
use of threats or force to the use of violence or threats to force a victim into
submission. The prohibition on sexual relations and sexual contact applies to
any staff member in a federal prison, institution, or other facility in which
individuals are held in custody at the direction of the U.S. Attorney General.
Consent by the prisoner is never a legal defense for correctional personnel who
engage in sexual acts or sexual contacts with prisoners.

      In April 2005, the OIG reported that the penalties under federal law for
the sexual abuse of prisoners without the use of overt threats or force were too
lenient and resulted in prosecutors declining to prosecute staff sexual abuse
cases.14 At that time, the federal crime of sexual abuse of a prisoner without
the use of force or overt threats was only a misdemeanor punishable by a
maximum sentence of 1 year. The federal crime of sexual contact with a
prisoner without the use of force or threats was a misdemeanor punishable by
a maximum sentence of 6 months. The OIG also found a deficiency in the
criminal laws dealing with staff sexual abuse because they did not apply to
privately operated prisons under contract to the BOP. The OIG recommended
that the Department seek passage of legislation to address these issues.

     Congress subsequently passed two laws increasing penalties for sexual
abuse of wards. The Violence Against Women and Department of Justice

       12 42 U.S.C. §§ 15601-15609 (2007). See Appendix II for definitions of specific sexual

abuse crimes.

       13   18 U.S.C. §§ 2241-2245 (2007).

       14 U.S. Department of Justice Office of the Inspector General, Deterring Staff Sexual
Abuse of Federal Prisoners, Special Report (April 2005).


U.S. Department of Justice                                                                     4
Office of the Inspector General
Evaluation and Inspections Division
Reauthorization Act of 2005 (DOJ Reauthorization Act of 2005) increased the
maximum criminal penalty for sexual abuse of a ward without the use of
threats or force from 1 to 5 years, while increasing the maximum penalty for
abusive sexual contact with a federal prisoner without the use of threat or force
from 6 months to 2 years.15 The DOJ Reauthorization Act of 2005 also made
those crimes felonies instead of misdemeanors. In addition, the Act extended
federal criminal jurisdiction for sexual abuse of a ward, abusive sexual contact,
and the introduction of contraband to all private prisons under contract to the
federal government to house federal prisoners. The Adam Walsh Child
Protection and Safety Act of 2006 (Adam Walsh Act) further increased the
maximum penalties for sexual abuse of a ward to 15 years.16 The Adam Walsh
Act also requires all federal employees who are found guilty of any criminal
sexual abuse offense involving a federal prisoner to register as a sex offender.

      Conduct of a sexual nature that does not rise to the criminal level of
sexual abuse as defined in 18 U.S.C. §§ 2241-2245 (2007) may nevertheless
constitute sexual misconduct, sometimes serious in nature, that can result in
administrative sanctions up to termination. Non-criminal sexual misconduct
can include using indecent language, obscene gestures, and voyeurism.

DOJ Agencies with Custodial Control of Prisoners

Federal Bureau of Prisons

      According to the BOP’s mission statement, the BOP is responsible for
confining sentenced criminals in prisons that are safe, humane, and secure.
As of July 23, 2009, the BOP managed 115 prisons at 93 locations (some
prisons are co-located). Those prisons confined approximately 171,000
(83 percent) of the total BOP prisoner population of about 207,000 federal
prisoners. The remainder of approximately 36,000 prisoners was housed in

       15  The Violence Against Women and DOJ Reauthorization Act of 2005 (DOJ
Reauthorization Act of 2005), Pub. L. No. 109-162, 119 Stat. 2960 (relevant sections are
codified in 18 U.S.C. §§ 2241-2244 and § 1791), was signed into law on January 5, 2006.
Although maximum penalties are set by law, actual prison sentences are based on federal
sentencing guidelines and other factors identified by the court. Under the sentencing
guidelines, recommended sentences for staff members who plead guilty or who are convicted of
sexual abuse crimes may be much less severe than the maximum penalties set forth in the
applicable law. For example, the recommended sentence for a BOP or USMS staff member with
no criminal history who committed criminal sexual abuse of a ward is more than 1 year but
less than 2 years, much less than the maximum potential sentence of up to 15 years in
prison. (See Appendix III, U.S. Sentencing Guidelines.)

       16 The Adam Walsh Child Protection and Safety Act of 2006, Pub. L. No. 109-248, 120
Stat. 587(codified primarily in sections of 42 U.S.C. as well as 10 and 18 U.S.C.), was signed
into law on July 27, 2006.


U.S. Department of Justice                                                                  5
Office of the Inspector General
Evaluation and Inspections Division
state, local, and privately managed prisons under contract to the BOP.17 As of
June 27, 2009, the BOP had approximately 36,000 employees, most of whom
worked within the BOP-managed prisons.

      According to BOP Program Statement 5324.06, Sexually Abusive
Behavior Prevention and Intervention Program, the BOP has a zero-tolerance
standard for any acts of sexually abusive behavior committed by staff members
toward prisoners. Prohibited behaviors include rape, sexual assault with an
object, fondling, and sexual misconduct (indecent sexual language, gestures, or
sexually oriented visual surveillance).18 The BOP has established five
objectives for its sexual abuse prevention and intervention program:

       1. Inform staff members and prisoners of the BOP’s “zero-tolerance”
          philosophy in regards to sexually abusive behavior.

       2. Put in place standard procedures to detect and prevent sexually
          abusive behavior at all BOP prisons.

       3. Provide a prompt and effective response to the physical, psychological,
          and security needs of victims of sexual abuse.

       4. Provide prompt intervention upon reports of allegations of sexually
          abusive behavior.

       5. Discipline and, when appropriate, prosecute perpetrators of sexually
          abusive behavior in accordance with BOP policy and federal law.

       The program statement assigns responsibilities and provides guidance
for the appropriate response (described below), depending on the severity of the
sexually abusive behavior. The Warden at each institution must ensure that
all aspects of the program statement are implemented, including maintaining a
current institution supplement detailing how the institution will comply with
its provisions. The Warden must also designate a Program Coordinator who


        17 The BOP is responsible for the custody and care of sentenced federal prisoners, as

well as a significant number of pretrial detainees and convicted offenders awaiting sentencing.
The term “inmate” is used to describe any person who has been found guilty of a felony or
misdemeanor and who has been placed in BOP custody or detained in a BOP facility.

       18  Staff-on-inmate sexual abuse has been included in the policy’s definition of sexual
abuse since 1997. The BOP also added more detailed mental health treatment protocols for
victims of sexual assault that year. In 2005, the BOP revised the policy to change the
definitions of sexually abusive and assaultive behaviors to better reflect the definitions in the
Prison Rape Elimination Act of 2003 and to better characterize types of sexually abusive
behaviors.


U.S. Department of Justice                                                                     6
Office of the Inspector General
Evaluation and Inspections Division
has overall responsibility for the prison’s sexual abuse prevention program and
for coordinating the efforts of the prison’s designated response team. In some
prisons, an Associate Warden may be the Program Coordinator but delegate the
day-to-day responsibilities to the Chief of Psychology. The Program
Coordinator is responsible for ensuring that institutional departments provide
a coordinated response to sexual abuse allegations and that all response team
members are fully aware of their roles and responsibilities as outlined in a two-
phased response protocol.

       	 Phase I - Initial Response and Crisis Intervention – In the initial phase
          of the BOP’s response to sexual abuse incidents or allegations, staff
          members are instructed to immediately notify the Operations
          Lieutenant that an incident has occurred or is suspected of having
          occurred, or that an allegation of sexual abuse has been made.19 The
          Operations Lieutenant is responsible for immediately safeguarding the
          alleged victim and for promptly referring the victim to Psychology
          Services to undergo a psychological assessment and to identify any
          treatment needs. Psychology Services personnel talk with the alleged
          victim and provide information to the Program Coordinator about the
          results of their assessment.

           The Program Coordinator is responsible for reviewing the results of the
           victim’s psychological assessment and other information known about
           the incident or allegation and deciding whether to continue with the
           next steps in the response protocol. If the Program Coordinator
           decides an allegation is unfounded because, for example, the inmate
           credibly recanted the allegation or the alleged perpetrator was not in
           the unit or institution at the time of the alleged incident, the Program
           Coordinator may end the response protocol at this point. However, the
           Program Coordinator must implement the full response if the Program
           Coordinator decides that more information is needed or that there has
           been a credible and serious allegation of sexually abusive behavior.

       	 Phase II - Full Response Protocol – During the full response phase,
          BOP staff members consult and determine the actions needed to
          prevent the alleged perpetrator from further abusing the inmate.
          Psychology Services personnel are to be notified immediately and,

        19 Other BOP program statements provide guidance on reporting allegations. Program

Statement 1210.24, Office of Internal Affairs, provides that staff members who are not
comfortable reporting an incident or allegation to institution staff can report directly to a BOP
Regional Office, the BOP’s Central Office, or the OIG. In addition, Program Statement 3420.09,
Standards of Conduct, requires all BOP employees and contractors to immediately report any
violation, or apparent violation, of the standards of conduct to the Warden or other appropriate
authority.


U.S. Department of Justice                                                                   7
Office of the Inspector General
Evaluation and Inspections Division
           once notified, they must see the victim within 24 hours to provide
           crisis intervention and to address any immediate treatment needs.
           Also within the first 24 hours, Psychology Services personnel are
           required to summarize their initial crisis evaluation in a written report
           and distribute copies to the unit team, medical services, and
           correctional services staff.20

           Medical Services personnel are required to provide medical
           evaluations and injury assessments when members of the response
           team suspect that the alleged victim was sexually assaulted either by
           force or with an object. Inmate victims cannot be forced to undergo
           treatment and testing for evidence of sexual abuse. If an inmate
           victim refuses treatment or testing, response team members are
           advised to explain to the alleged victim the importance of and the
           need for medical treatment. If the victim consents, the victim is
           escorted to the Health Services Unit or referred to a local emergency
           facility for a medical examination conducted by a medical provider
           trained in the collection of forensic evidence and in the appropriate
           medical services to provide to a victim of sexual assault.

           According to the BOP’s Assistant Director, Health Services Division,
           the medical care provided to sexual assault victims does not differ
           from other emergency medical services offered to prisoners. BOP
           prison officials have the option of bringing medical staff from a local
           hospital or rape crisis center to provide care and to collect physical
           evidence of staff sexual abuse, or to use BOP personnel trained in
           sexual abuse testing and evidence gathering. However, BOP policy in
           Program Statement P6031.02, Patient Care, January 15, 2005,
           recommends that Health Services staff transport victims of recent
           sexual assaults to a community facility or rape crisis center that is
           equipped (in accordance with local laws) to evaluate and treat sexual
           assault victims. At most institutions, emergency care is contracted
           out to the local hospitals, and prisoners who are sexually assaulted
           are transported to the local hospital’s emergency room where sexual
           assault kits, care, and comfort services are provided.


        20 The BOP manages prisoners and encourages their participation in reentry programs

through a unit management concept. Under this concept, the members of multidiscipline unit
teams collaborate to determine each prisoner’s program needs and to monitor the prisoners’
participation in programs that encourage pro-social behaviors that benefit the prisoners, staff,
and the community. The unit teams make decisions concerning supervision, work
assignments, and programming for each prisoner, and at a minimum include the unit
manager, a case manager, and a counselor and, generally, an education advisor and
psychology services representative.


U.S. Department of Justice                                                                  8
Office of the Inspector General
Evaluation and Inspections Division
           Also, BOP Program Statement 1380.05, Special Investigative
           Supervisors Manual, directs BOP investigative personnel to collect
           various types of crime scene evidence, including DNA evidence such as
           hair, body fluids, tissue, and clothing that may contain DNA evidence
           from both the victim and assailant, by placing the potential evidence in
           a paper bag. In addition, although not stated in the manual,
           according to the BOP’s Assistant Director, Health Services Division,
           BOP prisons are required to ensure that collection of all physical
           evidence of sexual assaults, including DNA samples, occurs within 72
           hours of an alleged assault, which is in accordance with guidelines
           issued by DOJ for performing sexual assault medical examinations.21

           When allegations of sexual abuse involve an alleged staff member, the
           Operations Lieutenant must notify the Warden. The Warden notifies
           the Regional Director and the BOP’s Office of Internal Affairs (OIA).
           The BOP’s OIA is responsible for notifying the Department’s OIG. The
           Warden may report an allegation directly to the OIG and to the BOP’s
           OIA. The Warden may also report a case to the Federal Bureau of
           Investigation (FBI) Special Agents who are assigned to many BOP
           prisons, but the OIG would still be informed.

           A 1998 memorandum, signed by OIG, BOP, and USMS officials
           outlines the required time frames for reporting allegations of employee
           crimes and misconduct to the OIG. There are three classifications of
           allegations, and each classification has a reporting time frame. BOP
           officials must immediately report to the OIG any allegations of sexual
           abuse that would constitute a prosecutable offense and those
           involving allegations of serious sexual misconduct by a high-ranking
           employee (Classification I). They must report any allegations involving
           violations of rules, regulations, or law that are not likely to result in
           criminal prosecution to the OIG within 48 hours (Classification II).
           BOP officials must report all allegations of misconduct that would
           have a minimal impact on BOP programs and operations to the OIG
           on a monthly basis (Classification III). (See Appendix IV.)

      Figure 1 on the next page shows the steps of the full response protocol as
described in BOP Program Statement 5324.06.

         21 Department of Justice, Office for Victims of Crime, Sexual Assault Nurse Examiner

(SANE) Development and Operation Guide, August 1999. The BOP’s Program Statement
1380.05, Special Investigative Supervisors (SIS) Manual, also states, “It is not appropriate for
SIS staff to attempt to develop into evidence lab technicians, but it is appropriate to develop the
skills to recognize evidence and preserve it so that competent authorities can evaluate it.” The
BOP does not have policy regarding collecting DNA evidence from a female inmate’s miscarried
or aborted fetus to potentially determine the identity of an assailant through a paternity test.


U.S. Department of Justice                                                                    9
Office of the Inspector General
Evaluation and Inspections Division
                      Figure 1: The BOP’s Protocol for 

          Responding to Allegations of Staff-on-Inmate Sexual Abuse 



                                                           Report of an
                                                            allegation



                                                           Operations
                             Reporting                     Lieutenant                  Victim Services




         Office of the              Warden, Program                        Inmate is immediately
           Inspector
                                   Coordinator, Special                   protected and referred to
         General; FBI
             when
                                  Investigative Agent or                  Psychological Services for
          appropriate             Supervisor, Captain*                         an assessment




                            BOP                                             Program Coordinator
                                                   Regional                determines whether to
                     Office of Internal
                                                   Director               activate the full response
                           Affairs
                                                                                   protocol




                                                                     Yes                      No
                         Office of the

                          Inspector

                           General




                                                                    Medical               No further
                                                              assessment and,              action
                                                                if applicable,
                                                               sexual assault
                                                                examination




                                                               Determine how
                                                                to safeguard
            *During non-business hours the                       the inmate
            on-call Psychologist and Duty
            Officer are also notified.


       Source: BOP Program Statement 5324.06.




U.S. Department of Justice                                                                         10
Office of the Inspector General
Evaluation and Inspections Division
       Other provisions in the BOP’s program statement require that staff and
prisoners be informed of the zero-tolerance policy on sexually abusive behavior
through staff training and prisoner education. BOP staff members receive that
training during introductory law enforcement training, orientation at the
prisons where they are assigned to work, and annual refresher training.
Employee training covers staff sexual abuse prevention, detection, intervention,
investigation, discipline, and prosecution.

       Prisoners receive information on sexual abuse prevention when they
enter the BOP system and when they arrive at a new prison after a transfer.
According to the program statement, prisoner education must cover definitions
of sexually abusive behavior, prevention strategies, reporting methods, victim
services, and discipline and prosecution of staff sexual abusers. BOP
personnel are required to screen all prisoners entering an institution to identify
prisoners who are at risk for sexual victimization (such as prisoners with a
history of sexual victimization; first-time offenders; or prisoners who are small
in stature, have cognitive limitations, or special needs) and provide them with
psychology services and appropriate housing to protect them from sexual
abuse.

      The BOP’s Office of Internal Affairs collects and reports data on prisoner
victims of staff sexual abuse to all Wardens and to the Psychology Services
Administrator on a quarterly basis. It also publishes an annual report with
summaries of all sustained cases of sexual abuse and sexual misconduct. In
addition, the BOP reports data on both staff-on-inmate and inmate-on-inmate
sexual abuse incidents to the Bureau of Justice Statistics as required by the
Prison Rape Elimination Act.

United States Marshals Service

       The USMS assumes custody of individuals arrested by all federal agencies
and is responsible for housing, transporting, and ensuring the safety and
security of prisoners from the time they are brought into federal custody until
they are acquitted or incarcerated at a designated BOP prison. The USMS does
not own or operate its own detention facilities, but through contracts houses
about 56,000 federal prisoners each day in BOP prisons and state, local, and
private jails. In addition, the USMS has operational control of courthouse
cellblocks in each of the 94 federal judicial districts across the country.22
Federal prisoners may spend a considerable amount of time in those cells while
awaiting court proceedings.

       22 The Prison Rape Elimination Act defines “prisons” broadly to include not only federal
and state prisons and local jails, but also short-term lockups such as cellblocks and other
holding facilities, regardless of their size.


U.S. Department of Justice                                                                11
Office of the Inspector General
Evaluation and Inspections Division
      To transport prisoners, the USMS operates the Justice Prisoner and
Alien Transportation System, which is one of the largest transporters of
prisoners in the world. This transportation system handles more than 1,000
requests every day and moves approximately 350,000 prisoners each year
between judicial districts, prisons, and foreign countries.

       Unlike the BOP, the USMS does not have specific policies or a program
for preventing sexual abuse during the confinement and transport of prisoners,
nor does it have specific procedures for reporting and responding to allegations
of staff sexual abuse of prisoners. Instead, under general USMS policies,
USMS personnel are responsible for reporting any incidents or allegations of
misconduct or criminal activity to their supervisors and to the USMS’s Office of
Internal Investigations. The USMS’s Office of Internal Investigations is
responsible for reporting all such allegations to the OIG.

Investigation of Staff Sexual Abuse Allegations

       The OIG Investigations Division reviews all allegations it receives
concerning alleged sexual abuse and sexual misconduct by Department staff or
contractors against prisoners. The OIG generally investigates allegations of
sexual abuse that appear likely to result in criminal prosecutions of BOP or
USMS staff members. The OIG refers the remaining cases to the BOP’s OIA or
the USMS’s Office of Internal Investigation.23 The BOP’s OIA or the USMS’s
Office of Internal Investigations will either conduct the investigation itself or
refer the matter back to the institution or district office, respectively, where the
complaint arose for review. The OIG generally completes the investigation in
cases that are declined for prosecution and forwards the results to the BOP or
USMS for administrative action.

       The FBI and the OIG have joint jurisdiction for investigating staff sexual
abuse cases. In practice, generally the FBI investigates inmate-on-inmate
sexual abuse, and the OIG investigates staff-on-inmate criminal sexual abuse
and some cases of administrative sexual misconduct. Of the 525 criminal
sexual abuse cases involving BOP staff members that were investigated during
fiscal year (FY) 2001 through FY 2008, 508 were investigated by the OIG and
17 by the FBI. Cases investigated by the FBI included cases occurring in
prisons where the FBI had a resident agent, cases where the sexual abuse
allegations related to public corruption allegations already being investigated
by the FBI, and cases prosecuted as civil rights violations in which the Civil



       23  In the more serious administrative cases that it refers to the BOP or USMS, the OIG
will require the BOP or USMS to forward its completed investigative report to the OIG for
review.


U.S. Department of Justice                                                               12
Office of the Inspector General
Evaluation and Inspections Division
Rights Division requested that the FBI investigate due to other civil rights work
the FBI was conducting with that Division.

       If an OIG investigation results in substantiation of conduct that is
potentially criminal, the OIG refers the case to the U.S. Attorney for the district
where the allegations arose, the DOJ Civil Rights Division, or the DOJ Public
Integrity Section for a decision on whether to prosecute. If the case is accepted
for prosecution, the OIG works with the prosecutor on the criminal case. If the
case is declined for prosecution, the OIG completes the case as an
administrative matter and sends the investigative report to the BOP or USMS
for appropriate administrative action regarding their employee or contractor.

Prosecution of Staff Sexual Abuse

       The 93 U.S. Attorneys prosecute federal criminal cases that occur in
their districts, including cases of staff sexual abuse of prisoners. According to
the U.S. Attorneys’ Manual, U.S. Attorneys should prosecute cases when they
believe a federal crime has been committed and they have admissible evidence
that they believe will be sufficient to obtain and sustain a conviction. The
reasons for deciding not to prosecute can include a determination that no
substantial federal interest would be served by the prosecution, the subject can
be effectively prosecuted in another jurisdiction, or there is an adequate non-
criminal alternative to prosecution. Declinations and the associated reasons
should be communicated by the U.S. Attorney to the investigative agency and
be reflected in the office files.




U.S. Department of Justice                                                    13
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            14
Office of the Inspector General
Evaluation and Inspections Division
      PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG’S REVIEW



Purpose

       Our review examined the efforts of the Department to prevent
correctional and law enforcement employees from sexually abusing federal
prisoners and to detect, intervene in, and respond to allegations of staff sexual
abuse and sexual misconduct and to discipline and prosecute employees who
sexually abused federal prisoners. As part of the review, the OIG evaluated
trends in the number and types of sexual abuse allegations against BOP and
USMS employees. In addition, the OIG examined the effect of the BOP’s and
USMS’s policies and procedures for preventing staff sexual abuse of prisoners.
The OIG also examined trends in the prosecutions of and sentences given to
staff members found guilty of sexual abuse crimes after 2006 legislation
enhanced the criminal penalties for such acts.

Scope

      The scope of our review included all allegations and cases of staff sexual
abuse and sexual misconduct from FY 2001 through FY 2008 involving federal
prisoners under the direct management control of the BOP and the USMS. We
reviewed the BOP’s and USMS’s policies, procedures, and activities for
deterring, responding to, and investigating allegations of staff sexual abuse and
sexual misconduct and for ensuring that staff members who were found guilty
of sexually abusive behavior are disciplined and prosecuted. The review
examined allegations and incidents of staff sexual abuse and sexual
misconduct at the 115 BOP-managed prisons where 83 percent of federal
prisoners were confined and where correctional workers were subject to federal
sexual abuse laws during the entire study period. Employees working in
privately managed prisons were not subject to federal laws on sexual abuse
(18 U.S.C. §§ 2241-2245) until 2006 and thus were not included as part of this
review.24

       Our review also included allegations and incidents of staff sexual abuse
and sexual misconduct in cellblocks in the 94 federal judicial districts and
those that occurred during the transportation of prisoners who were under the
direct management of the USMS. We also reviewed laws, rules, regulations,

         24 As of July 23, 2009, 171,000 federal prisoners were confined in BOP-managed

facilities, and 36,000 were confined in state, local, and privately managed facilities under
contract to the BOP. Privately managed contractor facilities must comply with the same
policies and procedures for addressing staff sexual abuse as federal prison facilities. See
page 4 for a fuller discussion of the amendments in 2006, which extended the application of
the federal sexual abuse laws to corrections staff working in contract facilities.


U.S. Department of Justice                                                               15
Office of the Inspector General
Evaluation and Inspections Division
policies, and procedures governing OIG, BOP, and USMS investigations and the
U.S. Attorneys’ roles and responsibilities for prosecuting staff sexual abuse
cases.

Methodology

      Our fieldwork included in-person and telephone interviews, document
reviews, and data analyses.

Interviews

       	   BOP employees (155), including employees at the Central Office,
            Regional Offices, and eight institutions:

            o   Federal   Detention Center Philadelphia, Pennsylvania;
            o   Federal   Correctional Institution Tallahassee, Florida;
            o   Federal   Correctional Complex Coleman, Florida;
            o   Federal   Correctional Complex Beaumont, Texas;
            o   Federal   Medical Center Carswell, Texas;
            o   Federal   Correctional Institution Danbury, Connecticut;
            o   Federal   Correctional Complex Victorville, California; and
            o   Federal   Prison Camp Duluth, Minnesota.

       	   OIG Investigations Division and Office of the General Counsel
            employees (13);

       	   Federal Bureau of Investigation (FBI) employees (10);

       	   U.S. Attorneys’ Offices employees (9);

       	   USMS employees (5);

       	   Employees of agencies conducting research on prison rape: National
            Institute of Corrections, Bureau of Justice Statistics, Review Panel on
            Prison Rape, and the National Prison Rape Elimination Commission
            (9).

Document Reviews

       	 BOP and USMS policies, procedures, and literature relevant to staff
          sexual abuse prevention, intervention, and investigation, including
          standards of professional conduct as well as protocols for responding
          to allegations and conducting investigations of staff sexual abuse.
       	 Transcripts of hearings held by the National Prison Rape Elimination
          Commission and the Department’s Review Panel on Prison Rape, and

U.S. Department of Justice                                                     16
Office of the Inspector General
Evaluation and Inspections Division
            draft standards for preventing, detecting, responding to, and
            monitoring staff sexual abuse in federal prisons and detention
            facilities.

       	   BOP investigative case files regarding allegations of staff-on-inmate
            sexual abuse.

       	   Executive Office for United States Attorneys’ (EOUSA) policies and
            procedures for reviewing, categorizing, and determining whether to
            accept cases presented for prosecution, including the U.S. Attorneys’
            Manual and the manual for EOUSA’s case management system, the
            Legal Information Office Network System.

       	   Court records available for the 102 cases accepted for prosecution.

Data Analyses

      We examined records from databases maintained by the OIG, BOP’s OIA,
and EOUSA. However, the three databases did not contain all of the data we
needed to meet our objectives. Consequently, we augmented the data with
information from other sources such as case files and court records. We were
not able to resolve all discrepancies, and in some cases we had to exclude
cases with incomplete information or make informed decisions about
interpreting the data.

       	   Allegations received from the BOP, USMS, and OIG – Because the
            BOP and USMS are required to notify the OIG of all allegations of staff
            sexual abuse, the component and OIG databases should have
            comparable data. However, we found differences in the OIG and BOP
            data due primarily to variances in data elements and data entry
            codes. We used BOP data to analyze trends in staff sexual abuse
            allegations because it is the primary source and because it provided
            more comprehensive information on sexual abuse allegations that are
            administrative rather than criminal in nature. The OIG primarily
            focuses its attention on criminal sexual abuse and does not collect as
            much data as the BOP on violations that are determined to be
            administrative in nature.

       	   Data on investigative outcomes from the BOP, OIG, and FBI – We
            used OIG data to determine the number and outcome of closed sexual
            abuse cases investigated by the OIG, and we used BOP data for all
            investigations conducted by BOP investigators. The Automated Case
            System (ACS) Application is used by the FBI to electronically record
            case information. Its design does not allow for the extraction of data
            specific to investigations of staff sexual abuse and sexual

U.S. Department of Justice                                                     17
Office of the Inspector General
Evaluation and Inspections Division
            misconduct.25 Consequently, we used OIG and BOP data sources to
            determine which cases were investigated by the FBI and the outcomes
            of those investigations.

       	   Prosecution data from EOUSA, the OIG, and court records – We relied
            predominantly on OIG prosecution data that we verified through
            searches of court records in LexisNexis CourtLink. The OIG has
            detailed records on staff sexual abuse prosecutions because it is
            responsible for presenting the cases to the U.S. Attorneys and is
            notified of their decisions to accept or decline cases. Because officials
            at EOUSA and individual Assistant U.S. Attorneys acknowledged that
            declinations are not always recorded in their database, we used OIG
            data to determine the number of staff sexual abuse prosecutions.
            However, we used EOUSA data to determine the reasons for
            prosecutors’ declinations of staff sexual abuse cases, although the
            reasons were not documented consistently in EOUSA’s database.




       25 Investigations of staff sexual abuse and sexual misconduct are recorded in the FBI’s

ACS under the general category of “Color of Law” investigations, which the FBI defines as the
deprivation of any rights, privileges, or immunities secured or protected by the
U.S. Constitution by someone in their official government capacity. During FY 2001 through
FY 2008, the FBI initiated 7,989 such investigations, of which only a small number involved
sexual abuse of inmates by BOP staff. Because ACS cannot automatically identify just those
cases involving BOP staff sexual abuse, extracting responsive data would have required a
manual search that the FBI estimated would take hundreds of staff hours and months to
accomplish. Because other reliable non-FBI data sources were available, to conserve resources
and avoid delays in our review, we used non-FBI data sources to identify the cases investigated
by the FBI.


U.S. Department of Justice                                                               18
Office of the Inspector General
Evaluation and Inspections Division
                             RESULTS OF THE REVIEW 



SECTION I: DATA ON BOP STAFF SEXUAL ABUSE

       Allegations of sexual abuse and sexual misconduct by BOP
       staff with federal inmates more than doubled from FY 2001
       through FY 2008, increasing at a faster rate than either the
       growth in the inmate or staff populations. About two-thirds of
       the allegations involved criminal sexual abuse, while the
       remaining third involved sexual misconduct such as using
       indecent language or gestures. Allegations of staff sexual
       abuse were reported at 92 of the BOP’s 93 prison sites during
       this period and involved correctional staff in all but one of the
       BOP’s occupational categories. We also found that female staff
       members were more likely to be accused of criminal sexual
       abuse or sexual misconduct than male staff members.

       We reviewed the allegations of sexual abuse and sexual misconduct by
BOP staff reported from FY 2001 through FY 2008 to determine the prevalence
and characteristics of the allegations. Specifically, we determined the number
of allegations and examined whether reported allegations are increasing
commensurate with or to a greater or lesser extent than the growth in the
inmate and staff populations. We also examined the types of alleged sexual
abuse and sexual misconduct reported to identify trends in the categories of
allegations. We examined the number of allegations reported by each
correctional institution and by staff occupation and gender to identify whether
allegations were more prevalent in any particular occupation and to what
degree they differed by sex. We included allegations of both criminal sexual
abuse and administrative sexual misconduct.

      The BOP’s standards of conduct prohibit its employees from allowing
themselves to show partiality toward, or to become emotionally, physically, or
sexually involved with, inmates. An employee may not engage in, or allow
another person to engage in, sexual behavior with an inmate. BOP Program
Statement 5324.06, Sexually Abusive Behavior Prevention and Intervention
Program, applies to all sexually abusive behaviors by staff, including sexual
fondling, sexual assault, sexual assault with an object, and sexual misconduct.
All but one of those behaviors, sexual misconduct, are criminal acts covered by
18 U.S.C. §§ 2241-2245. The BOP defines sexual misconduct as the use of
indecent language, gestures, or sexually oriented visual surveillance for the
purpose of sexual gratification. Employees are subject to administrative action,
up to and including termination, for any inappropriate contact or relationship



U.S. Department of Justice                                                 19
Office of the Inspector General
Evaluation and Inspections Division
with inmates, regardless of whether such sexually abusive behavior constitutes
a prosecutable crime.26

The number of allegations of criminal sexual abuse and sexual misconduct
against BOP staff more than doubled since 2001.

      From FY 2001 through FY 2008, BOP institutions reported a total of
1,585 allegations of staff sexual abuse (1,028) and sexual misconduct (557)
with federal inmates. Allegations of staff sexual abuse and sexual misconduct
were reported in all but 1 of the 93 BOP-managed prison sites.27 See
Appendix I for the number of reported allegations by institution. During this
8-year period, the number of criminal sexual abuse allegations increased 104
percent, from 76 in FY 2001 to 155 in FY 2008, and the number of sexual
misconduct allegations increased 130 percent, from 33 in FY 2001 to 76 in
FY 2008 (see Figure 2). There was a general upward trend in the number of
criminal sexual abuse allegations from FY 2001 through FY 2008. However,
there was an 18 percent decline in allegations of sexual misconduct in
FY 2008.




        26   BOP Program Statement 3420.09, Standards of Employee Conduct, February 5,
1999.

         27 BOP officials at the Federal Prison Camp Duluth, Minnesota, said they had no

allegations of staff sexual abuse or misconduct from FY 2001 through FY 2008. The Federal
Prison Camp Duluth is a minimum security BOP facility for male prisoners who have less than
10 years left on their sentences and who have been well-screened to ensure their suitability for
confinement at the camp. According to the Warden, Duluth has an unusually stable workforce
in its line staff.


U.S. Department of Justice                                                                20
Office of the Inspector General
Evaluation and Inspections Division
Figure 2: Staff Criminal Sexual Abuse and Sexual Misconduct Allegations, 

                        FY 2001 through FY 2008 




   180
   160                                                154    153    155
                                          142
   140                             135
                           128
   120                                                                    Sexual Misconduct
   100              85                           93         93            Increased 130%
            76                   87                                76
    80                                   68                               Criminal Sexual Abuse
                         65                                               Increased 104%
    60
          33      42
    40
    20
     0
          2001    2002   2003    2004    2005    2006       2007   2008



   Source: BOP Office of Internal Affairs database.

       The general increase in allegations of staff criminal sexual abuse and
sexual misconduct with inmates was greater than the increase in either the
BOP’s staffing level or inmate population over the same time period. As shown
in Figure 3, during the period in which allegations of criminal sexual abuse
increased 104 percent and sexual misconduct increased 130 percent, the
BOP’s staffing level increased 5 percent and the inmate population increased
27 percent. Therefore, the increase in allegations of staff sexual abuse and
sexual misconduct cannot be explained by increases in the numbers of inmates
or staff. BOP officials told us they believe the increase was caused by the
BOP’s efforts during this time period to educate and encourage staff and
inmates to report abuse.




U.S. Department of Justice                                                                    21
Office of the Inspector General
Evaluation and Inspections Division
   Figure 3: Percentage Growth in BOP Staffing, Inmate Population, and 

                Number of Staff Sexual Abuse Allegations, 

                        FY 2001 through FY 2008 


                     140%                                                           130%

                     120%
                                                                  104%
     Percentage Increase




                     100%

                           80%

                           60%

                           40%
                                                27%
                           20%
                                 5%
                           0%
                                 Staff   Inmate Population    Criminal Sexual Sexual Misconduct
                                                             Abuse Allegations   Allegations


   Source: BOP data.

Allegations named staff in all but 1 of 16 occupational categories.

       We examined the prevalence of criminal sexual abuse and sexual
misconduct allegations against employees in various occupations. We found
that, while staff in 15 of 16 BOP occupational categories were named in
allegations, some occupational categories were more likely to be involved in
allegations of sexual abuse of inmates than others. The occupational
categories involved in the highest numbers of allegations were correctional
services, unit and case management, food service, health and safety,
mechanical services, and education and vocational training. Staff members in
these occupational categories have the most contact with inmates. The
occupational categories that have the highest rates of allegations per 100
employees were food services (8.6), recreation (6), and education and vocational
training (5.2) (see Table 1).




U.S. Department of Justice                                                                 22
Office of the Inspector General
Evaluation and Inspections Division
  Table 1: Occupational Categories Ranked by the Rate of Sexual Abuse 

         and Sexual Misconduct Allegations Per 100 Employees, 

                       FY 2001 through FY 2008 


                                                                             Allegations
                                         Employees        Allegations         per 100
  Occupations                          No.      %        No.       %         Employees
   1. Food Service                    1,585    4.7%      137      8.6%           8.6
   2. Recreation                       698     2.1%      42       2.6%           6.0
   3. Education/Vocational
      Training                          984      2.9%     51      3.2%           5.2
   4. Correctional Services           15,866    46.7%    776     49.0%           4.9
   5. Unit/Case Management            3,060     9.0%     148      9.3%           4.8
   6. Inmate Services                   193      0.6%     9       0.6%           4.7
   7. Religion                          304      0.9%    13       0.8%           4.3
   8. Health/Safety                    2,402     7.1%    101      6.4%           4.2
   9. Psychological Services            931      2.7%    37       2.3%           4.0
  10. Federal Prison Industries,
      Incorporated                     1,353     4.0%      49     3.1%           3.6
  11. Mechanical Services              2,373     7.0%      65     4.1%           2.7
  12. Business                         1,657     4.9%      28     1.8%           1.7
  13. Records/Inmate Systems            988      2.9%      15     0.9%           1.5
  14. Computer Services                 233      0.7%       2     0.1%           0.9
  15. Warden’s Office                   927      2.7%       7     0.4%           0.8
  16. Human Resources                   433      1.3%       0     0.0%           0.0
  17. Occupation Unknown                 0       0.0%     105     6.6%           N/A
      All Employees                   33,987    100.0%   1,585   100.0%          4.7
 Note: Federal Prison Industries, Incorporated, is a wholly owned corporation of the
 U.S. government that operates factories and employs inmates in federal prisons to work in
 the factories.
 Source: BOP Office of Internal Affairs data.

The majority of allegations involved claims of criminal sexual abuse.

      As discussed above, of the 1,585 allegations of sexual abuse and sexual
misconduct reported from FY 2001 through FY 2008, 1,028 (about 65 percent)
involved matters that would constitute criminal sexual abuse subject to
prosecution. Of those 1,028 allegations that involved potentially criminal
matters:

       	   9.3 percent (95) alleged aggravated sexual assault (engaging in a
            sexual act by use of force or placing the inmate in fear of death or
            serious bodily injury);

       	   55.4 percent (570) alleged sexual abuse (engaging in a sexual act with
            an inmate by threat or force) and sexual abuse of a ward (engaging in
            a sexual act with an inmate); and

U.S. Department of Justice                                                             23
Office of the Inspector General
Evaluation and Inspections Division
                               35.3 percent (363) alleged abusive sexual contact (touching).

       We examined trends in the categories of criminal staff sexual abuse
alleged and found that allegations increased over the past 8 years for all
categories of criminal sexual abuse except for the most serious (aggravated
sexual assault). There were 21 total allegations of aggravated sexual assault in
the first 2 years we reviewed (FY 2001 and FY 2002) and 20 total allegations in
the last 2 years (FY 2007 and FY 2008). In contrast, comparing those same
time periods, allegations of criminal sexual abuse and sexual abuse of a ward
increased by 72 percent (from 94 to 162) and abusive sexual contact
allegations increased 174 percent (from 46 to 126). Figure 4 shows the
breakout of allegations by type over time.

                               Figure 4: Allegations of Staff Criminal Sexual Abuse by Type,
                                                  FY 2001 through 2008

                           100
   Number of Allegations




                            90
                            80
                            70
                            60
                            50
                            40
                            30
                            20
                            10
                             0
                                    2001    2002    2003     2004     2005     2006     2007    2008

                                                             Fiscal Years
                                                   Aggravated Sexual Assault
                                                   Sexual Abuse and Sexual Abuse of a Ward
                                                   Abusive Sexual Contact
 Note: The BOP does not make a distinction in its records between criminal sexual abuse
 and sexual abuse of a ward. As a result, we could not determine how many of the
 allegations involved sexual abuse with coercion and threats and how many did not.
 Source: BOP Office of Internal Affairs data.

Gender-based differences existed in the allegations of staff sexual abuse.

       While we found some similarities, we also found differences in the types
of allegations made against male and female staff members. Both male and
female staff members were frequently accused of criminal sexual abuse and
sexual abuse of a ward with a victim of the opposite gender. However, while


U.S. Department of Justice                                                                         24
Office of the Inspector General
Evaluation and Inspections Division
male staff members were frequently accused of abusive sexual contact with
inmates of the same gender, female staff members were rarely accused of
abusive sexual contact with inmates of the same gender. The gender of the
accused staff member was not recorded in 29 of the 1,585 allegations made
from FY 2001 through FY 2008.

Allegations Against Male Staff Members

      As shown in Figure 5, BOP officials reported 1,013 of 1,585 (65 percent)
allegations of sexually abusive behaviors involving male staff members. Of
those, 414 (41 percent) involved allegations of sexual misconduct and 599
(59 percent) involved allegations of criminal sexual abuse.

       Figure 5: Allegations of Staff Criminal Sexual Abuse and Sexual 

                 Misconduct Involving Male Staff Members, 

                         FY 2001 through FY 2008 





                     Sexual
                  M isconduct,
                      41%
                      (414)

                                                       Criminal

                                                     Sexual Abuse,

                                                          59%

                                                         (599)





        Source: BOP data.

       Of the 599 allegations of criminal sexual abuse, there were 66
(11 percent) allegations of aggravated sexual abuse, 256 (43 percent)
allegations of sexual abuse and sexual abuse of a ward, and 277 (46 percent)
allegations of abusive sexual contact involving male staff members. Figure 6
shows the distribution of those allegations by the type of crime and the gender
of the alleged subject and inmate victim.




U.S. Department of Justice                                                 25
Office of the Inspector General
Evaluation and Inspections Division
                                 Figure 6: Allegations of Criminal Sexual Abuse 

                                         Involving Male Staff Members, 

                                           FY 2001 through FY 2008


                           250
   Number of Allegations




                                                                                 211
                                                    191
                           200

                           150

                           100                                                          86
                                    43      44
                           50                                          23

                            0
                                 Male Staff and Male Inmate        Male Staff and Female Inmate

                                      Aggravated Sexual Abuse
                                      Sexual Abuse and Sexual Abuse of a W ard
                                      Abusive Sexual Contact

  Source: BOP Office of Internal Affairs data.

      As shown in Figure 6, male staff members were most often accused of
 criminal sexual abuse and sexual abuse of a ward with female inmates (211 or
 35 percent) and abusive sexual contact with male inmates (191 or 32 percent).
 BOP officials believed that male staff members were most often accused of
 sexual misconduct stemming from pat searches. Although abusive sexual
 contact (touching) constitutes a crime rather than misconduct, the high
 number of abusive sexual contact allegations provides some support for the
 BOP’s perception.

Allegations Against Female Staff Members

      As shown in Figure 7, BOP officials reported 543 allegations of sexually
abusive behaviors involving female staff members. Of those, 139 (26 percent)
involved allegations of sexual misconduct and 404 (74 percent) involved
allegations of criminal sexual abuse.




U.S. Department of Justice                                                                        26
Office of the Inspector General
Evaluation and Inspections Division
       Figure 7: Allegations of Staff Criminal Sexual Abuse and Sexual 

                Misconduct Involving Female Staff Members, 

                         FY 2001 through FY 2008


                          Sexual
                       M isconduct
                           26%




                                                           Criminal
                                                         Sexual Abuse
                                                             74%


          Source: BOP Office of Internal Affairs data.

       Of the 404 allegations of criminal sexual abuse, there were 21 (5 percent)
allegations of aggravated sexual abuse, 306 (76 percent) allegations of sexual
abuse and sexual abuse of a ward, and 77 (19 percent) allegations of abusive
sexual contact. Figure 8 shows the distribution of those allegations by the type
of crime and the gender of the alleged inmate victim. Female staff members
were most often accused of criminal sexual abuse and sexual abuse of a ward
with male inmates. Few allegations involved female staff members and female
inmates.




U.S. Department of Justice                                                  27
Office of the Inspector General
Evaluation and Inspections Division
                                    Figure 8: Allegations of Criminal Sexual Abuse 

                                           Involving Female Staff Members, 

                                              FY 2001 through FY 2008


                              350


                              300                                                      291
      Number of Allegations




                              250


                              200


                              150


                              100
                                                                                                70

                              50
                                                 14                             21
                                          0               7
                               0
                                    Female Staff and Female Inmate         Female Staff and M ale Inmate

                                                  Aggravated Sexual Abuse
                                                  Sexual Abuse and Sexual Abuse of a W ard
                                                  Abusive Sexual Contact



     Note: The data includes 404 allegations of criminal sexual abuse involving female
     staff members. The gender of one alleged victim was not known and was excluded
     from the chart.
     Source: BOP Office of Internal Affairs data.

Alleged Staff Sexual Abusers as a Percentage of the Workforce

       Female employees were the subject of allegations of sexually abusive
behavior at a higher rate than they were represented in the BOP workforce.
The composition of the BOP workforce has remained stable at approximately
73.5 percent male and 26.5 percent female since before 2001. However, as
shown in Figure 9, the proportion of all allegations of sexually abusive
behaviors, including criminal sexual abuse and sexual misconduct, with female
staff members named as subjects ranged from 30 percent to 39 percent in each
year from FY 2001 through FY 2008, which exceeds the proportion of female
staff members in the BOP workforce (26.5 percent). Approximately 6 percent of
all female staff members were the subjects of allegations of sexually abusive



U.S. Department of Justice                                                                                 28
Office of the Inspector General
Evaluation and Inspections Division
behaviors, predominantly of cross-gender offenses, from FY 2001 through
FY 2008.28

        Figure 9: Percentage of Allegations of Criminal Sexual Abuse 

          and Sexual Misconduct Involving Female Staff Members, 

                         FY 2001 through FY 2008 




   100%
    90%
                                                        Female staff members
    80%                                                 make up 26.5% of BOP
    70%                                                 staff.
    60%
    50%                                           39%            39%
            33%                33%      34%                             36%
    40%              30%                                                       32%
    30%
    20%
    10%
     0%
            2001     2002      2003     2004     2005            2006   2007   2008
                                          Fiscal Year

 Source: BOP Office of Internal Affairs data.

      In contrast, the proportion of all allegations of sexually abusive
behaviors, including criminal sexual abuse and sexual misconduct, involving
male staff members named as subjects ranged from 61 percent to 70 percent in
each year of our study period, which was less than their representation in the
BOP workforce (73.5 percent) in every year reviewed. (See Figure 10.)
Approximately 4 percent of all male staff members were the subjects of
allegations of sexually abusive behaviors. More than half of those male staff
members were the subject of same-gender allegations.




       28 The percentage of staff members of each gender who were the subject of allegations
was based on the total number of allegations and an 8-year average of the number of staff of
each gender. Multiple allegations naming the same subject were only counted once. There was
an 8-year average of 8,600 female and 23,908 male staff members.


U.S. Department of Justice                                                            29
Office of the Inspector General
Evaluation and Inspections Division
       Figure 10: Percentage of Allegations of Criminal Sexual Abuse 

           and Sexual Misconduct Involving Male Staff Members, 

                        FY 2001 through FY 2008


  100%
    90%
    80%
            67%       70%        67%       66%                                         68%
    70%                                                 61%          61%        64%
    60%
    50%                                               Male staff members
    40%                                               make up 73.5% of staff.

    30%
    20%
    10%
     0%
            2001      2002       2003      2004         2005         2006       2007   2008
                                                Fiscal Year
 Source: BOP Office of Internal Affairs data.

Cross-Gender Allegations

       Cross-gender allegations of sexually abusive behavior, meaning those
involving male staff and female inmates or female staff and male inmates, were
greater than same-gender allegations. Of the 1,556 allegations where the sex
of the alleged staff abuser was known, 966 (62 percent) were cross-gender. Of
these 966 cross-gender allegations, 702 involved criminal sexual abuse and
264 involved sexual misconduct. The number of allegations of sexually abusive
behavior involving female staff members and male inmates exceeded those
involving male staff members and female inmates each year from FY 2004
through FY 2008. While the BOP workforce is 73.5 percent male and
26.5 percent female, 53 percent (512) of cross-gender allegations involved
female staff members and 47 percent (454) involved male staff members.

      Figure 11 shows the total number of cross-gender criminal sexual abuse
allegations (702) by female (382) or male (320) staff members from FY 2001
through FY 2008. The data demonstrates that since FY 2004, female staff
members have been the subject of more allegations of cross-gender criminal
sexual abuse than have male staff members.




U.S. Department of Justice                                                                30
Office of the Inspector General
Evaluation and Inspections Division
                   Figure 11: Cross-Gender Allegations of Criminal Sexual Abuse, 

                                      FY 2001 through 2008 


                  70                                                                  65         62
                  60                                             54         54                             54
                                                                      48
                  50                                   42 44                     43                             43
    Allegations




                                                42
                  40                34                                                      35        31
                               28
                  30                       23
                  20
                  10
                       0
                            2001           2002        2003     2004       2005       2006       2007      2008

                                         Female Staff/Male Inmate           Male Staff/Female Inmate
Source: BOP Office of Internal Affairs data.

      Figure 12 shows the number of cross-gender allegations of staff sexual
misconduct (264) by female (130) and male (134) staff members from FY 2001
through FY 2008. Since 2005, female staff members have been the subject of
more allegations of cross-gender sexual misconduct that have male staff
members.

                  Figure 12: Cross-Gender Allegations of Staff Sexual Misconduct,
                                      FY 2001 through 2008

                  30
                                                                     23    24
                  25
                                                                20                               21
                                                           19                         19                   18
  Allegations




                  20
                                               16     16                        16         15         16        16
                  15           13

                  10                       7
                           5
                  5

                  0
                           2001            2002       2003      2004       2005       2006       2007      2008

                                               Female Staff/Male Inmate    Male Staff/Female Inmate

Source: BOP Office of Internal Affairs data.




U.S. Department of Justice                                                                                       31
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            32
Office of the Inspector General
Evaluation and Inspections Division
SECTION II: BOP EFFORTS TO DETER STAFF SEXUAL ABUSE INCIDENTS

       Some BOP prison officials are not adequately considering
       alternatives to placing victims in isolation when they receive
       allegations of staff sexual abuse and sexual misconduct, a
       practice that can inhibit reporting of sexual abuse. Some BOP
       prison officials also are not providing sufficient victim
       services to inmates who raise allegations of sexual abuse. In
       addition, some prisons did not report all such allegations to
       the BOP’s Office of Internal Affairs and the OIG as required.
       We concluded that BOP officials could improve staff training
       and inmate education about sexual abuse prevention and
       reporting, and also improve oversight of prisons’ sexual abuse
       prevention programs.

      As discussed in the Background section of this report, the BOP has
established a zero-tolerance standard for staff sexual abuse; developed
standard procedures for detecting and preventing sexually abusive behavior;
and established protocols for responding to, reporting, and investigating
allegations of staff sexual abuse at its prisons. The BOP categorizes sexually
abusive behaviors as sexual fondling, sexual misconduct, sexual assault (rape),
and sexual assault with an object. Staff members are responsible for
understanding and complying with the BOP’s policies and procedures and for
reporting all allegations or incidents of staff sexual abuse and sexual
misconduct. Each Warden is required to assign a program coordinator who
has overall responsibility for the prison’s sexual abuse prevention and
intervention program and for coordinating the efforts of the prison’s designated
response team.

     According to BOP Program Statement 5324.06, Sexually Abusive
Behavior Prevention and Intervention Program, April 2005, the BOP’s sexual
abuse prevention program has five key elements:

       	 Prevention through staff training and inmate screening, classification,
          and education;

       	 Detection through awareness and monitoring;

       	 Intervention through reporting and responding to all allegations to
          ensure that alleged victims are protected and provided with
          psychological and medical services;




U.S. Department of Justice                                                  33
Office of the Inspector General
Evaluation and Inspections Division
       	 Investigations that include crime scene preservation, physical
          evidence collection, and after-action reviews; and

       	 Disciplining and prosecuting all sexual abusers, maintaining full and
          accurate recordkeeping, and conducting analysis of incidents.

When some BOP prison officials received allegations of staff sexual abuse
and sexual misconduct, they did not adequately consider alternatives to
placing victims in isolation, a practice that can inhibit reporting of sexual
abuse.

       In response to allegations of sexual abuse, BOP officials frequently
attempt to protect potential victims by isolating them in a special housing unit
or a local jail, without considering alternatives. However, this isolation can
have negative effects on the victims of staff sexual abuse or sexual misconduct
and their willingness to report their abuse.

       As discussed below, BOP officials at four of seven prisons included in
this review told us that they routinely protected alleged victims from potential
further abuse by segregating them from the general prisoner population,
isolating them in a special housing unit or local jail, and then transferring
them to another prison as soon as possible.29 Those actions, while intended to
protect the victims from additional abuse, often disadvantaged the prisoner
victims and made other inmates reluctant to report abuse because they
regarded those actions as punishment. In contrast, BOP officials at the three
other prisons told us they used segregation, isolation, and transfer as a last
resort because of the detrimental impact those actions can have on the alleged
victim and the willingness of other inmates to report staff sexual abuse.30 The
officials at these three prisons instead used other measures to protect the
inmates, as recommended by BOP policy and described below.

      BOP policy provides alternatives for protecting victims. According to BOP
Program Statement 5324.06, Sexually Abusive Behavior Prevention and
Intervention Program, a prison’s sexual abuse prevention Program Coordinator
       29 The four prisons that routinely placed alleged victims in isolated segregation

included three Federal Correctional Complexes with low, medium, and high security facilities
for male prisoners. One of the complexes also had an adjacent satellite camp for female
prisoners. The other facility was a low security Federal Correctional Institution housing female
prisoners that also had an adjacent detention center for male prisoners.

       30  The three prisons that considered alternatives to segregating the victims included a
Federal Detention Center for pre-trial male and female prisoners, a low security Federal
Correctional Institution for female prisoners with an adjacent satellite camp for minimum
security females; and a Federal Medical Center providing specialized medical and mental health
services for female prisoners.


U.S. Department of Justice                                                                34
Office of the Inspector General
Evaluation and Inspections Division
should decide how best to safeguard an alleged victim after reviewing the
incident report and the results of the alleged victim’s psychological and, when
appropriate, medical assessments. The program statement also lists options
for safeguarding an alleged inmate victim of staff sexual abuse to prevent
further abuse and to protect the victim from retaliation by other staff and
inmates for making an allegation. Those options range from the most
restrictive (placing the alleged victim in a special housing unit and transferring
the alleged victim to another prison) to the least restrictive (leaving the inmate
in the general population, but monitoring the situation). BOP policy also
allows prison officials to protect the alleged victim by changing the victim’s
housing and work assignments to separate the victim from the alleged abuser
and by changing the accused staff member’s work assignments and duty
station or placing the staff member on home duty pending completion of the
investigation.31

      BOP staff members that we interviewed at four of the seven prisons told
us that their Wardens have sole discretion in deciding how to safeguard alleged
victims and that, despite other options, they automatically placed alleged
victims in a special housing unit, other isolated unit, or local jail until they
could be transferred to another prison.

      Isolated segregation and transfers disadvantage victims and inhibit
reporting. As noted above, inmates who raise allegations of staff sexual abuse
and sexual misconduct are sometimes placed in special housing units and
subsequently transferred to other prisons to protect them from the risks of
further abuse and retaliation by staff members and other inmates. However,
we were told by BOP psychologists, wardens, and investigators; OIG Special
Agents; and U.S. Attorneys that those measures can result in a victim’s loss of
educational and rehabilitative programs and other privileges as well as
estrangement from their families. Clinical psychologists working at three
prisons told us that isolation in a special housing unit or local jail can be
emotionally and physically stressful to victims and result in a form of re-
victimization. The psychologists and other BOP staff said that, if an inmate is
kept in the special housing unit for more than a week, disruptions in the
inmate’s treatment and education programs are also likely to occur. A transfer
to another prison can be especially difficult for inmates who have young
children living near the prison because a transfer can take the inmates
hundreds of miles away, thereby limiting their contact with their families.

       31 According BOP Program Statement 5270.07, Inmate Discipline and Special Housing

Units, December 29, 1987, disciplinary segregation is a form of separation from the general
inmate population in which prisoners who commit serious violations of BOP rules are confined
as punishment and as a deterrent to further prohibited behavior. Administrative detention is a
non-punitive status in which an inmate is confined in isolation to ensure the safety of the
inmate or others.


U.S. Department of Justice                                                              35
Office of the Inspector General
Evaluation and Inspections Division
       An Associate Warden for Operations at a Federal Correctional Institution
Danbury told us that when an alleged victim is sent to the special housing
unit, the inmate may remain in the unit for 1 to 2 weeks, several months, or
even a year, depending on the complexity of the investigation and whether
there is a subsequent prosecution. He said that moving the alleged victim to
another prison also limits investigators’ access to the victim, which inhibits the
investigation. An OIG Special Agent who has investigated multiple staff sexual
abuse cases told us transfers can be very difficult for female inmates because
the BOP has far fewer female prisons than male prisons and they are
geographically dispersed.

       A BOP Special Investigative Agent working at the Federal Correctional
Complex Coleman told us that Coleman does not have a special housing unit
for its female inmates. Consequently, female victims are sent to the Sumter
County Sheriff’s jail until they are transferred to another federal prison, the
closest being 200 miles away from Coleman. While the prisoner is awaiting
transfer (usually 2 to 3 weeks) to another federal prison, Sheriff’s personnel
consider the prisoner to be in a “hold-over” status and, consequently, do not
allow the inmate visits from family members. Once transferred, inmates can
become estranged from their families who may lack the resources to travel
longer distances to visit them.

       While some inmates want to be moved after reporting staff sexual abuse,
others fear isolation and the resultant loss of privileges they have earned
through good behavior. BOP staff, OIG Special Agents, BOP investigators, and
U.S. Attorneys told us that prisoner victims may be less likely to report sexual
abuse of another inmate, admit they have been victimized, or ask for protection
from a sexually abusive staff member because they regard assignment to the
special housing unit and a transfer as punitive. Inmates also may be less
likely to admit they were victims when the abuse is reported by a third party.
According to two U.S. Attorneys we interviewed, inmates often initially deny
being victims out of fear of being put in segregated isolation or being
transferred. While they may later admit the abuse, their credibility with
prosecutors, judges, and juries has been diminished by their initial denial.

       Alternatives exist to isolated segregation and transfers. Personnel at
three of the seven prisons we reviewed told us that because of the negative
impacts of isolating and transferring victims of sexual abuse, they consider less
restrictive options for protecting alleged victims whenever possible.32 The Chief
of Psychology Services for the Federal Detention Center Philadelphia told us

       32 The three prisons were the Federal Detention Center Philadelphia, the Federal
Correctional Institution Danbury, and the Federal Medical Center Carswell.



U.S. Department of Justice                                                                36
Office of the Inspector General
Evaluation and Inspections Division
that she interviews the alleged victims to assess their treatment needs and to
determine how to minimize the risk of future abuse. She said victims
sometimes express anxiety during the interviews about running into the
perpetrators and want to be placed in the special housing unit. However, she
said isolation in the special housing unit can be extremely detrimental to the
mental health of the victims. She believes that other options, such as leaving
the prisoners in the general prison population and monitoring the situation,
changing the inmates’ housing and work assignments to separate them from
the alleged perpetrators, and reassigning the alleged perpetrators or putting
them on home duty should always be considered. At the Federal Correctional
Institution Danbury, the Warden said her institution considers the full range of
options and tries not to put alleged victims in the special housing unit. The
Special Investigative Supervisor at Danbury said that, in the last couple of
abuse cases, Danbury personnel have reassigned or transferred the accused
staff members to home duty instead of moving the alleged prisoner victims. He
also said that they sometimes allow the prisoner to transfer back to Danbury
after the investigation, especially when the perpetrator has resigned or been
terminated.

       According to a Program Manager for the sexual abuse prevention
program at the Federal Medical Center Carswell, staff there cannot
automatically transfer alleged victims because they may be ill and require
special medical or mental health treatment that can be provided only at
Carswell.33 Instead of moving an alleged victim, the Warden prefers to reassign
the accused staff member to prevent contact with the victim. Although the
Warden and Captain determine how the alleged victim will be safeguarded, the
Program Manager said they try to use the special housing unit as a last resort.
She said they also talk with each alleged victim and, if the prisoner does not
want to be moved, the staff will try to keep the victim in the general population
as long as the victim feels comfortable and can be closely monitored. The BOP
Special Investigative Agent at Carswell told us that one of the reasons inmates
do not like to transfer out of the general population is because their
participation in education or drug programs can be terminated if they are sent
to the special housing unit for more than a week.

     We concluded that alleged victims should not automatically be placed in
BOP special housing units and subsequently transferred to another prison.
Rather, decisions about how best to protect an alleged victim should be made

         33 The Federal Medical Center Carswell was unique among the prisons in our review

because it had both a Program Coordinator who provided program oversight and a Program
Manager who was responsible for day-to-day management of the sexual abuse prevention
program. Also, at the suggestion of a former inmate and staff sexual abuse victim, Carswell
officials had installed a dedicated telephone hotline so that prisoners could confidentially
report sexual abuse to prison officials.


U.S. Department of Justice                                                               37
Office of the Inspector General
Evaluation and Inspections Division
after individually assessing the risks to the inmate in each prison and
considering less restrictive protective methods. The Program Coordinator
should decide how best to protect the victim from further abuse after
conferring with other members of the response team, talking with the prisoner,
and reviewing the prisoner’s psychological and medical assessments as
required by the BOP Program Statement.

Recommendation

       We recommend that the:

       1. BOP require prison officials to assess the risks and consider BOP-
          sanctioned alternatives for safeguarding alleged prisoner victims of
          staff sexual abuse instead of automatically segregating, isolating, and
          transferring the prisoner victims.

Victims’ psychological and medical services may have been curtailed at
some prisons.

        We found that Psychology and Medical Services staff at some prisons
could not verify that all prisoner victims who had reported being sexually
abused by a staff member had been referred for psychological assessments and
medical assessments when the Program Coordinator believed that physical
contact or injury was involved. BOP policy requires that in all cases of alleged
sexual abuse, the Operations Lieutenant promptly refer all inmates reported or
suspected of being the victim of sexually abusive behavior to Psychology
Services for an assessment of vulnerability and treatment needs. The Program
Coordinator, who at some prisons is also the Chief of Psychology, is required to
review the initial psychological assessment before determining whether to
activate the full response protocol. Psychology Services personnel are
responsible for crisis intervention, assessment of treatment needs,
documentation of the evaluation results, treatment, psychiatric referral, and
other treatment options for the alleged victim. Medical Services personnel are
responsible for examining, documenting, and treating inmates’ injuries arising
from sexually abusive behaviors, including testing when appropriate for
pregnancy, HIV, and other sexually transmitted diseases. Where indicated,
medical staff, trained in the collection of physical evidence should conduct an
examination for physical evidence that may be important to a subsequent
investigation. While psychological assessments are supposed to be conducted
for all alleged inmate victims of sexual abuse, not all victims require medical
services.

       Two prisons that we visited – Federal Detention Center Philadelphia and
Federal Medical Center Carswell – could not provide us with information to
verify that required psychological and medical assessments were completed in

U.S. Department of Justice                                                   38
Office of the Inspector General
Evaluation and Inspections Division
all cases of alleged sexual abuse. Philadelphia provided information on mental
health evaluations for 20 alleged inmate victims of staff sexual abuse. Of the
20 cases, psychology records indicated that only 10 inmates were seen by
Psychology Services personnel specifically in response to their allegations of
sexual abuse. Philadelphia had medical records for only 2 of the 20 alleged
victims because they had been transferred, along with their medical records, to
other prisons. According to Philadelphia, those two cases did not involve
physical contact or injury and, therefore, did not require a medical assessment.
Similarly, Carswell provided information from psychology and medical records
about evaluations on 12 of the 52 total cases of alleged sexual abuse reported
during the study period. In the remainder of the cases, psychology or medical
records were not available because the inmates had been transferred to other
prisons or had been released from prison.

       The Program Coordinators and Chiefs of Psychology and Medical Services
at three other prisons said that they had not been informed of all allegations of
sexual abuse involving staff members. Consequently, some alleged prisoner
victims of sexual assaults and sexual abuse had not received psychological and
medical services, as required. The Chiefs of Psychology at Coleman, Danbury,
and Victorville confirmed that psychological services had not always been
provided for alleged victims of staff sexual abuse in the past. For example, the
Chief of Psychology at Coleman stated that Psychology Services reviewed the
psychology records of the inmates involved in the complex’s 30 allegations of
staff sexual abuse and found that only 1 of the alleged victims had undergone
the required psychological assessment. All three told us that they had recently
taken steps to ensure that they or a member of their staff is notified when
allegations of staff sexual abuse are made and that alleged victims receive
psychological assessments of their treatment and protection needs.

        The failure to provide victim services may stem in part from the BOP’s
guidance about who must be notified about staff-on-inmate sexual abuse
allegations. Program Statement 5324.06 states that all sexual abuse
allegations should be reported to the Operations Lieutenant who, in turn,
informs the Program Coordinator; health, psychology, and correctional services
staff; investigators; and the Warden. However, the Special Investigative
Supervisors Manual requires BOP investigators to notify the Warden
immediately of an allegation involving a staff member, and the Warden, in turn,
must report the allegation to the BOP’s Office of Internal Affairs and to the OIG
or FBI. The manual states, “Access to information regarding an investigation
at an institution shall be on a ‘need-to-know basis.’ ”

      BOP investigators and administrative staff at four prisons told us that
the “need to know” provision sometimes results in prison officials delaying or
deciding not to refer alleged victims for assessments by psychology and medical
personnel. They said this is especially true when an allegation is made against

U.S. Department of Justice                                                  39
Office of the Inspector General
Evaluation and Inspections Division
senior staff. For example, BOP investigators and administrative staff told us
that allegations involving staff alleged to have sexually abused a prisoner are
reported directly to the Special Investigative Agent and the Warden, and the
Warden may decide not to notify other members of the sexual abuse response
team, especially those who are not part of the facility’s Executive Staff such as
the Chief of Psychology. Consequently, in some cases the sexual abuse
response protocols were not followed because concerns for the privacy of the
accused staff member took precedence over the need to provide victim
services. According to BOP staff members at the prisons we visited, this
heightened level of confidentiality is not a concern when the alleged perpetrator
is another prisoner and therefore the sexual abuse response protocol is
followed routinely. We believe alleged victims should receive psychological and
medical services without delay and that the provision of victim services should
not and does not compromise the privacy of the accused staff member.

Recommendations

       We recommend that the:

       2. BOP develop procedures to ensure that all alleged inmate victims of
          staff sexual abuse receive psychological and medical assessments and
          that prison officials maintain a record of the accomplishment of the
          assessments.

       3. BOP clarify guidance contained in Program Statement 5324.06 and
          the Special Investigative Supervisors Manual for reporting staff sexual
          abuse allegations and consider developing a separate program
          statement for responding to allegations of staff sexual abuse of
          prisoners.




U.S. Department of Justice                                                  40
Office of the Inspector General
Evaluation and Inspections Division
Some prisons were not reporting all allegations of staff sexually abusive
behavior.

Some allegations were not reported to the BOP’s Office of Internal Affairs and
the OIG as required.

       We found that BOP investigative personnel at two prisons we visited – the
Federal Detention Center Philadelphia and the Federal Correctional Institution
Danbury – had not been reporting allegations they determined were unfounded
to the OIA and the OIG. We concluded that some BOP staff members may be
confused about the need to report all allegations to the BOP’s OIA and the OIG,
even those that they believe are unfounded, because of certain guidance
contained in BOP Program Statement 5324.06 for the sexual abuse prevention
program, which states:

       In some cases, the Program Coordinator will determine that there
       is not sufficient reason to proceed; that is, the alleged victim
       credibly recanted, the alleged perpetrator was not in the institution
       on the date of the allegation, etc., and the Response Protocol may
       be terminated.

The program statement may give the impression that unless the full response
protocol is activated, the allegation does not have to be reported.

       Further, when BOP investigative personnel do not report all allegations to
the OIA and the OIG, it affects the accuracy of the BOP’s annual reporting of
sexual abuse allegations to the Bureau of Justice Statistics. Under the
provisions of the Prison Rape Elimination Act, the BOP is required to report and
certify to the Bureau of Justice Statistics once a year that all allegations of staff
sexually abusive behavior have been reported, including those allegations the
BOP determines are unfounded. The Bureau of Justice Statistics defines
unfounded allegations as those in which “the event was determined not to have
occurred.” At four of the BOP prison facilities that we visited, prison officials
told us that most allegations were unfounded, but the BOP’s OIA database only
contained 66 unfounded allegations for our 8-year study period. In addition,
the BOP had reported only 18 unfounded allegations of staff sexual abuse and
sexual misconduct to the Bureau of Justice Statistics since 2004, which was
the first year for reporting under the provisions of the Prison Rape Elimination
Act.

      We believe that BOP officials at all levels should report all allegations,
including those that they have determined to be unfounded, to the OIA and the
OIG, as well as in the BOP’s annual report to the Bureau of Justice Statistics.



U.S. Department of Justice                                                     41
Office of the Inspector General
Evaluation and Inspections Division
Recommendation

       We recommend that the:

       4. BOP direct prison officials to ensure that all allegations of staff sexual
          abuse are reported to the OIA, OIG, and Bureau of Justice Statistics,
          including those thought to be unfounded.

OIA’s database of allegations did not specify in all cases the prison facility
where the alleged incident occurred.

        We found that information in the OIA database did not always identify
the specific prison facility where incidents of sexual abuse and sexual
misconduct were alleged to have occurred. For example, the BOP has 14
correctional complexes that include multiple prisons with different security
levels located in close proximity to one another. Also, other stand-alone
facilities may have satellite camps that have a different security level than the
main facility. OIA officials told us that they record information in the OIA
database about each allegation by the name of the accused staff member and
the complex where the staff member was assigned without specifying the
facility within the complex where the incident was alleged to have occurred. In
order to conduct trend analysis by type of facility, an OIA official told us they
would have to conduct a manual review of each investigative case file. This
method of recording makes it difficult for senior BOP regional and
headquarters administrators to review the number of allegations at each prison
facility to identify trends and determine whether corrective measures are
needed.

Recommendation

       We recommend that the:

       5. BOP require OIA officials to record the specific name of the prison
          facility where each allegation of staff sexual abuse and sexual
          misconduct was reported to have occurred.

BOP officials do not adequately train staff or educate inmates about
sexual abuse prevention and reporting.

Staff Training

       During 2008, BOP officials stated that they took steps to improve staff
training aimed at preventing sexual abuse crimes. In a November 24, 2008,
memorandum, the BOP’s Assistant Director, Correctional Programs Division,
told the OIG of recent and planned improvements in sexual abuse prevention

U.S. Department of Justice                                                       42
Office of the Inspector General
Evaluation and Inspections Division
training that were to be part of the Institutional Familiarization and Annual
Refresher training for BOP personnel. The revised training included a handout
listing the warning signs of inappropriate relationships between staff and
inmates and a video, “Facing Prison Rape,” developed by the National Institute
of Corrections to educate staff on the Prison Rape Elimination Act and to
reinforce the BOP’s zero-tolerance standard for staff sexual abuse.

       The Assistant Director also stated that the agency was working on a
training video in which the BOP Director will address the BOP’s zero-tolerance
standard. It will include the BOP’s Chief of the Office of Internal Affairs
speaking about the revised sexual abuse laws and the reality of having to
register as a sex offender. The video is intended to become part of Institutional
Familiarization and Annual Refresher training, but was not ready during our
fieldwork.

       Although the BOP is taking steps to improve training, its training on
gender-specific issues remains incomplete and out of date. As previously
discussed, almost all criminal sexual abuse allegations made against female
staff were cross-gender and approximately half of the criminal sexual abuse
allegations made against male staff were cross-gender. However, the cross-
gender training the BOP provides as an enhancement to the initial law
enforcement training all staff members receive focuses primarily on male staff
members working in a female institution. It does not address the issues faced
by female staff members working in a male institution.

       According to BOP Program Statement 5200.01, Management of Female
Offenders, August 4, 1997, female inmates have different physical, social, and
psychological needs than male inmates, and management strategies that work
well with male inmates can have a negative effect on female inmates because
many female inmates have a prior history of sexual trauma and abuse.
Therefore, to better prepare male and female staff members to work in a female
prison, the BOP requires all staff members to complete an interactive, 40-hour,
self-study online course, “Managing Female Offenders,” each time they are
assigned to work in a female prison, no matter how many times they have
taken it in the past. This course is the only course the BOP offers that deals
with gender-specific issues. It explains how female inmates serve their
incarceration differently from male inmates, how some female inmates may
manipulate staff, and how staff can avoid being manipulated by female
inmates. The course has not been revised since February 2003 and, therefore,
does not address the 2006 statutory changes that made sexual abuse of a ward
and abusive sexual contact felonies. The course also does not address the
implications of the statutory changes making sex offender registration
mandatory if a staff member is convicted of one of those crimes.



U.S. Department of Justice                                                  43
Office of the Inspector General
Evaluation and Inspections Division
       The BOP’s initial law enforcement training for new employees focuses on
managing male inmates. However, female staff members working with male
inmates are involved in cross-gender allegations at a higher rate than their
male staff colleagues. Approximately 6 percent of all female staff members
compared to approximately 2 percent of male staff members were the subjects
of allegations of cross-gender criminal sexual abuse or sexual misconduct
during our 8-year study period. Consequently, the BOP needs improved cross-
gender training for female staff members working in male prisons.

Recommendations

       We recommend that the:

       6. BOP revise its self-study course, “Managing Female Offenders,” to
          include instruction on the 2006 statutory changes that increased the
          penalties for sexual abuse of a ward and abusive sexual contact and
          that require staff members convicted of those crimes to register as sex
          offenders.

       7. BOP develop improved training for female staff working in male
          prisons that focuses specifically on preventing and detecting female
          staff sexual abuse of male inmates.

Inmate Education

       The BOP’s sexual abuse prevention program provides inmate education
when inmates are initially incarcerated and when they are transferred to a new
prison. In addition, all inmates receive a copy of the BOP’s 2005 pamphlet,
“Sexually Abusive Behavior Prevention and Intervention, An Overview for
Offenders.” However, the information provided in the pamphlet is unclear and
outdated. The BOP needs to update the pamphlet to include the 2006
statutory changes. The BOP also needs to clarify language in the pamphlet
that we believe could incorrectly lead a prisoner victim to think that he or she
would be disciplined or prosecuted for being sexually abused by a prisoner or a
staff member. For example, the following excerpts from the pamphlet could be
misleading to inmates, particularly the last sentence of the second excerpt.

       Excerpt 1:

       Prohibited Acts: Prisoners who engage in inappropriate sexual
       behavior can be charged with the following Prohibited Acts under
       the Inmate Disciplinary Policy.
              Code 101/(A): Sexual Assault
              Code 205/(A): Engaging in a Sex Act

U.S. Department of Justice                                                  44
Office of the Inspector General
Evaluation and Inspections Division
              Code 206/(A): Making a Sexual Proposal
              Code 221/(A): Being in an Unauthorized Area with a
                            Member of the Opposite Sex
              Code 300/(A): Indecent Exposure
              Code 404/(A): Using Abusive or Obscene Language

       Excerpt 2:

       What is sexually abusive behavior? . . . NOTE: Sexual acts or
       contacts between two or more inmates, even when no objections
       are raised, are prohibited acts, and may be illegal. Sexual acts or
       contacts between an inmate and a staff member, even when no
       objections are raised by either party, are always forbidden and
       illegal.

The pamphlet language also is very formal and does not provide a practical
definition of staff-on-inmate sexual abuse and assault.

Recommendation

       We recommend that the:

       8.	 BOP revise and update the 2005 Sexually Abusive Behavior
           Prevention and Intervention pamphlet to clarify that inmates will not
           be prosecuted or disciplined for being the victim of staff sexual
           abuse. In addition, the pamphlet should be revised to include a
           practical definition of staff-on-inmate sexual abuse and assault.

BOP officials have not set a goal for reducing staff sexual abuse and do not
adequately oversee prisons’ activities regarding sexual abuse of inmates.

      The Prison Rape Elimination Act requires the BOP to make the
elimination of all types of sexual abuse in prison a top management priority.
One of Congress’s stated purposes in passing the Act was to increase the
accountability of prison officials who fail to detect, prevent, reduce, and punish
prison rape. According to the National Prison Rape Elimination Commission:

       Agencies must demonstrate zero tolerance not merely by words
       and written policy, but through actions, the setting of clear
       priorities, and the achievement of objective, measurable outcomes.

No Strategic Goal for Eliminating Staff Sexual Abuse

      In response to the Prison Rape Elimination Act, BOP officials have
established a national strategic goal of limiting the rate of serious inmate-on-

U.S. Department of Justice                                                   45
Office of the Inspector General
Evaluation and Inspections Division
inmate assaults, including sexual assaults, in federal prisons to 14 assaults
per 5,000 inmates by FY 2012.34 However, BOP officials have not established a
goal of reducing the rate of staff-on-inmate sexual abuse. We believe that the
establishment of measurable goals for reducing staff sexual abuse would signal
to the BOP’s managers that they will be held accountable for their efforts in
preventing and detecting staff sexual abuse, providing victim services,
thoroughly investigating and resolving allegations, and ensuring that staff
members who sexually abuse inmates are dealt with appropriately.

Recommendation

       We recommend that the:

       9.	 BOP establish a national goal for reducing staff sexual abuse of
           federal inmates.

No Oversight of Sexual Abuse Program at Prisons

      The BOP’s primary internal management control system requires that its
Program Review Division conduct reviews of all BOP programs every 3 years.
In addition, prisons are required to conduct operational reviews of all of their
programs at least annually. Wardens also are required to conduct after-action
reviews following allegations or incidents of sexual assault and to issue written
reports on their findings. We found that these three levels of oversight have
not been applied to the BOP’s sexual abuse prevention program.

       Program Reviews. According to the Senior Deputy Assistant Director,
Program Review Division, the BOP has not conducted a program review focused
specifically on assessing the effectiveness of its sexual abuse prevention
program.35 Instead, the reviews have focused on prison departments and
functions such as Correctional, Psychological, and Health Services. However,
portions or elements of the sexual abuse prevention program have sometimes
been included in reviews of departments or functions. For example, one review
of a prison’s Psychology Services program included an examination of the files
of 10 inmates who had received crisis intervention counseling to determine

       34   U.S. Department of Justice, FY 2008 Performance and Accountability Report, II-49.

        35 According to BOP Program Statement 1210.23, Management Control and Program

Review Manual, August 21, 2002, the Program Review Division is responsible for conducting
program reviews, which examine institutional compliance with laws, rules, regulations, and
policy; adequacy of controls; efficiency of operations; and effectiveness in achieving program
results. Program reviews are intended to provide Wardens, Regional Directors, and officials in
the BOP’s Central Office with information for assessing institutional performance, making
program improvements, allocating resources, and developing strategic goals and objectives.


U.S. Department of Justice                                                                46
Office of the Inspector General
Evaluation and Inspections Division
whether treatment plans were developed as required by BOP policy and
standards of practice. One of the case files may have included a treatment
plan for an alleged victim of sexual abuse but this would have been solely by
chance. We concluded that the BOP should address its Sexually Abusive
Behavior Prevention and Intervention Program during periodic reviews.

Recommendation

       We recommend that the:

       10. BOP conduct periodic program reviews to assess the effectiveness of
           the Sexually Abusive Behavior Prevention and Intervention Program.

        Operational Reviews. Institution officials conduct annual operational
reviews to evaluate the strengths and weaknesses of BOP prisons’ programs
and take corrective action. The Warden of each prison is responsible for
ensuring that operational reviews are conducted within established time frames
and is the review authority at the institutional level. At the region or division
level, the Regional Director or the Assistant Director is designated as the review
authority.36 BOP officials we interviewed at four prisons told us they had not
conducted operational reviews of their prisons’ sexual abuse prevention
program. Further, as with program reviews, we found the operational reviews
focused on functions rather than programs and therefore did not include a
comprehensive, interdisciplinary evaluation of a prison’s sexual abuse
prevention program. Regular operational reviews could lead to prison
improvements, such as posting surveillance cameras in areas known to be the
frequent location of instances of sexual abuse to prevent and detect staff sexual
abuse of inmates in those locations.

Recommendation

       We recommend that the:

       11. BOP direct prison officials to conduct operational reviews to assess
           the strengths and weaknesses of their sexual abuse prevention
           program.

     After-Action Reviews. According to BOP Program Statement 5324.06,
Wardens are required to conduct after-action reviews to assess the actions of

       36 According to BOP Program Statement 1210.23, Management Control and Program
Review Manual, August 21, 2002, operational reviews are patterned after the program reviews
and reference the same national program review guidelines. BOP managers can conduct an
operational review at any time to determine program effectiveness, identify program
weaknesses, and correct them through strategic planning.


U.S. Department of Justice                                                             47
Office of the Inspector General
Evaluation and Inspections Division
staff following an incident of “rape or sexual assault with an object” and to
issue a written report of their findings. The Warden has to approve a written
report of the relevant facts of the case and forward it to the Regional Director
within 2 working days after an incident of rape or sexual assault with an
object. The Associate Warden for Psychology Services and Program
Coordinator of the Sexually Abusive Behavior Prevention and Intervention
Program at the Federal Correctional Complex Beaumont told us that the BOP
“used to do after-action reports after certain types of incidents, but now they
just do panel reviews. Usually, there isn’t a formal report because attorneys
use them against BOP in litigation, and if there is one, it is narrowly
distributed.”

       While we believe it is important for Wardens to conduct after-action
reviews of aggravated sexual assaults, we also believe it is important that they
review their institutions’ responses to incidents of other types of felony sexual
abuse. From FY 2001 through FY 2008, the BOP had only one substantiated
incident of aggravated sexual abuse, which means that prison officials were
required to conduct only one after-action review. However, the BOP had 113
substantiated incidents of other types of criminal sexual abuse for which no
after-action reviews were required. While not required, some prison officials
have conducted after-action reviews for these other types of criminal sexual
abuse and identified ways to improve their prevention programs. For example,
officials at Federal Medical Center Carswell conducted a review after a prison
priest was found guilty of multiple counts of sexual abuse in the prison’s
chapel. As a result, prison officials remodeled the chaplain area into a suite of
offices, adding glass panes in all office doors and a new camera system to
thwart further abuse.

       We believe that limiting after-action reviews to allegations of rape or
sexual assault with an object is too narrow and reduces the information
available to the BOP to evaluate its sexual abuse prevention program. Further,
we believe that program, operational, and after-action reviews of prisons’
implementation of the requirements of the BOP’s sexual abuse prevention
program are critical for ensuring that prisons are complying with procedures
for preventing, detecting, reporting, investigating, and responding to staff
sexual abuse. Program reviews can identify and correct weaknesses in the
BOP’s sexual abuse prevention program and determine where resources should
be spent to help reduce the incidence of staff sexual abuse and misconduct.
Operational reviews can identify internal problems with the BOP’s sexual abuse
prevention programs. Finally, the BOP’s policy of requiring after-action reports
on only two extreme types of sexual abuse cases prevents the BOP from
obtaining useful information to assess compliance with the requirements of its
program statement and its prisons’ response protocols.



U.S. Department of Justice                                                   48
Office of the Inspector General
Evaluation and Inspections Division
Recommendation

       We recommend that the:

       12. BOP revise Program Statement 5324.06 to require Wardens to
           conduct after-action reviews of their responses to criminal staff
           sexual abuse incidents.




U.S. Department of Justice                                                     49
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            50
Office of the Inspector General
Evaluation and Inspections Division
SECTION III: USMS POLICIES AND PRACTICES RELEVANT TO STAFF
SEXUAL ABUSE

       The USMS does not have a program for preventing, detecting,
       investigating, and addressing staff sexual abuse in its cellblock
       and transportation operations. The USMS has not established
       written protocols for reporting and responding to allegations
       of staff sexual abuse, has not trained staff concerning their
       responsibilities for preventing, detecting, and responding to
       staff sexual abuse, nor has it provided prisoners with
       information on reporting sexual abuse. Consequently, the
       USMS cannot ensure that victims of sexual abuse are provided
       proper medical and support services or that physical evidence
       of abuse is preserved for investigative purposes.

The USMS does not have a program for preventing staff sexual abuse.

        The Prison Rape Elimination Act’s requirement that correctional and law
enforcement authorities with responsibility for the operation of confinement
facilities take a zero-tolerance stance toward sexual abuse extends to the
USMS in its responsibility for cellblocks and transportation of prisoners.

        The USMS manages cellblocks in federal courthouses in each of 94
federal judicial districts and transports about 350,000 prisoners each year.
USMS employees transport federal prisoners in USMS vehicles to and from
court appearances and medical appointments and between correctional
facilities. USMS employees also monitor prisoners during their confinement in
cellblocks while they are awaiting court appearances. Because USMS
personnel do not have the same extended contact with prisoners as BOP staff,
the USMS does not have the same potential for reoccurring sexual abuse
between a staff member and a prisoner. Nevertheless, during USMS periods of
prisoner supervision, there are opportunities for staff to sexually abuse
prisoners.

Allegations Reported to the USMS Office of Internal Investigations and the OIG

       We found that from FY 2001 through FY 2008, the USMS’s Office of
Internal Investigations reported six allegations of staff sexual abuse to the OIG,
none of which were substantiated on sexual abuse charges. The OIG
investigated one allegation, and the USMS Office of Internal Investigations
handled the remaining five. In four of the cases, prisoners alleged they were
sexually abused by a USMS staff member during transport (two cases), in a
cellblock (one case), and during an arrest (one case). In the fifth case, a female
prisoner alleged that two Deputy U.S. Marshals failed to take action when she
reported being sexually abused during transport by male prisoners and that

U.S. Department of Justice                                                   51
Office of the Inspector General
Evaluation and Inspections Division
one of the Deputies had made a sexually explicit remark when she reported her
abuse to him. In the sixth case, a federal prisoner alleged retaliation by
Deputy U.S. Marshals after the prisoner’s attorney reported that the prisoner
had been sexually assaulted by a county jail employee. In only one of the six
cases was the alleged victim able to identify the subject. According to a USMS
official with the Prisoner Operations Division, Deputy U.S. Marshals do not
wear name tags, so a victim would not be able to identify the abuser except
through a description or lineup.37

Implementation of the Prison Rape Elimination Act

      In 2007 testimony before the National Prison Rape Elimination
Commission, a USMS official acknowledged that “because we deal with such a
large population of prisoners, it is important for us [USMS] to look at the
implications of the recently established Prison Rape Elimination Act.”38
However, in the 6 years since passage of the Act, USMS administrators have
not established protocols for responding to and reporting incidents of staff
sexual abuse. In addition, the USMS has not provided training to inform
USMS personnel of their responsibilities for responding to allegations of staff
sexual abuse and the potential consequences of engaging in sexual acts or
behaviors with prisoners. Finally, it has not provided prisoners in USMS
custody with information about how to report staff sexual abuse.

Internal Reporting and Response Protocol

       In our review of the USMS’s written policies, we found that USMS
personnel are required to immediately report all allegations of staff sexual
abuse of prisoners to the USMS Office of Internal Investigations, which in turn
must notify the OIG.39 We found no other written USMS policies providing
direction on matters such as providing victim services or protecting physical
evidence.



       37  While there were no substantiated cases of staff sexual abuse during our study
period, the USMS has had confirmed cases in the past. One notable case involved a Deputy
U.S. Marshal who was convicted of engaging in abusive sexual contact with prisoners under
his supervision at a USMS-operated cellblock in a courthouse. He was sentenced to 51 months
of incarceration.

       38 National Prison Rape Elimination Commission hearing, Lockups, Native American

Detention Facilities, and Conditions in Texas Penal and Youth Institutions, March 26-27, 2007,
29.

       39USMS Directive 2.2, Critical Reporting Requirements, Misconduct Investigations,
June 2007.


U.S. Department of Justice                                                                52
Office of the Inspector General
Evaluation and Inspections Division
      An official in the USMS Prison Operations Division stated that, if there
was an allegation of staff sexual abuse, the USMS would respond to the
allegation based on the nature of the allegation and “common sense.” The
same official stated that if an assault occurred in a cellblock, the USMS
personnel would call 911 and the prisoner would receive medical attention.

      USMS officials said the agency’s general policies for protecting prisoners
and USMS personnel provide protection against staff sexual abuse. For
example, USMS policy requires that during transport, a certain number of
USMS personnel must supervise prisoners. When transporting a female
prisoner, one of the personnel must be female, if possible. If all male staff
members are used, supervisory authorization is required and the time and
place of departure, odometer reading, persons in the vehicle, and estimated
and actual time of arrival must be recorded in the radio log.

      USMS policy also sets a standard for the number of USMS personnel
that are required whenever a cell is unlocked or entered, when a prisoner is
moved in the cellblock, and when meals are served. USMS policy states that
the standard number also applies whenever a prisoner of the opposite sex is
involved. In addition, an incident report is required if any problems arise
during cross-gender supervision. According to USMS policy, cellblocks are
monitored regularly, and all prisoners must be observed and counted at
various intervals.

       USMS officials stated that these policies are sufficient to prevent, detect,
investigate, and deal with the consequences of staff sexual abuse in its
cellblock and transportation operations. However, we believe that these
policies alone are insufficient and the USMS should develop policies specific to
the prevention, detection, and investigation of staff sexual abuse. Further, the
USMS should train USMS personnel on how to respond to and report
allegations of staff sexual abuse, how to identify either vulnerable prisoners or
other key indicators of potential abuse by fellow staff members, how to protect
themselves from being compromised, and the potential criminal and civil
consequences of engaging in sexual acts with prisoners. Without written
policies and sufficient training, USMS personnel may delay safeguarding an
alleged victim or referring an alleged victim for medical treatment. They may
also lose physical evidence such as DNA by failing to secure a crime scene or
by failing to take a victim for a forensic medical examination.40

       40 The National Prison Rape Elimination Commission has drafted national standards for

eliminating sexual abuse in lockups, which include cellblocks. The standards call for the
establishment of a zero-tolerance standard that is communicated throughout an agency; a
written plan that outlines a coordinated response by medical staff, investigators, mental health,
and victim advocates; staff training; and inmate education. As of July 7, 2009, the
recommended national standards had not yet been adopted by the Attorney General.


U.S. Department of Justice                                                                 53
Office of the Inspector General
Evaluation and Inspections Division
Prisoners Not Told How to Report Staff Sexual Abuse

      Federal prisoners held in USMS-managed cellblocks and those being
transported by USMS staff members are not informed of how to report
incidents of staff sexual abuse or what to do if they are victimized. When asked
whether prisoners were provided with either oral or written information about
reporting staff sexual abuse, an official with the USMS’s Prisoner Operations
Division stated that signs are posted in the cellblock instructing prisoners to
report problems to a Deputy U.S. Marshal.

Summary

       We believe that the USMS policies described above do not provide
sufficient guidance to staff for reporting and responding to allegations of staff
sexual abuse of federal prisoners in USMS custody. Furthermore, USMS
administrators are not providing oversight of USMS operations to ensure that
personnel are responding appropriately to such allegations by protecting the
alleged victim and providing victim services, securing the crime scene,
collecting physical evidence, and ensuring that staff sexual abusers are dealt
with appropriately.

Recommendations

       We recommend that the:

       13. USMS develop and implement policy that ensures a zero-tolerance
           standard and that is aimed at preventing staff sexual abuse of
           federal prisoners under USMS custody in cellblocks and during
           transportation.

       14. USMS develop and implement standard procedures for responding
           to, reporting, and investigating allegations of staff sexual abuse in
           cellblocks and during transportation.

       15. USMS provide oversight and periodic reviews to ensure the
           effectiveness of USMS staff sexual abuse prevention policy and to
           assess the strengths and weaknesses of USMS prevention operations
           in cellblocks and during transportation.

       16. USMS collect and analyze data on staff sexual abuse allegations,
           investigations, and prosecutions.




U.S. Department of Justice                                                    54
Office of the Inspector General
Evaluation and Inspections Division
SECTION IV: INVESTIGATIONS OF STAFF SEXUAL ABUSE ALLEGATIONS

       Most investigations into allegations of staff sexual abuse are
       inconclusive as to whether the alleged abuse occurred. The
       majority of the inconclusive investigations involved serious
       allegations of staff sexual abuse or sexual misconduct.

       OIG and BOP investigators that we interviewed told us that investigating
staff sexual abuse cases poses many challenges that make reaching a definitive
conclusion about an alleged incident difficult. Challenges that the
investigators cited included the following:

       	 Victims of sexual abuse often delay reporting incidents. According to
          personnel at six prisons we reviewed, inmates may not report sexual
          abuse because, as discussed previously, those who do are frequently
          isolated in solitary confinement after reporting and then transferred to
          another prison that may be farther from their families. Inmate victims
          who report incidents often delay doing so until they have been
          transferred to another institution for some other reason. An
          institution’s psychologist who routinely counsels sexual abuse victims
          stated that many female prisoners have a history of being sexually
          abused prior to their incarceration and may not report their
          victimization because they do not recognize it as abuse. Indeed, many
          allegations of staff sexual abuse are reported by an individual other
          than the victim. Approximately 70 percent of the staff sexual abuse
          investigations the OIG opened between FY 2001 and FY 2008 resulted
          from a report by a third party, such as a staff member or fellow inmate.
          If abuse is not reported promptly, victims’ memories of the incidents
          may blur and they may forget important details. When that happens,
          investigators say it is even more challenging for them to independently
          corroborate the victims’ accounts of the abuse with information
          available in BOP logbooks and other sources. Additionally, when
          reporting is delayed physical evidence may be lost.

       	 Corroborating physical evidence is typically unavailable. Unlike
          sexual assaults by force where there may be evidence of bodily injury
          to the victim, staff sexual abuse rarely results in bodily injury to the
          victims. In addition, what little DNA or trace evidence such as hairs
          or fibers that may be available, may be lost if victims do not promptly
          report the abuse. DNA and other trace evidence on the victim’s body
          generally must be collected within 72 hours after the crime occurs to
          have any chance of being usable.41 Similarly, DNA collected from the

       41   Sexual Assault Nurse Examiner (SANE) Development and Operation Guide.


U.S. Department of Justice                                                          55
Office of the Inspector General
Evaluation and Inspections Division
            victim’s clothing or the crime scene often deteriorates and may not be
            usable if it is not collected close in time to the incident.42

       In addition to the general challenges in conducting investigations in a
prison environment, BOP investigators at six of the seven facilities we reviewed
told us that they were hampered by a lack of training and experience.43 These
local investigators handle most of the cases that the OIG refers back to the
BOP for investigation.

       According to the BOP local investigators, specialized investigative
training covering topics such as evidence gathering and crime scene evaluation
was reduced from 2 weeks to 1 week in 2005. When asked why the training
was reduced, BOP officials stated that budgetary constraints limited the funds
available for travel to attend the training and some of the training duplicated
other training provided to BOP Lieutenants. However, over the last year BOP
officials have reevaluated the specialized investigative training and determined
that it should be a longer course to better address the curriculum. The BOP
will start providing the expanded training in FY 2010. BOP local investigators
also told us that they sometimes receive additional training, but it is at the
discretion of their Warden. For example, one local investigator said that the
Warden had sent him to FBI training on interrogation and crime scene
preservation. Another local investigator said the FBI came to the prison to
provide similar training at his request. In total, investigative officers at six of
the seven prisons we reviewed told us that they rely primarily on on-the-job
training, such as mentoring from OIG and FBI Special Agents and other BOP
investigators.

       The results of the reviews that the BOP’s Office of Internal Affairs
conducts of field investigations may be an indicator that BOP investigators
need more training. Since 2007, the Office of Internal Affairs has been
reviewing investigations of staff (not just sexual abuse cases) completed by BOP
local investigators. This change resulted from an OIG report recommending

       42   BOP Program Statement 1380.05, Special Investigative Supervisors (SIS) Manual,
contains procedures for BOP investigative personnel to properly handle and preserve various
types of crime scene evidence, including DNA evidence such as hair, body fluids, tissue, and
clothing that may contain DNA evidence from both the victim and assailant. The SIS manual
states, “It is not appropriate for SIS staff to attempt to develop into evidence lab technicians,
but it is appropriate to develop the skills to recognize evidence and preserve it so that
competent authorities can evaluate it.” The BOP does not have policy regarding obtaining DNA
evidence from a female inmate’s miscarried or aborted fetus to potentially determine the
identity of an assailant in a sexual abuse case.

       43  Depending on the size of the institution, a BOP local investigator is either a
correctional officer at the Lieutenant level who is permanently assigned as a Special
Investigative Agent or a Special Investigative Supervisor.


U.S. Department of Justice                                                                  56
Office of the Inspector General
Evaluation and Inspections Division
that review and approval of investigations be handled separately from
disciplinary decisions.44 After implementation of this new policy, OIA’s review
found that approximately one-third of the investigations were deficient and OIA
returned the investigative cases back to prison investigators for further
investigation. OIA could not tell us how many of the deficient cases involved
staff sexual abuse allegations, but the number of cases sent back for additional
investigation indicates that field investigators need more training to improve
their skills.

       In addition to limited training, some Special Investigative Supervisors
may not serve long enough to develop the experience needed to conduct
thorough investigations. For example, one of the prisons we reviewed relied on
a rotational Special Investigative Supervisor to conduct local staff sexual abuse
investigations rather than a permanently assigned Special Investigative Agent
like six other facilities we reviewed.45 The Special Investigative Supervisor
position is generally assigned as a temporary rotation (usually 18 months),
which can inhibit development of long-term investigative expertise and
institutional knowledge.46

      An OIG Special Agent who has worked closely with several local
investigators told us that even when there is a permanent Special Investigative
Agent, the position is often a stepping stone for career advancement within the
BOP and, thus, there is frequent turnover in the position. Consequently,
developing and retraining experienced investigators who understand how to
address the challenges of staff sexual abuse and have institutional knowledge
of specific prisons may be difficult for the BOP.



       44  Prior to 2007, Wardens would review an investigation and decide on appropriate
discipline when an allegation of staff misconduct was sustained. Now, the Office of Internal
Affairs reviews and approves the investigation before the Warden makes the determination on
punishment. The OIG’s Review of the Federal Bureau of Prisons’ Disciplinary System,
Evaluation and Inspections Report I-2004-008 (September 2004), recommended this change.

       45  BOP officials at the Federal Prison Camp in Duluth said they had no allegations of
staff sexual abuse or misconduct from FY 2001 through FY 2008, and the camp is not included
as one of the seven prisons that we reviewed. However, if an allegation had occurred the camp
would have relied on a Special Investigative Supervisor to conduct the investigation.

        46 Program Statement 1380.05, Special Investigative Supervisors Manual, updated

June 1998, states that at institutions that do not have a permanent Special Investigative
Agent, but rather a GS-11 Lieutenant serving as a Special Investigative Supervisor, that
position “shall ordinarily rotate at 18 month intervals.” However, one Warden told us that this
policy does not preclude a longer assignment and that she has purposely kept the same
employee as the Special Investigative Supervisor for the past 3 years to retain an experienced
employee in that position.


U.S. Department of Justice                                                                57
Office of the Inspector General
Evaluation and Inspections Division
Recommendations

       We recommend that the:

       17. BOP increase training for Special Investigative Agents and
           Supervisors, reinstating the 2 weeks of instruction previously
           offered.

       18. BOP consider assigning Special Investigative Supervisors to longer
           rotations or on a permanent basis to ensure they have the
           experience and investigative skills needed to conduct thorough
           investigations.

Trends in Sexual Abuse and Sexual Misconduct Investigations

       The challenges of conducting investigations in a prison environment
described above are reflected in the high rate of inconclusive determinations by
all agencies that investigate staff sexual abuse.47 In the following sections, we
describe the trends in OIG, FBI, and BOP investigations of staff sexual abuse.

       OIG Investigations into Allegations of Staff Sexual Abuse. From FY 2001
through FY 2008, OIG Special Agents opened 508 investigations into
allegations of sexual abuse by BOP staff. As of September 30, 2008, the OIG
had completed 473 of those investigations. The OIG opened an average of 71
investigations into allegations of sexual abuse or misconduct per year during
the first 6 years we reviewed (through FY 2006), and opened 41 investigations
each during FY 2007 and FY 2008. According to an OIG Supervisory Agent,
the OIG has seen an increase in recent years of allegations that lack sufficient
investigative leads to merit opening a case, and this may have contributed to
the decline in the number of investigations.

      Of the 473 closed investigations, OIG Special Agents determined that the
evidence showed that staff criminal sexual abuse or misconduct occurred in
203 cases (43 percent) and that the allegations were unfounded in 5 cases


        47 After an investigation is completed, the investigator determines whether sexual

abuse occurred (substantiated), did not occur (unfounded or exonerated), or could not be
determined (unsubstantiated or inconclusive). An allegation is “substantiated” when the
investigator determines that the evidence supported the material facts of the alleged incident.
The BOP designates allegations as “unfounded” when investigators develop evidence contrary
to an allegation or when an allegation was frivolous. The OIG “exonerates” the subject of a
sexual abuse allegation when it finds positive evidence that the subject is innocent. Both of
these latter designations mean that sexual abuse did not occur. An allegation is
“unsubstantiated” or inconclusive when the evidence does not allow the investigator to
determine whether the alleged incident occurred or not.


U.S. Department of Justice                                                                 58
Office of the Inspector General
Evaluation and Inspections Division
(1 percent). OIG Special Agents were not able to conclusively determine
whether allegations were true or untrue in the remaining 265 cases
(56 percent). Table 2 shows the outcomes of the OIG investigations by fiscal
year.

                             Table 2: OIG Investigations, 

                              FY 2001 through FY 2008 

                                                 Outcomes of Closed Cases
                                      Sexual Abuse or  Sexual Abuse
                                          Sexual         or Sexual
   Fiscal                               Misconduct      Misconduct
   Year       Opened      Closed         Occurred      Did Not Occur   Inconclusive*
     2001        70          70             32                  1                 37
     2002        51          51             18                  0                 33
     2003        84          82             35                  2                 45
     2004        87          87             37                  0                 50
     2005        68          68             27                  1                 40
     2006        66          62             29                  0                 33
     2007        41          36             17                  1                 18
     2008        41          17              8                  0                 9
     Total      508         473         203 (43%)            5 (1%)           265 (56%)
  * An inconclusive outcome means that the allegation was unsubstantiated.

  Source: OIG Investigations Division data. 



       FBI Investigations into Allegations of Staff Sexual Abuse. The FBI
investigated a small number of allegations of BOP staff sexual abuse (17 cases)
during the 8 years we reviewed.48 As noted above, the FBI sometimes responds
to allegations when it is better positioned geographically to provide an
immediate response than the OIG. Additionally, some staff sexual abuse cases
that were prosecuted as civil rights violations were investigated by the FBI at
the request of the DOJ Civil Rights Division.49 Of the 15 investigations
completed by the FBI, allegations were substantiated in 3 cases (20 percent),
while 12 cases (80 percent) were inconclusive.


        48 As previously stated, the Automated Case System (ACS) is used by the FBI to

electronically record case information. Its design does not allow for the extraction of data
specific to investigations of staff sexual abuse and sexual misconduct. Therefore, we used non-
FBI data sources to identify the cases investigated by the FBI.

       49 When staff sexual abuse involves coercion or force, the perpetrator may be
prosecuted under 18 U.S.C. § 242, Deprivation of Rights Under the Color of Law, instead of
18 U.S.C. §§ 2241-2244.


U.S. Department of Justice                                                                59
Office of the Inspector General
Evaluation and Inspections Division
       BOP Investigations into Allegations of Staff Sexual Abuse. Allegations of
staff sexual abuse or sexual misconduct that are not investigated by the OIG or
FBI may be investigated by either the BOP’s Office of Internal Affairs or
delegated for investigation to the BOP’s Special Investigative Agents or Special
Investigative Supervisors at the specific prisons. As shown in Table 3, from
FY 2001 through FY 2008, BOP investigators opened 1,101 investigations into
allegations of staff sexual abuse or misconduct with inmates. As of
September 30, 2008, they had completed 921 of the investigations. The
number of investigations opened by the BOP has generally increased over the
past 8 years. The BOP opened an average of 119 investigations into allegations
of sexual abuse or misconduct per year during the first 6 years we reviewed
(through FY 2006) and opened 201 and 188 investigations during FY 2007 and
FY 2008, respectively. However, most BOP investigations did not result in
definitive outcomes. In total, only 88 (10 percent) of the 921 investigations
completed by the BOP from FY 2001 through FY 2008 had conclusive
outcomes, while the remaining 833 (90 percent) were inconclusive.

            Table 3: Outcomes of Investigations Closed by the BOP, 

                          FY 2001 through FY 2008

                                                 Outcomes of Closed Cases
                                      Sexual Abuse or Sexual Abuse
                                          Sexual        or Sexual
   Fiscal                               Misconduct     Misconduct
   Year       Opened      Closed         Occurred     Did Not Occur    Inconclusive*
     2001        52          52              1               4                47
     2002        91          91              6               17               68
     2003       108         107              5               10               92
     2004       134         131              3               7                121
     2005       140         134              6               7                121
     2006       187         169              3               9                157
     2007       201         158              4               1                153
     2008       188          79              3               2                74
    Total      1,101        921           31 (4%)         57 (6%)         833 (90%)
  * An inconclusive outcome means that the allegation was unsubstantiated.

  Source: BOP Office of Internal Affairs data. 


      More specifically, 497 (54 percent) of the 921 closed cases were
investigations of criminal sexual abuse, of which 57 (11 percent) had a
conclusive outcome and 440 (89 percent) had an inconclusive outcome. The
remaining 424 (46 percent) of closed cases were investigations of sexual
misconduct, of which 31 (7 percent) had a conclusive outcome and 393
(93 percent) had an inconclusive outcome. The BOP reached a definitive


U.S. Department of Justice                                                            60
Office of the Inspector General
Evaluation and Inspections Division
conclusion in slightly more criminal sexual abuse cases. However, overall the
BOP had similar inconclusive rates for both types of sexually abusive behavior
cases. This indicates that both types of cases are equally challenging for BOP
investigators.

       We found that investigations conducted by the BOP’s Office of Internal
Affairs were more likely to result in a definitive conclusion than were
investigations conducted by local investigators at BOP facilities. When the OIG
returns cases to the BOP for investigation, the Office of Internal Affairs handles
the cases that are more complex or involve higher profile subjects such as
employees with significant supervisory authority (Captain or above) and
employees who are union representatives. The remaining cases are returned to
the prisons for local investigation. Of the 921 completed investigations, Office
of Internal Affairs investigators conducted 136 and reached a definitive
conclusion in 40 (29 percent). Prison investigators conducted the other 785
investigations and reached a definitive conclusion in only 48 cases (6 percent).
(See Table 4.)

        Table 4: Outcomes by Investigative Office of Completed 

     BOP Investigations of Staff Sexual Abuse and Sexual Misconduct, 

                        FY 2001 through FY 2008 

                                                         Outcomes
                                      Sexual Abuse or   Sexual Abuse
                                          Sexual          or Sexual
   Investigative                        Misconduct       Misconduct
   Office                 Closed         Occurred       Did Not Occur   Inconclusive*
   Office of Internal
                            136           11 (8%)         29 (21%)            96 (71%)
   Affairs
   Prison                   785           20 (2%)          28 (4%)            737 (94%)
   Total                    921           31 (4%)          57 (6%)        833 (90%)
  * An inconclusive outcome means that the allegation was unsubstantiated.

   Source: BOP Office of Internal Affairs data.


      Office of Internal Affairs investigators came to a definitive conclusion
more often than local prison investigators in both criminal sexual abuse cases
and sexual misconduct cases. They were able to determine that sexual abuse
occurred or did not occur in 29 percent of their cases, while prison
investigators were able to do so in only 6 percent of cases. Figure 13 shows a
comparison of the percentage of conclusive and inconclusive outcomes of
investigations by the OIG, BOP, and FBI.




U.S. Department of Justice                                                                61
Office of the Inspector General
Evaluation and Inspections Division
    Figure 13: Percentage of Staff Sexual Abuse and Sexual Misconduct 

        Cases with a Conclusive Outcome by Investigative Agency, 

                        FY 2001 through FY 2008 


       100%
                                                    90%
                                                                            80%
         80%
                            56%
         60%
                     44%
         40%
                                                                     20%
         20%
                                             10%
          0%
                         OIG                     BOP                      FBI

                                      Conclusive     Inconclusive
                                                                                     
     Source: BOP Office of Internal Affairs data and OIG Investigations Division

     data.


       In summary, of all the agencies conducting investigations, the BOP had
the most difficult time determining whether staff sexual abuse or sexual
misconduct occurred. While the OIG and the FBI were able to reach a
definitive conclusion in 44 percent and 20 percent of their respective cases, the
BOP resolved only 10 percent of its cases. However, OIG investigators told us
that the BOP’s lower rate of conclusive outcomes for its investigations is at
least partially a result of the OIG and the FBI having taken cases that had
stronger potential for criminal prosecution. Similarly, the BOP’s OIA has the
right of first refusal for cases investigated by the BOP. As a result, the fact that
investigations conducted by local prison staff have the lowest conclusive rate is
at least partly because the cases they investigate have the least viable
investigative leads.




U.S. Department of Justice                                                          62
Office of the Inspector General
Evaluation and Inspections Division
SECTION V: PROSECUTIONS OF STAFF SEXUAL ABUSE CASES

       U.S. Attorneys’ Offices slightly increased the percentage of
       criminal staff sexual abuse cases they accepted for
       prosecution since 2006 when legislation changed federal
       sexual abuse offenses from misdemeanors to felonies. All but
       7 of the 90 prosecutions of BOP staff from FY 2001 through
       FY 2008 resulted in a conviction, with 8 defendants convicted
       at trial and 75 pleading guilty.       While the number of
       defendants that received prison time has increased since the
       changes in the law, to date the legislation generally has not
       resulted in lengthier prison sentences for convicted staff.
       Further, female staff members are less likely than male staff
       members to receive prison sentences when convicted of sexual
       abuse of a ward, and females who were convicted received
       shorter sentences than their male colleagues.            Some
       prosecutors stated that staff sexual abuse cases often have
       limited jury appeal and present a variety of other challenges;
       however, we found that other prosecutors have successfully
       overcome these challenges.

Acceptance of staff sexual abuse cases for prosecution has increased since
enactment of stricter laws in 2006.

       On January 5, 2006, the Violence Against Women and Department of
Justice Reauthorization Act of 2005 increased the maximum criminal penalty
for sexual abuse of a ward from 1 to 5 years and the maximum penalty for
abusive sexual contact with a federal inmate without the use of threat or force
from 6 months to 2 years. The crimes, which had formerly been
misdemeanors, became felonies. On July 27, 2006, the Adam Walsh Child
Protection and Safety Act of 2006 further increased the maximum penalties for
sexual abuse of a ward to 15 years. The Adam Walsh Act also requires all
federal employees who are found guilty of any criminal sexual abuse offense
involving a federal inmate or detainee to register as sex offenders. We
examined how the change from misdemeanors to felonies affected acceptance
rates for prosecution and prosecutorial outcomes.

      The acceptance rate of criminal staff sexual abuse cases rose from
37 percent to 49 percent after enactment of the new laws. From FY 2001
through FY 2008, U.S. Attorneys accepted 102 (40 percent) of the 257 staff
sexual abuse cases referred for prosecution by the OIG’s Investigative




U.S. Department of Justice                                                 63
Office of the Inspector General
Evaluation and Inspections Division
Division.50 Of those 257 cases, 189 involved allegations of sexual abuse that
occurred before the changes in the law and the defendants were subject to the
misdemeanor penalties. Of these 189 cases, 69 (37 percent) were accepted for
prosecution and 120 (63 percent) were declined for prosecution.

      The remaining 68 cases presented for prosecution involved alleged sexual
abuse that occurred after the changes in the law and the defendants were
subject to conviction on felony charges. Of these 68 cases, 33 (49 percent)
were accepted for prosecution and 35 (51 percent) were declined. Figure 14
shows the increase in the acceptance rate since enactment of the new laws.

               Figure 14: Percentage of Staff Sexual Abuse Cases 

            Accepted and Declined for Prosecution by Applicable Law, 

                           FY 2001 through FY 2008


       100%

        80%
                                   63% (120)
        60%                                                               51% (35)
                                                              49% (33)
                        37% (69)
        40%

        20%

            0%
                      Old Laws (189 referrals)              New Laws (68 referrals)

                            Accepted for Prosecution     Declined for Prosecution

       Note: The change in the laws occurred on January 5, 2006, with the enactment of the
       Violence Against Women and Department of Justice Reauthorization Act of 2005
       Source: OIG Investigations Division database.


       The increased acceptance rate of criminal sexual abuse cases by federal
prosecutors since the changes in the law may indicate that prosecutors are
accepting the cases because they are now felonies instead of misdemeanors.
All the cases referred for prosecution involved BOP employees. Ultimately,
some of the cases were not prosecuted on sexual abuse charges even though
they involved an incident of sexual abuse that had been substantiated by an
investigation, an outcome we explain below.

       50  Of the 155 cases that were declined, 78 of the subjects resigned their positions,
1 retired, 6 were suspended, 8 were terminated, and 5 accepted pretrial diversion agreements.
See page 74 for a description of pretrial diversion.


U.S. Department of Justice                                                                   64
Office of the Inspector General
Evaluation and Inspections Division
Most prosecutions resulted in convictions.

      Out of the 102 cases accepted for prosecution from FY 2001 to FY 2008,
12 were still open as of September 30, 2008. As illustrated by Figure 15, the
remaining 90 cases that were resolved during the period of our review generally
resulted in convictions.

Figure 15: Status of Staff Sexual Abuse Cases Accepted for Prosecution
                  and Resolved by Close of FY 2008


                                                    Dismissed (Government's
                                        9%          Motion) (6)
                                             7%
                                                    Acquitted (1)
                                             1%

                                                    Convicted By Plea (75)



                   83%                              Convicted By Trial (8)




     Source: OIG Investigations Division data.

        Of the 90 resolved cases, 75 entered guilty pleas, 8 were convicted at
trial, 1 was acquitted by a jury, and 6 were dismissed by the government prior
to trial. Most of the convictions (90 percent) were convictions by plea in which
the prosecuting attorney and defendant negotiated the terms surrounding the
defendant’s admission of guilt, including the charges to which the defendant
would plead guilty and the charges the government would dismiss. When the
cases were examined by the gender of the defendant, male defendants
(87 percent) and female defendants (94 percent) were both predominantly
convicted by plea.




U.S. Department of Justice                                                    65
Office of the Inspector General
Evaluation and Inspections Division
      However, prosecutors have been successful at trial as well. Of the nine
cases taken to trial, all but one resulted in a conviction. At the end of the
review period, September 30, 2008, no sexual abuse cases subject to the new
laws had gone to trial and reached a verdict.

The percentage of convictions on sexual abuse charges decreased after the
change in laws.

       Prosecutors exercise their legal judgment in determining whether to
indict defendants on multiple charges or pursue a specific charge other than
sexual abuse, such as introducing contraband, accepting a bribe, or making a
false statement during the course of an investigation. In addition, in
negotiating a plea the defendant may admit guilt to certain charges but not
others. Therefore, some defendants may have committed the same types of
crime – such as sexual abuse of a ward – but been convicted on different
charges. Of the 83 convictions, 60 cases (72 percent) involved either a
conviction based solely on a sexual abuse charge or sexual abuse in addition to
another charge. The remaining 23 (28 percent) involved a conviction on a non-
sexual abuse related charge such as introducing contraband, making a false
statement during an investigation, or accepting a bribe. All of these cases
included an incident of staff sexual abuse that investigators considered to be
substantiated when the cases were referred for prosecution. We noted that in
the cases where defendants were subject to the new laws a higher percentage
were convicted on other charges, as opposed to a sexual abuse offense
(Figure 16). Overall, the percentage of the convictions obtained on sexual
abuse charges dropped from 78 percent under the old laws to 53 percent under
the new laws.




U.S. Department of Justice                                                66
Office of the Inspector General
Evaluation and Inspections Division
              Figure 16: Convictions Before and After Enactment 

                               of the New Laws, 

                          FY 2001 through FY 2008 


    100%

     90%
                     78% (50)
     80%
     70%

     60%
                                                          53% (10)
                                                                      47% (9)
     50%

     40%
     30%
                                 22% (14)
     20%
     10%

       0%
                           Old Laws                             New Laws

                        Sexual Abuse Charges      Non-Sexual Abuse Charges

  Source: OIG Investigations Division data and LexisNexis CourtLink records.

The new laws for sexual abuse offenses generally resulted more frequently
in prison sentences, but not in lengthier prison sentences for convicted
staff.

      The new laws appear to have increased the percentage of defendants who
received prison time for their convictions on sexual abuse charges, but most
defendants sentenced to prison still received 1 year or less. Of the 60
defendants convicted on sexual abuse charges, 59 have been sentenced. For
these 59 sentenced defendants, 15 of 50 (30 percent) received prison time
under the old laws compared to 7 of 9 (78 percent) who received prison time
under the new laws enacted in 2006. Figure 17 shows the sentences grouped
by applicable laws, with a higher percentage of defendants receiving prison
time under the new laws.




U.S. Department of Justice                                                      67
Office of the Inspector General
Evaluation and Inspections Division
                 Figure 17: Sentences Involving Incarceration
                   for Convictions on Sexual Abuse Charges
                 Before and After Enactment of the New Laws

       100%
                                                           78% (7)
         80%
                                  70% (35)
         60%

         40%           30% (15)
                                                                     22% (2)
         20%

          0%
                            Old Laws                           New Laws

                                      Prison Time   No Prison Time

      Note: We used the offense date to determine which laws applied to a particular
      case. This figure includes only convictions on sexual abuse charges. An
      additional 23 cases involved a substantiated incident of sexual abuse, but the
      defendant was convicted on another charge such as providing a false statement or
      introduction of contraband. We excluded one sexual abuse conviction under the
      new laws because the defendant had yet to be sentenced.
      Source: OIG Investigations Division data and LexisNexis CourtLink records.

       The new laws enacted in 2006 have not resulted in universally longer
prison sentences for defendants sentenced to prison. The majority of
sentenced defendants who received prison time received 1 year or less whether
sentenced under the old laws (13 of 15 defendants, or 87 percent) or whether
sentenced under the new laws (5 of 7 defendants, or 71 percent). For the
sentences at or under 12 months, the median for defendants under the old
laws was 10 months (sentences ranged from 3 to 12 months) compared to a
median of 5 months for defendants under the new laws (sentences ranged from
1 to 10 months). However, for the four defendants who received prison
sentences greater than 1 year, two defendants under the old laws received
lighter sentences (14 months and 108 months) than the two defendants under
the new laws (48 months and 120 months). Table 5 shows the length of the
prison sentences before and after enactment of new laws.




U.S. Department of Justice                                                               68
Office of the Inspector General
Evaluation and Inspections Division
 Table 5: Length of Prison Sentences Before and After Enactment of the 

               New Laws for Convictions on Sexual Abuse 

      Defendants Subject to the                             Defendants Subject to the
             Old Laws                      Prison                  New Laws
       Number of Defendants              Sentence            Number of Defendants
                                           1 month                     1
                  1                       3 months
                  1                       4 months
                                          5 months                       2
                   3                      6 months                       1
                   1                      9 months
                   2                      10 months                      1
                   5                      12 months
                   1                      14 months
                                          18 months
                                          21 months
                                          48 months                      1
                   1                     108 months
                                         120 months                      1
   Total         15                                     Total            7
  Note: Of the cases subject to the old laws, there were 10 convictions for sexual abuse of
  a ward, 4 convictions for sexual abuse of a ward and abusive sexual contact, and 1
  conviction for sexual abuse and sexual abuse of a ward. Of the cases subject to new
  laws, all convictions were for sexual abuse of a ward.
  Source: OIG Investigations Division data and LexisNexis CourtLink data.

      Despite the longer maximum sentences established in the criminal
statutes, the shorter prison sentences may be attributable to federal sentencing
guidelines considered by judges in sentencing convicted staff members. The
U.S. Sentencing Commission revises the federal sentencing guidelines annually
in November.51 During our study period, federal sentencing guidelines for
sexual abuse of a ward changed twice, once in November 2004 and again in
November 2007. The current sentencing guidelines recommend a penalty of 15
to 21 months for a first-time offender convicted of sexual abuse of a ward, the
most common charge. However, the guidelines state that judges may consider
decreasing the sentence to as low as 10 months if they believe that the
defendant has accepted responsibility for the crime. This reduction was also
available under prior versions of the guidelines. (See Appendix III for a fuller
description of the federal sentencing guidelines.)

      However, since the changes in the law involving prison sexual abuse in
2006 there have been two cases where judges have sentenced convicted staff
sexual abusers to prison sentences that exceeded the recommended guidelines.

       51The Supreme Court has determined that the guidelines are advisory rather than
mandatory. See United States v. Booker, 543 U.S. 220 (2005).


U.S. Department of Justice                                                               69
Office of the Inspector General
Evaluation and Inspections Division
One defendant sentenced after 2006 received 48 months’ incarceration
(significantly exceeding the 10 to16 months recommended in the guidelines
that applied at the time of the offense). The sentence was close to the
maximum of 5 years in the criminal statute in place at the time.52 The
defendant, a BOP chaplain, engaged in sexual acts with several inmates who
were participating in services and Bible study classes. The judge justified this
upward departure from the sentencing guidelines because the defendant
violated his duty not only as a correctional staff member but also as a member
of the clergy.

      In another case, a defendant received a 10-year sentence for sexual
abuse of a ward to be served concurrently with a 15-year sentence for
arranging his wife’s murder. The defendant was a BOP correctional officer who
began a sexual relationship with a female inmate in October 2007. As the
sexual relationship progressed, the defendant approached the inmate for
assistance in killing his wife. The defendant agreed to pay the inmate $5,000
in exchange for coordinating his wife’s murder.

Convicted female staff members received more lenient sentences.

       BOP staff at every level and at all of the prisons we visited told us they
believed that female staff sexual abusers were treated more leniently than male
staff sexual abusers. They said female perpetrators were less likely to be
prosecuted and, when convicted, less likely to receive prison time. BOP staff,
OIG Special Agents, and Assistant U.S. Attorneys stated that in their
experience juries and judges often ignored the statutory provision that consent
is not a defense to sexual contact between a female staff member and male
inmate and therefore did not consider the act to be a criminal offense. For
example, some BOP staff, OIG investigators, and prosecutors told us that a
common perception existed that a female staff member was not capable of
sexually abusing a male inmate and that she had to have been manipulated by
the inmate.

       One example of this misperception can be found in a FY 2007 case where
a female correctional officer charged with sexual abuse of a ward and
introduction of contraband pled guilty to the contraband charge in return for
the prosecutor’s promise to recommend a 1-month prison sentence. The court
rejected the recommended sentence and imposed probation instead, stating
that the defendant was an “incredibly vulnerable victim” who had been
manipulated by the inmate.

       52  The incident occurred after the Violence Against Women and Department of Justice
Reauthorization Act of 2005 raised the maximum to 5 years, but before the Adam Walsh Child
Protection and Safety Act raised the maximum to 15 years.


U.S. Department of Justice                                                             70
Office of the Inspector General
Evaluation and Inspections Division
       Our analysis of penalties for convictions on sexual abuse charges or on
associated charges such as introduction of contraband, bribery, or making
false statements shows that female staff members receive prison sentences at a
significantly lower rate than their male counterparts. As shown in Figure 18,
out of the 46 male defendants convicted and sentenced, 23 (50 percent)
received a prison sentence. However, out of the 36 female defendants
convicted and sentenced, only 7 (19 percent) received a prison sentence. More
than twice as many male defendants than female defendants received prison
time. We also found a gender difference in the length of prison sentences
imposed. The median prison sentence for male defendants was 12 months,
with sentences ranging from 1 to 120 months. However, the median length of
prison sentences for female defendants was 6 months, with sentences ranging
from 3 months to 21 months. Also, five female defendants entered into pretrial
diversion agreements, while no male defendants entered into these agreements.

                       Figure 18: Penalties for All Convictions by Gender, 

                                   FY 2001 through FY 2008 


                      35
                                                                       29 (81%)
                      30
                      25       23 (50%) 23 (50%)
        Convictions




                      20
                      15
                      10                                    7 (19%)
                      5
                      0
                               Male Defendants            Female Defendants

                                        Prison Time   No Prison Time
      Notes: In 59 cases, defendants were convicted on federal sexual abuse charges. In
      the remaining 23 cases, defendants were convicted on other charges such as
      introduction of contraband or bribery associated with sexual abuse. One case
      awaits sentencing.
      Source: OIG Investigations Division data and LexisNexis CourtLink data.

      When we reviewed only the sentences of staff members who were
convicted on a criminal sexual abuse charge, we found that the same bias
toward lengthier sentences for male defendants persisted. We found that out of
the total of 59 convictions on a sexual abuse charge for which the defendants
had been sentenced (1 was awaiting sentencing), male staff members received
prison sentences in 49 percent of the cases compared with prison sentences for
only 18 percent of the convicted female staff members.

U.S. Department of Justice                                                                71
Office of the Inspector General
Evaluation and Inspections Division
EOUSA’s database did not contain complete data on declinations of staff
sexual abuse cases, but U.S. Attorneys most often cited weak evidence
and lack of criminal intent for declinations.

      According to the U.S. Attorneys’ Manual, when Assistant U.S. Attorneys
decide not to prosecute a case, they are supposed to record any actions taken
on the case – including immediate declinations and the reasons for the
actions.53 A case should be recorded as an immediate declination when the
Assistant U.S. Attorney spends less than an hour working on the case and
does not expend any investigative resources.

       Assistant U.S. Attorneys we interviewed as well as EOUSA officials told
us that the declination of a case is sometimes decided informally and that
these decisions are not always recorded. When officials in EOUSA searched
the legal case management database to respond to the OIG’s request for data
for this review, they found records of roughly one-fourth (40) of the declined
staff sexual abuse cases that we found in the OIG’s database (155).

       To provide us with case data, EOUSA officials could not simply query
their database. We first had to provide EOUSA officials with a list of the names
of BOP staff members who had been investigated by the OIG for staff sexual
abuse. EOUSA officials ran the names through their system and provided us
with the results. Consequently, we reviewed the EOUSA data and compared it
to other information provided by the BOP’s Office of Internal Affairs, the OIG’s
Investigations Division, and court records to validate the information.54

       In reviewing the declination data that was available, we found that
Assistant U.S. Attorneys gave a variety of reasons to explain why they decided
not to prosecute staff-on-inmate sexual abuse cases. Our review of available
EOUSA data on 40 declined cases from FY 2001 through FY 2008 showed that
Assistant U.S. Attorneys cited a lack of evidence of criminal intent and weak or
insufficient admissible evidence as the most common reasons for the
declinations. Those reasons also were the most common reasons cited by the
Assistant U.S. Attorneys we interviewed in five judicial districts we visited.
Table 6 shows EOUSA’s data on why Assistant U.S. Attorneys declined the 40
staff sexual abuse cases and delineates whether the cases were subject to the
new laws enacted in 2006.



       53 U.S. Attorneys’ Manual, Chapter 9-27.00, Principles of Federal Prosecution, Records
of Prosecutions Declined.

       54 Analysis of staff sexual abuse prosecutions in the prior sections was based on data
from the OIG investigations database and court records.


U.S. Department of Justice                                                               72
Office of the Inspector General
Evaluation and Inspections Division
                Table 6: Declinations of Staff Sexual Abuse Cases 

                           by U.S. Attorneys’ Offices, 

                           FY 2001 through FY 2008 

                                           Declined Cases
  Reasons EOUSA Gave for          Subject to          Subject to
  Declining Prosecution           Old Laws            New Laws        Total Declined
  Lack of evidence of
                                      13                    1               14
  criminal intent
  Weak or insufficient
                                      9                     0               9
  admissible evidence
  Pretrial diversion
                                      3                     2               5
  completed
  Minimal federal interest or
                                      2                     1               3
  no deterrent value
  Suspect being prosecuted
                                      2                     0               2
  on other charges
  Agency request                      2                     0               2
  Witness problems                    1                     1               2
  Civil, administrative, or
  other disciplinary                  0                     1               1
  alternatives
  Lack of investigative
                                      0                     1               1
  resources
  Office policy (failed to meet
                                      1                     0               1
  prosecutive guidelines)
  Total                               33                    7               40
 Notes: The number of declinations reported by EOUSA was less than the number reported
 by the OIG (see pages 64 and 65) because some cases are declined informally and the
 Assistant U.S. Attorney does not always record the decision.
 Source: EOUSA data.

      Lack of Evidence of Criminal Intent. In 14 of the recorded declinations,
federal prosecutors declined the cases because they did not believe that the
evidence was sufficient to convince judges or juries that crimes had occurred.
Even though federal law states that consent is never a defense in staff sexual
abuse cases and that any sexual relationship with an inmate is a crime, six of
the Assistant U.S. Attorneys we interviewed raised the concern of proving
criminal intent when the prison staff member and the inmate both claim their
sexual relationship was “romantic” or “consensual” in nature.

       For example, an Assistant U.S. Attorney in the Eastern District of Texas
stated that it is very difficult to obtain a conviction when the sexual
relationship is not coerced because the inmate is not perceived as a crime
victim. The Assistant U.S. Attorney said she asked a judge to dismiss a case
involving a female nurse who was caught engaging in a sex act with an inmate

U.S. Department of Justice                                                         73
Office of the Inspector General
Evaluation and Inspections Division
in an x-ray closet because the relationship was “consensual” in that the inmate
had not raised objections to the relationship.

       However, this view that cases should be declined when the staff member
obtained sex from the inmate without the use of overt force or threats was not
universal among the Assistant U.S. Attorneys we interviewed. An Assistant
U.S. Attorney in the Middle District of Florida said, “Staff-on-inmate sexual
abuse is like statutory rape – even if the inmate says it was consensual, they
are in no position to consent. I would accept ‛consensual’ cases for prosecution
because the law has nothing to do with consent.” In addition, two Assistant
U.S. Attorneys in the Northern District of Florida also stated that consent
would not deter them from prosecuting a BOP staff member.

      Weak or Insufficient Admissible Evidence, Victim Corroboration, and
Witness Credibility. In nine of the recorded declinations, federal prosecutors
declined the cases because of inadequate physical evidence. The Assistant
U.S. Attorneys we interviewed said they were reluctant to prosecute when there
was no evidence, such as DNA or a confession from the defendant, to
corroborate the testimony of the victim. Assistant U.S. Attorneys noted that
corroborating physical evidence is often lost due to a victim’s delay in reporting
the incident, thus making it more difficult to prosecute.

      Assistant U.S. Attorneys also said they were reluctant to go forward with
only the testimony of the victim because the victim usually had credibility
issues. As noted by one prosecutor, every inmate victim and witness has a
criminal record, which impacts the credibility of their testimony with judges
and juries. In addition, prosecutors stated that they had to overcome judges’
and jurors’ suspicions that inmate victims may have fabricated their
allegations of abuse for a variety of reasons, such as to damage staff members’
reputations, secure shorter sentences, or create the basis for lawsuits after
release. When testifying before the National Prison Rape Elimination
Commission in August 2006, a former U.S. Attorney for the Northern District of
Florida stated that, at trial, judges instruct the juries in staff sexual abuse
cases that they may consider the victim’s status as a convicted felon when
judging their credibility. Consequently, inmate victims’ and witnesses’
testimony alone may not be sufficient to refute the word of an alleged staff
perpetrator who is a member of the law enforcement community with no prior
criminal record. An Assistant U.S. Attorney in the Eastern District of
Pennsylvania said that an inmate victim’s credibility is further damaged when
he or she initially denies the abuse, sometimes out of fear of the consequences,
and then later reports it.

       Pretrial Diversion. Five cases, all involving female defendants, were
declined during our review period because the defendants completed the terms
of a pretrial diversion agreement. According to the U.S. Attorneys’ Manual,

U.S. Department of Justice                                                   74
Office of the Inspector General
Evaluation and Inspections Division
“pretrial diversion is an alternative to prosecution which seeks to divert certain
offenders from traditional criminal justice processing into a program of
supervision and services administered by the U.S. Probation Service. In the
majority of cases, offenders are diverted at the pre-charge stage. Participants
who successfully complete the program will not be charged or, if charged, will
have the charges against them dismissed; unsuccessful participants are
returned for prosecution.”55

       Minimal Government Interest. Three cases were declined because
Assistant U.S. Attorneys decided that the government had a minimal interest in
prosecuting the cases or that the prosecutions would have no deterrent value.
When we compared the data from EOUSA’s database and the BOP’s OIA
database, we found that all three cases were sustained on sexual abuse of a
ward and all three subjects resigned before BOP officials terminated them. In
one case, the subject confessed to sexually abusing the inmate, but the BOP’s
record stated that the case was declined because it lacked substantial jury
appeal. While resignation or termination does not automatically mean that
staff members will not also be prosecuted, OIG Special Agents we interviewed
noted that prosecutors sometimes do not pursue criminal prosecution because
the perpetrator is no longer a threat to inmates after leaving the institution.
However, OIG agents also stated that it is possible for a perpetrator who
resigns but is not prosecuted to be hired at a state or private prison.

Some prosecutors have developed methods to overcome barriers to
prosecution.

       We found that many of the Assistant U.S. Attorneys who were more
reluctant to prosecute sexual abuse cases did not appreciate the
significance of staff-on-inmate sexual abuse cases. During our interviews,
a federal prosecutor, an OIG investigator, and a BOP Senior Attorney all
stated that some prosecutors lacked an understanding of the effect staff
sexual abuse has on the lives of inmates; lacked experience prosecuting
sexual abuse cases in general, but especially those occurring in a prison
setting; and lacked knowledge about the prison culture and the coercive
influence of contraband on sex and security in a prison.

      We found that, while prosecuting staff sexual abuse cases presented
challenges, some Assistant U.S. Attorneys working along with BOP officials and
investigators were willing to take on these cases even if they were difficult.
Described below are two examples of actions on the part of a BOP official,


       55 U.S. Attorneys’ Manual, Chapter 9-22.200, Criminal Resource Manual, Pretrial
Diversion Procedures.


U.S. Department of Justice                                                               75
Office of the Inspector General
Evaluation and Inspections Division
prosecutors, and investigators that contributed to better understanding of
sexual abuse cases and influenced prosecutions and sentencing.

       	 In 2006, federal prosecutors in the Northern District of Florida were
          able to convict two former correctional officers at the Federal
          Correctional Institution Tallahassee in a staff sexual abuse case by
          convincing the jury of the seriousness of the crime and its far-
          reaching consequences in a prison. The prosecutors won convictions
          despite credibility issues with inmate victims. For example, female
          inmates told the prosecutors that they often tried to manipulate staff
          members into sexual relationships for their own entertainment and
          that sexual relationships with staff members can be lucrative if the
          victims can later sue the government for negligence or receive a
          sentence reduction for cooperating with the investigation. The
          prosecutors overcame these challenges by focusing not only on the
          sexual abuse, but also on the policy violations and illegal activity that
          the staff members committed to facilitate the sexual abuse and to
          remain undetected. This required the prosecutors to have extensive
          knowledge of the prison environment and the dynamics of staff sexual
          abuse as well as assistance from BOP officials and OIG investigators.
          The prosecutors demonstrated to the jury that the two officers
          provided contraband to inmates in return for sexual favors, switched
          their work assignments so they had access to their victims, permitted
          inmates to leave their cells without authorization, and provided other
          officers keys to staff offices so that they too could engage in sexual
          acts with inmates undetected. Prosecutors also demonstrated how
          the correctional officers conspired to keep their illegal activities from
          being reported to authorities and intimidated inmates to keep them
          from cooperating with investigators once the corruption was
          discovered. Thus, the prosecutors were able to portray the
          correctional officers’ actions as a conspiracy that involved collusion,
          witness tampering, and security breaches and not merely sexual
          contact with inmates. The jury convicted both defendants on multiple
          charges.

       	 A BOP Supervisory Attorney who handled legal matters for the Federal
          Correctional Complex Florence and the Federal Correctional
          Institution Englewood asked the Assistant U.S. Attorney assigned to a
          staff sexual abuse case in 2007 to tour the prison where the incident
          occurred. The BOP attorney told us that the tour helped the Assistant
          U.S. Attorney better understand how the prison environment differs
          from the environment outside of a prison and the challenges of
          maintaining control over a prison population. The BOP attorney and
          the Assistant U.S. Attorney subsequently submitted a letter to the
          U.S. Probation Office on the case, outlining the detrimental effects

U.S. Department of Justice                                                    76
Office of the Inspector General
Evaluation and Inspections Division
            sexual abuse had on the victim and the prison.56 This letter was
            made part of the pre-sentencing report that the judge evaluated when
            determining the defendant’s sentence. According to the BOP attorney,
            the defense attorney had requested that the defendant receive only a
            period of probation, and the pre-sentencing report’s findings
            supported that request. However, after reviewing the letter from the
            BOP attorney and the Assistant U.S. Attorney along with other facts
            in the case, the judge imposed a 6-month prison sentence. During
            sentencing, the judge stated that probation would not reflect the
            seriousness of the crime and would not act as a deterrent to other
            prison staff.

       While staff sexual abuse cases are challenging to prosecute, prosecutors
can overcome some of the difficulties by working closely with BOP officials and
investigators as well as by increasing their knowledge of the prison
environment. As we noted in the discussion of prosecution statistics above,
Assistant U.S. Attorneys were generally successful in obtaining convictions
when they prosecuted staff sexual abuse cases. Out of 90 prosecutions
resulting from allegations raised from FY 2001 through FY 2008 that were
resolved during the period of our review, all but 7 resulted in a conviction.

Recommendations

       We recommend that the:

       19. BOP submit a letter to the U.S. Probation Office, to be made part of
           the pre-sentencing investigative report, for each BOP staff member
           convicted of a sexual abuse crime. The letter should outline how the
           defendant’s sexual abuse of the inmate undermined prison safety and
           petition for a sentence commensurate with the crime.

       20. EOUSA ensure that all staff sexual abuse cases presented for
           prosecution, as well as the reasons for any case declinations, are
           documented in its Legal Information Office Network System.

       21. EOUSA provide training to Assistant U.S. Attorneys on the significant
           negative effect staff sexual abuse has on inmates and BOP prisons,
           and provide training on how to effectively prosecute these cases.



       56 The U.S. Probation Office compiles the pre-sentencing report, which includes a
recommended sentence based on the U.S. Sentencing Guidelines. The defendant and
prosecution are allowed the opportunity to provide additional information for the court to
consider when determining the defendant’s sentence.


U.S. Department of Justice                                                                   77
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            78
Office of the Inspector General
Evaluation and Inspections Division
                     CONCLUSION AND RECOMMENDATIONS 



       The Department’s progress in implementing staff sexual abuse
prevention programs since 2001 has been mixed. The Department has
conducted research and gathered data on allegations and incidents of staff
sexual abuse and sexual misconduct, and has advocated for increased
penalties and extended federal jurisdiction for criminal sexual abuse to all
private prisons under contract to the federal government. The Department also
has continued to investigate, prosecute, and discipline federal personnel who
have engaged in sexually abusive behaviors with prisoners. Despite those
efforts, the Department needs to further improve its efforts to deter, detect,
investigate, and prosecute staff sexual abuse of federal prisoners.

       Although the BOP has an established program for preventing, reporting,
investigating, and responding to allegations of staff sexual abuse and sexual
misconduct, allegations more than doubled from FY 2001 to FY 2008. The
majority of those allegations involved criminal sexual abuse rather than
administrative sexual misconduct. Many also involved allegations of other
serious crimes such as providing inmates with contraband, bribing public
officials, and conspiracy, which were found to have been committed by staff
members to further their improper sexual behavior with inmates. Sexual
abuse allegations were widespread throughout the BOP during our 8-year
review period, involving all but 1 of the BOP’s 93 prison sites and staff in every
occupational category except human resources. While female staff members
were only 26.5 percent of the BOP workforce in each year of the study period,
they were the subjects in 30 to 39 percent of the allegations of staff sexual
abuse and sexual misconduct. Approximately 6 percent of female staff
members, compared to 4 percent of male staff members, were the subjects of
allegations of sexually abuse behavior.

       We believe that the BOP can improve its current efforts to deter staff
sexual abuse. The BOP should update and clarify its educational materials for
inmates. The BOP can also improve inmates’ willingness to cooperate in
investigations by not automatically placing an inmate who reports an allegation
of staff sexual abuse in segregated isolation or transferring the inmate to
another prison. The BOP also needs to ensure that it provides all alleged
victims with psychological and medical services as required by BOP policy. We
also concluded that the BOP could increase the effectiveness of its sexual
abuse prevention program by ensuring that all allegations are reported to the
OIA, the OIG, and the Bureau of Justice Statistics; improving staff training
about sexual abuse prevention and reporting; and providing better oversight of
prisons’ sexual abuse prevention programs.



U.S. Department of Justice                                                    79
Office of the Inspector General
Evaluation and Inspections Division
       The USMS is responsible for transportation of prisoners and cellblock
operations in courthouses. In the 6 years since passage of the Prison Rape
Elimination Act, the USMS has not established protocols for responding to and
reporting incidents of staff sexual abuse as required by the Act. In addition,
the USMS has not provided training to its personnel about their responsibilities
for responding to allegations of staff sexual abuse and the potential
consequences of engaging in sexual acts or behaviors with prisoners. The
USMS has not provided prisoners with information about how to report staff
sexual abuse. USMS officials said the agency’s general policies for protecting
prisoners and its personnel are adequate to protect against staff sexual abuse.
However, we concluded that the policies do not provide sufficient guidance to
staff for reporting and responding to allegations of staff sexual abuse of federal
prisoners in USMS custody. Furthermore, USMS administrators are not
providing oversight of USMS operations to ensure that personnel are
responding appropriately to such allegations by protecting the alleged victim
and providing victim services, securing the crime scene, collecting physical
evidence, and ensuring that staff sexual abusers are dealt with appropriately.
We believe that the USMS should develop new policies or update its current
policies to include guidance on deterring, reporting, and responding to
allegations of sexual abuse.

      We found that of the agencies conducting investigations of staff sexual
abuse, the OIG and the FBI were able to reach a definitive conclusion in
44 percent and 20 percent of their cases, respectively, while the BOP resolved
10 percent of its cases. The BOP’s lower rate of conclusive outcomes for its
investigations is at least partially a result of the OIG and the FBI having taken
cases that had stronger potential for criminal prosecution. Cases investigated
by BOP staff, especially those investigated by prison staff, typically have fewer
investigative leads to enable conclusive decisions. Moreover, OIG and BOP
investigators stated that investigating staff-on-inmate sexual abuse cases poses
many challenges that make reaching a definitive conclusion about an alleged
incident difficult. Those challenges included victims’ delayed reporting of
incidents and lack of corroborating physical evidence. In addition to the
general challenges in conducting investigations in a prison environment, BOP
investigators told us that they were hampered by a lack of training and
experience.  

      Acceptance of staff sexual abuse cases for prosecution has increased
since enactment of the new laws. However, some prosecutors we interviewed
did not sufficiently understand the impact of staff sexual abuse on inmates; did
not have experience prosecuting sexual abuse cases in general, but especially
those occurring in a prison setting; or lacked knowledge about the prison
culture and the coercive influence of contraband on sex and security in a
prison. However, while prosecuting staff sexual abuse cases presented


U.S. Department of Justice                                                   80
Office of the Inspector General
Evaluation and Inspections Division
challenges, other Assistant U.S. Attorneys worked successfully with BOP
officials and investigators to prosecute these cases.

       We found that all but 7 of the 90 prosecutions of BOP staff from FY 2001
through FY 2008 that were resolved during the period of our review resulted in
a conviction. Enacting stricter penalties for staff sex crimes had a mixed effect
on the sentences of convicted defendants. While the number of defendants
that receive prison time increased after the changes, the legislation generally
has not resulted in lengthier prison sentences. Further, female staff members
are less likely than male staff members to receive prison sentences when
convicted of sexual abuse of a ward, and females who were convicted received
shorter sentences than their male colleagues. We concluded that the BOP,
U.S. Attorneys’ Offices, and EOUSA should work with prosecutors to stress the
importance of prosecuting staff sexual abuse cases because of the harm this
conduct can have on individual inmates as well as on the safety and security of
BOP prisons.
 
      To improve the Department’s efforts to prevent the sexual abuse of
prisoners, we recommend that the:

       1.	   BOP require prison officials to assess the risks and consider BOP-
             sanctioned alternatives for safeguarding alleged prisoner victims of
             staff sexual abuse instead of automatically segregating, isolating,
             and transferring the prisoner victims.

       2.	 BOP develop procedures to ensure that all alleged inmate victims of
           staff sexual abuse receive psychological and medical assessments
           and that prison officials maintain a record of the accomplishment of
           the assessments.

       3.	 BOP clarify guidance contained in Program Statement 5324.06 and
           the Special Investigative Supervisors Manual for reporting staff
           sexual abuse allegations and consider developing a separate program
           statement for responding to allegations of staff sexual abuse of
           prisoners.

       4.	 BOP direct prison officials to ensure that all allegations of staff
           sexual abuse are reported to the OIA, OIG, and Bureau of Justice
           Statistics, including those believed to be unfounded.

       5.	 BOP require OIA officials to record the name of the specific prison
           facility where each allegation of staff sexual abuse and sexual
           misconduct was reported to have occurred.



U.S. Department of Justice                                                    81
Office of the Inspector General
Evaluation and Inspections Division
       6.	 BOP revise its self-study course, “Managing Female Offenders,” to
           include instruction on the 2006 statutory changes that increased the
           penalties for sexual abuse of a ward and abusive sexual contact and
           that require staff members convicted of those crimes to register as
           sex offenders.

       7.	 BOP develop improved training for female staff working in male
           prisons that focuses specifically on preventing and detecting female
           staff sexual abuse of male inmates.

       8.	 BOP revise and update the 2005 Sexually Abusive Behavior
           Prevention and Intervention pamphlet to clarify that inmates will not
           be prosecuted or disciplined for being the victim of staff sexual
           abuse. In addition, the pamphlet should be revised to include a
           practical definition of staff-on-inmate sexual abuse and assault.

       9.	 BOP establish a national goal for reducing staff sexual abuse of
           federal inmates.

       10. BOP conduct periodic program reviews to assess the effectiveness of
           the Sexually Abusive Behavior Prevention and Intervention Program.

       11. BOP direct prison officials to conduct operational reviews to assess
           the strengths and weaknesses of their sexual abuse prevention
           program.

       12. BOP revise Program Statement 5324.06 to require Wardens to
           conduct after-action reviews of their responses to criminal staff
           sexual abuse incidents.

       13. USMS develop and implement policy that ensures a zero-tolerance
           standard and that is aimed at preventing staff sexual abuse of
           federal prisoners under USMS custody in cellblocks and during
           transportation.

       14. USMS develop and implement standard procedures for responding
           to, reporting, and investigating allegations of staff sexual abuse in
           cellblocks and during transportation.

       15. USMS provide oversight and periodic reviews to ensure the
           effectiveness of USMS staff sexual abuse prevention policy and to
           assess the strengths and weaknesses of USMS prevention operations
           in cellblocks and during transportation.



U.S. Department of Justice                                                     82
Office of the Inspector General
Evaluation and Inspections Division
       16. USMS collect and analyze data on staff sexual abuse allegations,
           investigations, and prosecutions.

       17. BOP increase training for Special Investigative Agents and
           Supervisors, reinstating the 2 weeks of instruction previously
           offered.

       18. BOP consider assigning Special Investigative Supervisors to longer
           rotations or on a permanent basis to ensure they have the
           experience and investigative skills needed to conduct thorough
           investigations.

       19. BOP submit a letter to the U.S. Probation Office, to be made part of
           the pre-sentencing investigative report, for each BOP staff member
           convicted of a sexual abuse crime. The letter should outline how the
           defendant’s sexual abuse of the inmate undermined prison safety
           and petition for a sentence commensurate with the crime.

       20. EOUSA ensure that all staff sexual abuse cases presented for
           prosecution, as well as the reasons for any case declinations, are
           documented in its Legal Information Office Network System.

       21. EOUSA provide training to Assistant U.S. Attorneys on the
           significant negative effect staff sexual abuse has on inmates and
           BOP prisons, and provide training on how to effectively prosecute
           these cases.




U.S. Department of Justice                                                  83
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            84
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX I: NUMBER OF ALLEGATIONS REPORTED 

                       BY BOP-MANAGED INSTITUTIONS 



        Table 7 shows the institutions that reported allegations of staff sexual
 abuse of inmates during the period from FY 2001 through FY 2008. The
 institutions are listed in descending order by total number of allegations.

  Table 7: 	Allegations of Staff Sexual Abuse of Inmates Reported by BOP-
            Managed Institutions from FY 2001 through FY 2008
                          FY       FY       FY      FY      FY      FY      FY      FY
Institution     Type     2001     2002     2003    2004    2005    2006    2007    2008    Total
Coleman        FCC           7        3      13      13      13        7     12      12       80
Florence       FCC           1        3      10        4       9       8     20      13       68
Tallahassee    FCI           1        5      11      18        9     10        8       5      67
Carswell       FMC           3      19       10        7       5       7       3       4      58
Danbury        FCI         16       12         4       4       3       4       4       8      55
Beaumont       FCC           5                 4     10        5       8       9     11       52
Marianna       FCI           1         4     14        1       2       3       8       8      41
Victorville    FCC           1         1       5       2     10        8       6       8      41
Atlanta        USP                     2       9     10        6       1       4       3      35
Brooklyn       MDC           1         3       5     10                5       5       6      35
Dublin         FCI           5         9       4       4      1        3       5       2      33
Allenwood      FCC           3         2       1       9               3       8       5      31
Petersburg     FCC           2         6       5       2      2        6       5       2      30
Lexington      FMC           1         2       1       4      8        3       3       6      28
Bryan          FPC           1         4       3       2      5        5       3       4       27
Philadelphia   FDC           1                 2       5      8        4       1       5       26
Terre Haute    FCC                     5       8       1               5       3       4       26
Forrest City   FCC                     1       4       5      4                3       6       23
Yazoo City     FCC           3         2       1       3      3       2        6       3       23
Fort Dix       FCI           5         1               1      2       3        7       3       22
SEATAC         FDC                     3      4        2      3       5        2       3       22
Lee            USP                     1     10        5      4                1               21
Rochester      FMC                     3      2        2      7       2        3      2        21
Atwater        USP                            2        1              1      15       1        20
Butner         FCC            1        1      2        1             10        4      1       20
Hazelton       USP                                            2      12        4      2       20
Fort Worth     FCI           2                4       3       3       3        4              19
Alderson       FPC           1         2      1       2       4       1        1      6       18
Manchester     FCI                     1      1       5       1       3        1      6       18
Phoenix        FCI           5         2      1       2       4                3      1        18
El Reno        FCI                            1                       9        5      1        16
Guaynabo       MDC           2         1      4       5       2                1      1        16
Houston        FDC           1                3       1       3       2        5      1        16
Miami          FDC           2                1       4       5       2        2               16


 U.S. Department of Justice                                                                 85
 Office of the Inspector General
 Evaluation and Inspections Division
                          FY       FY       FY      FY      FY      FY      FY      FY
Institution      Type    2001     2002     2003    2004    2005    2006    2007    2008    Total
Chicago         MCC                            1       5       4       1       2       2      15
Estill          FCI          2         1       2       5       2       3                      15
Jesup           FCI          2                 1               4       4              4       15
La Tuna         FCI          1                        3        1       2      1       7       15
Marion          USP          2                        1        4       6      1       1       15
Oklahoma
City            FTC                    1                      3       2       2       7       15
Oxford          FCI                           3               3       4       1       4       15
Devens          FMC          2         2              4       2               4               14
Lompoc          FCC          3         2      3       4                       1       1       14
Miami           FCI          2         1      1       1       2       2       3       2       14
San Diego       MCC          4         3      3       1       1                       2       14
Gilmer          FCI                           1       1       2       4       4       1       13
Greenville      FCI          1                2       4               3       3               13
Lewisburg       USP                                   2       3               1       7       13
Pollock         FCC          1         4      1               2       3       1               12
Tucson          FCC          1                        7               1               3       12
Waseca          FCI                    1      2       2       4       3                       12
Edgefield       FCI          3                        2       4       1               1       11
McCreary        USP                                   1       4       4               2       11
New York        MCC                    1      3       1       4                       2       11
Fairton         FCI                           1       2       2       1       1       3       10
Memphis         FCI          1                        2       1       6                       10
Springfield     USMCFP                        3       1       1       3       1       1       10
Bennettsville   FCI                                                   3       5       1        9
Big Sandy       USP                                   1       1       2       3       2        9
Ray Brook       FCI                    1      1       2       2       1       1       1        9
Seagoville      FCI                                           3       2       3       1        9
Big Spring      FCI                    2              1       1       2       1       1        8
Honolulu        FDC                           1       2                       2       3        8
McKean          FCI           1        2      2       2                       1                8
Otisville       FCI                           1               2       1       3       1        8
Schuylkill      FCI                                                   3       4       1        8
Three Rivers    FCI                    1      1       2               1       2       1        8
Beckley         FCI          1                                1       1       2       2        7
Canaan          USP                                           2       3       1       1        7
Cumberland      FCI          2                1               3                       1        7
Elkton          FCI          2                1       1               2       1                7
Leavenworth     USP                                           2       4       1                7
Los Angeles     MDC          1         1              1               1               3        7
Milan           FCI                                   1       1       2       2       1        7
Oakdale         FCC           1        1      1       2       1                       1        7
Sandstone       FCI                                   3       1       1               2        7
Sheridan        FCI          1         2                      1               2       1        7
Morgantown      FCI                                           1       3       2                6
Pekin           FCI          1                1       1       1               1       1        6

 U.S. Department of Justice                                                                 86
 Office of the Inspector General
 Evaluation and Inspections Division
                          FY       FY      FY       FY     FY      FY     FY     FY
Institution     Type     2001     2002    2003     2004   2005    2006   2007   2008    Total
Terminal
Island         FCI                                    1              4             1            6
Williamsburg   FCI                                                   2      2      2            6
Loretto        FCI            1                1              1      1      1                   5
Montgomery     FPC                                                   5                          5
Talladega      FCI                                                   1      2      2            5
Texarkana      FCI                             1                     2      2                   5
Yankton        FPC                    1                                     2      2            5
Ashland        FCI                    1        1      1                            1            4
Bastrop        FCI            1                       2                            1            4
Englewood      FCI            1                       2              1                          4
Pensacola      FPC                             2                     1             1            4
Herlong        FCI                                                                 3            3
Safford        FCI                    1        1                                                2
Duluth         FPC                                                                              0

Total                      109     127     193      222    210     247    246    231    1,585
Note: The BOP manages 115 separate institutions located at 93 sites in 6 regional districts.
However, the BOP’s OIA records sexual abuse allegations for co-located institutions and
satellite camps as though they were one institution.

Source: BOP Office of Internal Affairs data.

Acronyms

FCC            Federal Correctional Complex
FCI            Federal Correctional Institution
FDC            Federal Detention Center
FMC            Federal Medical Center
FMCFP          Federal Medical Center for Federal Prisoners
FPC            Federal Prison Camp
FTC            Federal Transfer Center
MCC            Metropolitan Correctional Center
MDC            Metropolitan Detention Center
USP            United States Penitentiary




U.S. Department of Justice                                                               87
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            88
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX II: FEDERAL SEXUAL ABUSE CRIMES 



       Under Title 18 of the U.S. Code, sexual relations between BOP staff and
inmates constitute sexual abuse and are a criminal violation, even if the sexual
act would have been considered consensual had it occurred outside of a prison.
This law applies to anyone (staff or inmate) in a BOP-managed prison,
institution, or other facility in which individuals are held in custody by the
direction of the Attorney General. Staff members face the following criminal
penalties, which reflect legislative changes since 2006, if they are convicted of
sexual behavior or acts with an adult inmate.

       1. Aggravated Sexual Abuse (18 U.S.C. § 2241(a) and (b)) – Causing or
          attempting to cause an inmate to engage in a sexual act by use of
          force or placing the inmate in fear of death, serious bodily injury, or
          kidnapping; by rendering them unconscious; or through drugs or
          other intoxicants. Staff members convicted of this crime shall be
          fined, imprisoned for any term of years or life, or both.

       2. Sexual Abuse (18 U.S.C. § 2242) – Engaging in a sexual act with an
          inmate by threatening them or placing them in fear (other than in fear
          of death, bodily harm, or kidnapping) or with inmate incapable of
          appraising the nature of the conduct or declining participation. Staff
          members convicted of this crime shall be fined and imprisoned for any
          term of years or for life.

       3. Sexual Abuse of a Ward (18 U.S.C. § 2243 (b)) – Engaging in or
          attempting to engage in a sexual act with an inmate or detainee who
          is under the perpetrator’s custodial, supervisory, or disciplinary
          authority. A staff member convicted of this crime shall be fined,
          imprisoned for not more than 15 years, or both.

       4. Abusive Sexual Contact (18 U.S.C. § 2244 (a)) – Engaging in or
          causing sexual contact (touching) with or by another person. A staff
          member convicted of this crime shall be fined or imprisoned for not
          more than:

          a. 2 years for the sexual contact with an inmate;

          b. 3 years, if the sexual contact with an inmate involved the use of
             threats or fear other than death, serious bodily injury, or
             kidnapping; or




U.S. Department of Justice                                                    89
Office of the Inspector General
Evaluation and Inspections Division
          c.	 10 years, if the sexual contact with an inmate involved the use of
              force against the inmate or threats of death, serious bodily injury,
              or kidnapping.

       5. Sexual Abuse Offenses Resulting in Death (18 U.S.C. § 2245) –
          Murdering an individual in the course of a sexual abuse offense. A
          staff member convicted of this crime shall be fined, imprisoned for any
          term of years or for life, or punished by death.

      Under the provisions of the Adam Walsh Child Protection and Safety Act
of 2006, convictions on any of the sexual abuse crimes involving sexual contact
between staff members and prisoners triggers federal sex offender registration
requirements as well as most state registration requirements.

       Sexually abusive behavior that does not rise to the criminal level of
sexual abuse defined in Title 18 may be classified as sexual misconduct. These
behaviors include acts such as using indecent language, obscene gestures, or
voyeurism. Sexual misconduct is not subject to prosecution, but is a violation
of the BOP’s standards of conduct that may result in an administrative
sanction up to termination.




U.S. Department of Justice                                                    90
Office of the Inspector General
Evaluation and Inspections Division
                 APPENDIX III: U.S. SENTENCING GUIDELINES 



       Federal criminal laws establish maximum penalties for individuals
convicted of sexually abusing federal inmates, but actual prison sentences are
typically based on federal sentencing guidelines and other factors identified by
the court during court proceedings.57 In determining the type of sentence to
impose under the guidelines, the judge considers the nature and seriousness of
the offender’s conduct, the statutory purposes of sentencing, and the pertinent
offender characteristics. The following paragraphs describe how the sentencing
guidelines are used to calculate sentences based on the seriousness of the
crime committed and the criminal history of the offender.

       The federal sentencing guidelines, developed by the U.S. Sentencing
Commission, assign most federal crimes to one of 43 “offense levels” based on
the specific characteristics of the crime. Each offender also is assigned one of
six “criminal history categories” based on the offender’s past criminal conduct,
with more extensive or recent criminal resulting in a higher category rating. An
offender with a record of prior criminal behavior is considered by the guidelines
to be more culpable than a first-time offender. The point at which the offense
level and the criminal history category intersect on the guidelines’ sentencing
table determines a presumptive “guidelines range” that generally will translate
into the offender’s sentence.

      Under the sentencing guidelines, judges are instructed to choose a
sentence from within the recommended range based on the defendant’s total
sentencing points, unless the court identifies factors not considered by the
Commission that should result in a different sentence. In these instances, the
guidelines state that a court may consider a “departure” from the guidelines’
recommended sentence range to impose either a harsher or more lenient
sentence.

      Below are examples of the range of recommended sentences for
defendants with no prior criminal history (Category I criminal history) and the
base offense with additional points added for specific offense characteristics
related to staff sexual abuse of inmates:

       	 Aggravated Sexual Abuse (18 U.S.C. § 2241 (a) or (b)) has a base
          offense level score of 34 plus 2 points for sexual abuse of an inmate or
          detainee in the custody, care, or supervisory control of the defendant,


       57The Supreme Court has determined that the guidelines are advisory rather than
mandatory. See United States v. Booker, 543 U.S. 220 (2005).


U.S. Department of Justice                                                           91
Office of the Inspector General
Evaluation and Inspections Division
          for a total offense level of 36. The recommended sentencing range is
          between 15 years, 8 months and 19 years, 7 months.

       	 Sexual Abuse (18 U.S.C. § 2242) has a base offense level of 30 for
          criminal sexual abuse plus 2 points for sexual abuse of an inmate or
          detainee in the custody, care, or supervisory control of the defendant,
          for a total offense level score of 32. The recommended sentencing
          range is between 10 years, 1 month and 12 years, 7 months.

       	 Sexual Abuse of a Ward (18 U.S.C. § 2243 (b)) has a base offense level
          score of 14 (the guidelines do not list any specific offense
          characteristics for this offense) with a recommended sentencing range
          between 1 year, 3 months and 1 year, 9 months.

       	 Abusive Sexual Contact (18 U.S.C. § 2244 (a)) has base offense levels
          ranging from 14 to 22 with sentencing ranges between 1 year, 3
          months and 4 years, 3 months depending on whether certain specific
          offense characteristics such as use of force are present.

       	 Sexual Abuse Offenses Resulting in Death (18 U.S.C. § 2245) has a
          base offense level score of 43 for first degree murder and the
          guidelines recommend a sentence of life in prison.

      As calculated under the sentencing guidelines, actual sentences of staff
members who plead guilty or who are convicted of sexual abuse crimes may be
much less severe than the maximum penalties set forth in the applicable
statute (18 U.S.C. §§ 2241-2245). For example, as shown above a BOP or
USMS staff member with no prior criminal record who committed criminal
sexual abuse of a ward (§ 2243(b)) generally would receive a recommended
sentence of more than one year but less than 2 years, much less than the
maximum potential sentence of up to 15 years in prison under the statute.




U.S. Department of Justice                                                  92
Office of the Inspector General
Evaluation and Inspections Division
                 APPENDIX IV: TIME FRAMES FOR REPORTING 

                         ALLEGATIONS TO THE OIG 



       All allegations of criminal wrongdoing or serious administrative
misconduct by Department employees must be reported to the OIG. A 1998
memorandum signed by OIG, BOP, and USMS officials outlines the required
times frames for reporting allegations of employee crimes and misconduct to
the OIG. There are three classifications of allegations and the required times
for reporting them to the OIG:

       	   Classification I – Immediate Notification. BOP and USMS officials
            must immediately report to the OIG all non-frivolous allegations
            against any employee which, if substantiated, would constitute a
            prosecutable offense, and any allegation of serious misconduct
            against an employee with the rank of GS-15 or above. This includes
            criminal sexual abuse and assault between employees and persons in
            custody. BOP and USMS personnel cannot initiate an investigation of
            these allegations before reporting them to the OIG, and they cannot
            delay the initial reporting to collect information.

       	   Classification II – 48-Hour Reporting. This classification includes any
            non-frivolous allegations against any employee that involve violations
            of rules, regulations, or law that, if substantiated, would not likely
            result in criminal prosecution. The BOP and USMS must notify the
            OIG within 48 hours of the time management learns of the matter.
            They can begin an investigation as soon as they are aware of the
            allegation, but the OIG reserves the right to either conduct the
            investigation or to direct them to continue their investigation. If the
            OIG decides to conduct the investigation, the component must stop
            theirs. This reporting classification includes allegations of
            inappropriate sexual relationships between staff members and
            prisoners.

       	   Classification III – Monthly Reporting. Component officials must
            report all allegations of misconduct that would have a minimal impact
            on programs and operations to the OIG monthly. This reporting
            classification includes allegations of prohibited personnel practices,
            such sexual misconduct, that are not likely to result in termination,
            demotion, or a lengthy suspension.




U.S. Department of Justice                                                    93
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            94
Office of the Inspector General
Evaluation and Inspections Division
      APPENDIX V: THE FEDERAL BUREAU OF PRISONS’ RESPONSE 





                                               U.S. l>ella rtment uf Justice

                                               Federal Burc;lU of Pri~ons




                                               August 20, 2009



          MEMORANDUM FOR MICHAEL D. GULLEDGE
                         ASSISTANT INSPECTOR GENERAL
                           FOR EVALUATION AND INSPECTIONS




          FROM :

          SUBJECT :       Response to the Office of Inspector General ' s
                          (OIG) Draft Report : Rey i ew of Department of
                          Justice ' s Ef f orts to ~revent Staff Sexua l Abuse of
                          Federa l Inmate , Assignmen t Number A-2008-002

          The Bureau of Prisons (BOP) appreCiates the opportunity to
          respond to the recommendations from the OIG ' s draft report
          entitled Reyiew of Depa r tment of Just~ce's Efforts to Preven t
          Staff Sexyal Abyse of Fe d eral Inmates. As a threshold matter ,
          the BOP is fully committed t o a zero-tolerance standard for the
          incidence of staff sex ual abuse in our facilities.   The BOP has a
          comprehensive program for preventing, reporting , respon d ing to,
          and investigating allegations of staff sexual abuse and
          misconduct . We strive to improve on the strong foundation we
          have established in this arena . We would also like to provide
          the following comments ,

          We bel i eve it i s important to note that beginning on p . iv ,
          continuing on p . 1 9 and highlighted throughout the report i s the
          statistiC that a l legations of sexual abuse and sex ual misconduct
          by BOP staff with federal inmates more th a n dou bled fr om FY 200 1
          through FY 2008 , increasing at a faster rate than either th e
          growth of the inmate or staff populations . The contex t and tone
          of this reported statistic assumes that an increase in
          allegations i s a negative outcome and to a certain extent ,
          suggests that the behavior is occurring. In order to critica l ly
          assess the data , it is imperative that the rate of sustained
          sexual abuse and misconduct cases by BOP staff with federal




U.S. Department of Justice                                                          95
Office of the Inspector General
Evaluation and Inspections Division
          inmates be included for the same reporting period covered in this
          report .

          Following discussions with BOP staff, the OIG did add the
          sentence on p. iv , indicating that we attributed the increase in
          reported allegations to our efforts to educate and encou rage
          reporting of these incidents . We recommend OIG consult with
          Dr . Allen Beck , Bureau of Justice Statistics, regarding the rate
          of reported allegations of sexual abuse in cor rectional
          faci l ities and whether i t is common to see an increase in
          allegations when an agency focuses on training in this arena .

          Please find the Bureau ' s response to the recommendations below :

         Recommendation #1; BOP require prison offic ial s to asses s the
         risks and c ons ider BOP-sanctioned alternatives for s afeguarding
         alleged prisoner victims of staff sexual abuse instead of
         automatically segregating , isolating , and transferring pris oner
         vict~ .


         Response : The BOP concurs . Program Statement 5324 . 06 requ i res
         staff to immediately safeguard the inmate victim when sexually
         abusive behaviors have been reported . The policy indicates that
         how this is accomplished will vary depending on the severity of
         the alleged behavior . The alternatives f or safeguarding the
         vict im will vary by institut i on (physical design of the
         institution , availability of nearby facilities, etc . ) and by the
         facts presented in each case. The BOP has a duty to protect the
         victim and there will be circumstances where the victim will need
         to be segregated in order t o ensure their safety . We will advise
         the Wardens to consider alternatives to placing an inmate in the
         Special Housing Unit or transferring the alleged victim of staff
         sexual abuse . This will be comp l eted by December 30 , 2009 .

         Recommendation '2 ; BOP develop procedures to ensure that all
         alleged victims of s taff s exual abuse receive psychological and
         medical as s e s sments and that prison offic ials maintain a reco rd
         of the accomplishments of the assessments.

         Response : The BOP concurs , with a caveat. The concern , which may
         have led some alleged victims of sexual abuse to not receive
         services , is not primarily the privacy of the subjects , but
         rather the concern that wider dissemination of information to
         staff other than the Warden and investigative staff might
         compromise the integrity of an ongoing Ol G, Federal Bureau of

                                            2




U.S. Department of Justice                                                       96
Office of the Inspector General
Evaluation and Inspections Division
         Investigation or Office of Internal Affairs {OIA) investigation .
         Thus, while services should not be denied to any alleged victim,
         in some cases there may be a need for alternative means of
         providing such services other than established pro t ocol. The BOP
         is committed to ensuring victims of sexual assault receive
         appropriate medical and psychological assessments and if
         necessary , treatment. The Correctional Programs Division and
         Health Services Division will collaborate on the appropriate
         procedures to be used for tracking referrals for t hese services
         by February 1, 2010 .

         Recommendation '3: BOP clarity guidance contained in Program
         Statument 5324 . 06 and Special Investigative Supervisors Manual
         for reporting staff sexual abuse allegations and consider
         developing a separate program statement for responding to
         allegations of staff sexual abuse of prisoners.

         Response : The BOP concurs . The BOP recognizes at a minimum ,
         guidance needs to be provided to staff on reporting staff sexual
         abuse allegations. We will undertake a review of the policies
         and determine whether a separate program statement is needed for
         responding to allegations of staff se xual abuse of prisoners .
         This review will be completed by December 30, 2009 .

         Recommendation '4: BOP direct prison officials to ensure that
         all allegations of staff sexual abuse are reported to the OIA,
         OIG, and Bureau of Justice Statistics, including those believed
         to be unfounded.

         Response :    The BOP concurs. The Chief, OIA , will advise Wardens
         to report    all allegations of staff sexual abuse to the OIA,
         including    those allegations believed to be unfounded . OIA will
         refer all    allegations of staff sexual abuse to OIG . This will be
         completed    by December 30, 2009 .

         Recommendation IS: BOP require OIA officials to record the name
         of the specific prison facility where each allegation of statf
         sexual abuse and sexual misconduct was reported to have occurred.

         Response: The BOP concurs. The OIA will develop a method for
         entering specific facility information in sexual abuse cases in
         their database which can be retrieved as necessary . This will be
         completed by December 30, 2009 .




                                            3




U.S. Department of Justice                                                      97
Office of the Inspector General
Evaluation and Inspections Division
         Recommendation *6: BOP revise its self-study course, "Managing
         Female Offenders ," to include instruction on the 2006 statutory
         changes that increased the penalties for sexual abuse of a ward
         and abusive sexual contact and that require staff members
         convicted of those crimes to register as sex offenders.

         Response : The BOP concurs. The BOP i s currently revising the
         self-study course, "Managing Female Offenders," and will include
         the 2006 statutory changes that increased the penalties for
         sexual abuse of a ward and abusive sexual contact. It will also
         include the requirement for staff members convicted of those
         crimes to register as sex o ffenders. This will be completed by
         January 1, 2010.

         Recommendation '7: BOP develop improved training f or female
         staff working in male prisons that focuses on preventing and
         detecting female staff sexual abuse of male inmates.

         Response: The BOP concurs. The BOP continuously updates and
         enhances Annual Training (AT) lesson plans to address issues
         relevant to today's correctional environment. This component of
         AT has been revised in recent years to address issues raised by
         the Prison Rape Elimination Act (PREA). Specifically, a video is
         currently being prepared to address staff on PREA to be utilized
         in AT and Institution Familiarization for new oncoming staff.
         For next year's lesson plans , we will include i nformation related
         to the prevalence of cross-gender allegations against female
         staff members working in male institutions . However, we also
         propose modifications to address the issues raised for each
         gender in cross-gender supervision . While the current rates of
         cross - gender allegations against female staff are higher , this
         issue merits attention for both female and male staff .

         Recommendation is: BOP revise and update the 2005 Sexually
         Abusive Behavior Prevention and Intervention pamphlet to clarify
         that i~tes will not be prosecuted or disciplined for being the
         victim of staff sexual abuse. In addition , the pamphlet should
         be r evi sed to include a practical definition of staff-on-inmate
         sexual abuse and a ssault.

         Response: The BOP concurs the pamphlet needs to be updated and
         the definitions c l arified . While we concur inmates will not be
         prosecuted or disciplined for being the victim of staff sexual
         abuse, we believe it is important to remind inmates t hat


                                          4




U.S. Department of Justice                                                     98
Office of the Inspector General
Evaluation and Inspections Division
          they are prohibited from sol iciting staff members sexually .
          Revisions to the pamphlet will be completed by February 1 , 2010 .

          Recommendation '9 : BOP estab~ish a national goal for reducing
          staff sexua~ abuse of federa_l inmate s.

          Response : The BOP does not concur . The BOP has a zero-tolerance
          policy for staf f sexual abuse. We s t rive to achieve this policy
          through education, training , detection, prevention and
          appropriate response procedures . ~stablishing a national goal in
          this arena is untenab l e since the lag time between reported
          allegation and closure of the investigation often spans more than
          one year . Moreover , setting a goal of any type , whether
          percentage or numerical, gives the impression that a certain
          number of sexual abuse cases is acceptable for the agency. We
          believe our current strategic plan, BOP Objective 4 . 09,
          appropriately highlights the issue of Se xual Abuse and provides a
          mechanism for management staff to be aware of the trends .
          Therefore, we request th i s recommendation be closed .

          Recomme ndation tlO : BOP conduct periodic program reviews to
          assess the effectiveness of the Sexually Abusive Behavior
          Prevention and Intervention Program .

          Response:  The BOP concurs . The Program Review Branch is
          modifying the Psychology Services Program Review Guidelines to
          incorporate ne w review steps which will assess the effect iveness
          of the Sexually Abusive Behavio r Prevention a nd Intervention
          Progr~m . Oncc completed ~nd publi~hed , we will evaluate the
          program during all future Psychology Program and Opera tiona l
          Reviews . Thi s will be completed by January 1 , 2010.


          Recommendation tIl: BOP direct prison officials to conduct
          operational reviews to as ses s the strengths and weakne sses of
          their sexual abuse prevention program.

          Response:   The BOP concurs . The Program Review Branch is
          modifying the Psychology Services Program Review Guideli n es to
          incorporate new review steps which will assess the effectiveness
          of the Sex ual l y Abusive Behavior Pr eve n tion and Intervention
          Program . Once completed and pub l ished , we will evaluate the
          program during a l l future Psycho l ogy Program and Operational
          Reviews . This will be completed by January 1 , 2010 .



                                           5




U.S. Department of Justice                                                     99
Office of the Inspector General
Evaluation and Inspections Division
         Recommendation ,12; BOP revise Program Statement 5324.06 to
         require Wardens to conduct after-action reviews of their
         responses to criminal s taff sexual abusive incidents.

         Respons e : The BOP concurs. BOP policy will be revised to
         require after-action reviews in sustained cases of staff sexual
         abuse incidents. An after-action review may not be required if
         allegations are determined to be unfounded. Policy revisions
         will be completed by February I, 2010.

         Recommendation ,17; BOP increase training for Special
         Investigative Agents and Supervisors , reinstating the 2 weeks of
         instruction previously offered.

         Response : The BOP concurs, as funding permits . Special
         Invest i gative Supervisor (SISl/Special Investigative Agent
         Training for Fi scal Year 2010 has been expanded to two wee ks .
         The new agenda contains approximately 35 hours of crime scene
         investigative specific training . While the BOP would like to be
         able to offer the two week training in the years to come, funding
         may not permit it .

         Recommendation '18 : BOP consider assigning Special Inves tigator
         Supervisors to longer rotations or on a permanent basis to ensure
         they have experience and investigative skills _needed to conduct
         thorough investigations.

         Response; The BOP does not concur . Rather than change
         established rotation schedules or make SIS Lieutenant positions
         permanen t, assignment of sexual abuse cases should be based on
         the skill and experience of the investigator .

         Recommendation '19: BOP submit a letter to the U. S. Probation
         Office , to be made part of the pre- sentence investigative report ,
         for each BOP staff member convicted of a sex abuse crime. Th.
         letter should outline how defendant's sexual abuse of the inmate
         undermined prison safety and petition for a sentence
         commensurate with the crime .

         Response : The BOP concurs with the concept. However, the Office
         of General Counsel would like to assess and consult with DOJ
         staff regarding the possible con~licts of interest presented by
         this recommendation . Their assessment will be completed by
         December 30, 2009 .


                                          6




U.S. Department of Justice                                                      100
Office of the Inspector General
Evaluation and Inspections Division
         If you have any questions regarding this response, please contact
         VaNessa Adams, Assistant Director, Program Review Division, at
         (202) 353-3206.




                                        ,




U.S. Department of Justice                                                   101
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            102
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX VI: OIG’S ANALYSIS OF THE FEDERAL BUREAU OF PRISONS’ 

                           RESPONSE 



      The Office of the Inspector General provided a draft of this report to the
Federal Bureau of Prisons (BOP) for its comment. The BOP’s response is
included in Appendix V to this report. The OIG’s analysis of the BOP’s
response and the actions necessary to close the recommendations are
discussed below.

Recommendation 1. The BOP require prison officials to assess the risks and
consider BOP-sanctioned alternatives for safeguarding alleged prisoner victims
of staff sexual abuse instead of automatically segregating, isolating, and
transferring the prisoner victims.

       Status. Resolved – open.

      Summary of the BOP Response. The BOP concurred with this
recommendation. The BOP agreed to advise Wardens to consider alternatives
to placing an inmate in the Special Housing Unit or transferring the alleged
victim of staff sexual abuse. This will be completed by December 30, 2009.

      OIG Analysis. The action planned by the BOP is responsive to our
recommendation. Please provide the OIG with documentation that Wardens
have been advised to consider alternatives for safeguarding inmate victims of
sexually abusive behaviors based on a risk assessment process that includes
an evaluation of not only the safety needs of the alleged victim but their
psychological and medical needs as well.

Recommendation 2. The BOP develop procedures to ensure that all alleged
inmate victims of staff sexual abuse receive psychological and medical
assessments and that prison officials maintain a record of the accomplishment
of the assessments.

       Status. Resolved – open.

      Summary of the BOP Response. The BOP concurred with this
recommendation and reaffirmed its commitment to ensuring that alleged
victims of sexual assault receive the appropriate medical and psychological
assessments and, if necessary, treatment. The BOP stated that the
Correctional Programs Division and Health Services Division will collaborate on
the appropriate procedures to be used for tracking referrals for these services
by February 1, 2010.



U.S. Department of Justice                                                  103
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis. The action planned by the BOP is responsive to our
recommendation. Please provide the OIG with a copy of the approved
procedures for tracking referrals and verifying the accomplishment of victim
services.

Recommendation 3. The BOP clarify guidance contained in Program
Statement 5324.06 and the Special Investigative Supervisors Manual for
reporting staff sexual abuse allegations and consider developing a separate
program statement for responding to allegations of staff sexual abuse of
prisoners.

       Status. Resolved – open.

      Summary of the BOP Response. The BOP concurred with this
recommendation and agreed to undertake a review of its policies and to
determine whether a separate program statement is needed. The BOP said it
would complete its policy review by December 30, 2009.

       OIG Analysis. The action planned by the BOP is responsive to our
recommendation. Please provide the OIG with a copy of the approved separate
program statement or the approved revisions to the existing program statement
that clarify the BOP’s guidance for reporting staff sexual abuse allegations.

Recommendation 4. The BOP direct prison officials to ensure that all
allegations of staff sexual abuse are reported to the BOP’s Office of Internal
Affairs (OIA), OIG, and Bureau of Justice Statistics, including those believed to
be unfounded.

       Status. Resolved – open.

      Summary of the BOP Response. The BOP concurred with this
recommendation. The BOP agreed that its OIA will advise Wardens to report all
allegations of staff sexual abuse, including those believed to be unfounded, to
the OIA and to the OIG. The BOP agreed to complete this action by
December 30, 2009.

      OIG Analysis. The action planned by the BOP is responsive to our
recommendation. Please provide the OIG with documentation that the OIA
Chief has advised Wardens to report all allegations, including unfounded
allegations, to the OIA and the OIG.

Recommendation 5. The BOP require OIA officials to record the name of the
specific prison facility where each allegation of staff sexual abuse and sexual
misconduct was reported to have occurred.


U.S. Department of Justice                                                 104
Office of the Inspector General
Evaluation and Inspections Division
       Status. Resolved – open.

       Summary of the BOP Response. The BOP concurred with this
recommendation and stated that the OIA will develop a method for entering
specific facility information about staff sexual abuse cases in its database so
that it can be retrieved as necessary. The BOP stated that this action will be
completed by December 30, 2009.

      OIG Analysis. The action planned by the BOP is responsive to our
recommendation. Please provide the OIG with documentation on the method
developed by the OIA and a sample report from the database.

Recommendation 6. The BOP revise its self-study course, “Managing Female
Offenders,” to include instruction on the 2006 statutory changes that increased
the penalties for sexual abuse of a ward and abusive sexual contact and that
require staff members convicted of those crimes to register as sex offenders.

       Status. Resolved – open.

       Summary of the BOP Response. The BOP concurred with this
recommendation and agreed to revise its self-study course, “Managing Female
Offenders,” to include changes in the laws that increased the penalties for staff
sexual abuse of a ward and abusive sexual contact and imposed a requirement
for sex offender registration. The BOP stated it would complete the revisions by
January 1, 2010.

      OIG Analysis. The action planned by the BOP is responsive to our
recommendation. Please provide the OIG with a copy of the revised self-study
course.

Recommendation 7. The BOP develop improved training for female staff
working in male prisons that focuses specifically on preventing and detecting
female staff sexual abuse of male inmates.

       Status. Resolved – open.

      Summary of the BOP Response. The BOP concurred with this
recommendation and agreed that the current rates of cross-gender allegations
merit attention for both male and female staff members. The BOP stated it
would improve its training through the development of a video on the Prison
Rape Elimination Act to be used as part of its Annual Training for current staff
and its Institutional Familiarization training for new employees. The BOP also
stated that it will modify its 2010 lesson plans to include information related to
the prevalence of cross-gender allegations involving female staff working in


U.S. Department of Justice                                                  105
Office of the Inspector General
Evaluation and Inspections Division
male institutions and to address issues raised for both male and female staff in
cross-gender supervision situations.

       OIG Analysis. The actions planned by the BOP are responsive to our
recommendation. Please provide the OIG with a copy of the new training video
and any accompanying literature, as well as copies of the revised lesson plans
for the 2010 Annual Training and Institutional Familiarization training.

Recommendation 8. The BOP revise and update the 2005 Sexually Abusive
Behavior Prevention and Intervention pamphlet to clarify that inmates will not
be prosecuted or disciplined for being the victim of staff sexual abuse. In
addition, the pamphlet should be revised to include a practical definition of
staff-on-inmate sexual abuse and assault.

       Status. Resolved – open.

      Summary of the BOP Response. The BOP concurred with this
recommendation. The BOP agreed that the pamphlet needs to be updated and
the definitions clarified.

     OIG Analysis. The action planned by the BOP is responsive to our
recommendation. Please provide the OIG with a copy of the revised pamphlet.

Recommendation 9. The BOP establish a national goal for reducing staff
sexual abuse of federal inmates.

       Status. Resolved – open.

       Summary of the BOP Response. The BOP did not concur with this
recommendation. The BOP stated that it has a zero-tolerance policy and that
establishing a national goal is untenable since the lag time between the
reported allegation and the completion of the investigation often spans more
than a year. The BOP also stated that establishing a numerical goal to reduce
staff sexual abuse gives the impression that a certain number of sexual abuse
cases is acceptable by the BOP. The BOP stated that its Strategic Plan
Objective 4.09 appropriately highlights the issue of sexual abuse and provides
a mechanism to inform management of trends.

       OIG Analysis. The OIG accepts the BOP’s explanation as to why it
would prefer to not establish a numerical goal for reducing staff sexual abuse
of federal inmates. The OIG stresses the importance of the BOP striving to
reduce staff sexual abuse, to continue to focus attention on this issue, and to
attempt to achieve the non-numerical goals established in its Strategic Plan
Objective 4.09, which directs the BOP’s OIA to determine high-risk areas and
develop methods to reduce staff misconduct. In addition, the OIG notes that

U.S. Department of Justice                                                 106
Office of the Inspector General
Evaluation and Inspections Division
even without establishing numerical goals, the BOP staff misconduct report
prepared annually by OIA should include data which shows trends over time.
The report as it is constituted now only includes misconduct statistics for a
particular fiscal year. Please provide documentation showing that the BOP
staff misconduct report prepared annually by OIA will include data which
shows trends over time.

Recommendation 10. The BOP conduct periodic program reviews to assess
the effectiveness of the Sexually Abusive Behavior Prevention and Intervention
Program.

       Status. Resolved – open.

       Summary of the BOP Response. The BOP concurred with this
recommendation. The BOP has agreed to modify the Psychology Services
Program Review Guidelines to incorporate new review steps that will assess the
effectiveness of the Sexually Abusive Behavior Prevention and Intervention
Program. Once completed and published, the BOP will evaluate the program
during all future Psychology Program and Operational Reviews. This will be
completed by January 1, 2010.

       OIG Analysis. The action planned by the BOP is partially responsive to
our recommendation. The Sexually Abusive Behavior Prevention and
Intervention Program is an interdisciplinary program that requires
participation from several BOP departments, including Psychology Services,
Health Services, and Correctional Services. However, incorporating additional
review steps into the Psychology Services Program Review Guidelines will not
fully assess the effectiveness of the program. We believe additional review
steps also must be incorporated into the other disciplines’ review guidelines.
Please provide the OIG with a copy of revised guidelines for all disciplines
involved in the Sexually Abusive Behavior Prevention and Intervention
Program.

Recommendation 11. The BOP direct prison officials to conduct operational
reviews to assess the strengths and weaknesses of their sexual abuse
prevention program.

       Status. Resolved – open.

       Summary of the BOP Response. The BOP concurred with this
recommendation. The BOP has agreed to modify the Psychology Services
Program Review Guidelines to incorporate new review steps that will assess the
effectiveness of the Sexually Abusive Behavior Prevention and Intervention
Program. Once completed and published, the BOP will evaluate the program


U.S. Department of Justice                                               107
Office of the Inspector General
Evaluation and Inspections Division
during all future Psychology Program and Operational Reviews. This will be
completed by January 1, 2010.

       OIG Analysis. The action planned by the BOP is partially responsive to
our recommendation. The Sexually Abusive Behavior Prevention and
Intervention Program is an interdisciplinary program that requires
participation from several BOP departments, including Psychology Services,
Health Services, and Correctional Services. However, incorporating additional
review steps into the Psychology Services Program Review Guidelines will not
fully assess the effectiveness of the program. We believe additional review
steps also must be incorporated into the other disciplines’ review guidelines.
Please provide the OIG with a copy of revised guidelines for all disciplines
involved in the Sexually Abusive Behavior Prevention and Intervention
Program.

Recommendation 12. The BOP revise Program Statement 5324.06 to require
Wardens to conduct after-action reviews of their responses to criminal staff
sexual abuse incidents.

       Status. Resolved – open.

      Summary of the BOP Response. The BOP concurred with this
recommendation. The BOP has agreed to revise its policy to require after-
action reviews in sustained cases of staff sexual abuse incidents. Policy
reviews will be completed by February 1, 2010.

     OIG Analysis. The action planned by the BOP is responsive to our
recommendation. Please provide the OIG with a copy of the policy revisions.

Recommendation 17. The BOP increase training for Special Investigative
Agents and Supervisors, reinstating the 2 weeks of instruction previously
offered.

       Status. Resolved – open.

       Summary of the BOP Response. The BOP concurred with this
recommendation as funding permits. Special Investigative Supervisor
(SIS)/Special Investigative Agent Training for FY 2010 has been expanded to
2 weeks. The new agenda contains approximately 35 hours of crime scene
investigative specific training. While the BOP would like to offer the 2-week
training after FY 2010, funding may not permit it.

     OIG Analysis. The action planned by the BOP is responsive to our
recommendation. Please provide the OIG with a syllabus outlining the
expanded training.

U.S. Department of Justice                                                108
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 18. The BOP consider assigning Special Investigative
Supervisors to longer rotations or on a permanent basis to ensure they have
the experience and investigative skills needed to conduct thorough
investigations.

       Status. Resolved – open.

     Summary of the BOP Response. The BOP did not concur with this
recommendation. The BOP stated that rather than change established rotation
schedules or make SIS Lieutenant positions permanent, assignment of sexual
abuse cases should be based on the skill and experience of the investigator.

       OIG Analysis. Because most staff sexual abuse allegations are
investigated by BOP staff at the facilities, the skill and experience of the local
investigators are critical, but frequent rotation of SIS Lieutenants can inhibit
their investigative development. Although the expanded training described in
the BOP’s response to Recommendation 17 may provide newly appointed SIS
Lieutenants with better foundation knowledge to conduct investigations, we
believe that a typical 18-month assignment does not provide sufficient
experience. Please provide the OIG with information on how the BOP will
better manage its investigative caseload and assign sexual abuse cases to BOP
staff who have sufficient skill and experience to conduct these investigations.

Recommendation 19. The BOP submit a letter to the U.S. Probation Office, to
be made part of the pre-sentencing investigative report, for each BOP staff
member convicted of a sexual abuse crime. The letter should outline how the
defendant’s sexual abuse of the inmate undermined prison safety and petition
for a sentence commensurate with the crime.

       Status. Resolved – open.

      Summary of the BOP Response. The BOP concurred with this
recommendation. However, the BOP’s Office of General Counsel would like to
assess and consult with DOJ staff regarding the possible conflicts of interest
presented by this recommendation. Their assessment will be completed by
December 30, 2009.

      OIG Analysis. The action planned by the BOP is responsive to our
recommendation. Please provide the OIG with the results of your assessment
and consultation with DOJ staff.

     Please provide the OIG with the information described above in each
recommendation, or the status of corrective actions, by January 5, 2010.


U.S. Department of Justice                                                  109
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            110
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX VII: THE UNITED STATES MARSHALS SERVICE’S RESPONSE 




       ...                                                   u.s. Department of Justice

       ®. . ..
        .,-                                                  United States Marshals Service

                                                             Office of the Director


                                                             Wa.shi"$,on, DC 2Q5JO- /(j()()


                                                             August 26, 2009



           MEMORANDUM TO:             Michael Gu lledge
                                      Acting Assistant Inspector General
                                       0r val~~nspec(iOnS

                          FROM:    A@  ohn ' . Clark
                                      Director

                       SUBJECT:       Review of the Department of Justice' s Efforts to Prevent
                                      Staff Sexual Abuse of Federal Inmates, Assignment
                                      Number A-200g-002


                 Thank you for the opportunity to comment on the draft audit report on your Review of
         the Department of Justice's Efforts to Prevent Staff Sexual Abuse of Federal Inmates. We have
         reviewed the recommendation pertaining to the United States Marshals Service (USMS) in the
         report, and our comments are attached.

                Should you have any question or concerns regarding this response, please contact
         Ms. Isabel Howell, Audit Liaison, at 202-307-9744.
         Attachment




U.S. Department of Justice                                                                               111
Office of the Inspector General
Evaluation and Inspections Division
                                USMS Res ponse to Draft Audit Report on DOJ 's
                            Efforts to Prevent Staff Sexual Abuse of Federal Inmates

         Recommendation 13:

         "USMS develop and implement policy that ensures a zero-tolerance standard and that is aimed at
         preventing staff sexual abuse of federal prisoners under USMS custody in cellblocks and during
         transportation."

         Response: (Agree) T he USMS, Prisoncr Operations Divisio n (POD), is drafting policy to be
         disseminated for review and approval by the Detention Management Committee (DMC) in
         October 2009. Once the DMC approves the proposed policy, the policy will be sent to the labor
         Union for comment. Upon receipt of the policy and comments from the Union, the policy will
         be implemented by dissemination fro m the USMS Director along with a memorandum stating
         there is a "zero-tolerance" policy in effect. The policy will require all employees to complete an
         annual on-line training course, also being developed by USMS POD. The USMS expects to
         have the training and policy implemented by January I , 2010.

         Recommendation 14:

         " USMS develop and implement standard procedures fo r respondin g 10, reporting, and
         in vesti gating allegations of staff sexual abuse in cellbloeks and during transportation."

         Response: (Agree) The USMS. Offiee of lntemal Investigations (011), is responsible for
         investigating any allegations o f employee misconduct. POD and 011 will mcct prior to
         September 30, 2009, to develop standard procedures for national dissemination and
         implementation by January 1,2010.

         Reco mmendation 15:

         " USMS provide oversight and periodic reviews to ensure the effectiveness of USMS staff sexual
         abuse prevention policy and to assess the strengths and weaknesses ofUSMS prevention
         operations in cellblocks and during transportation. "

         Response: (Agr ee) As a part of the standard procedures establ ished and implemented in
         Recommendation 14 between 011 and POD, an clement will include periodic revie ws conducted
         by the USMS, Offiee of Com pliance Review (OCR). The reviews conducted by OCR will test
         compliance with the policy, as well as the strengths and weaknesses of USMS prevention
         operati ons in eeJlblocks and during transport.

         Recommendation 16:

         " USMS collect and analyze data on staff sexual abuse allegations, investi gations, and
         prosecutions."




                                                           2




U.S. Department of Justice                                                                                    112
Office of the Inspector General
Evaluation and Inspections Division
        Response: (Agree) Despite the USMS having so few allegations of th is nature in the past, the
        USMS recognizes the need to specifically track and analyze data specific to this type of
        allegation. To that end, prio r to September 30, 2009, POD, 011, and OCR will meet with the
        USMS, Information Technology Division (ITO), to conceptually deve lop a secure module within
        the Justice Detainee Information System (JD IS). This module will allow for information specific
        to these allegations to be warehoused for periodic review and analysis. This periodic review and
        analysis will be used to track trends for reportin g to the USMS and 001 management officials.
        Any trends discovered will drive future policy and procedure revisions.

        Due to procurement requirements, and the need to develop a statement of work, the USMS has
        set a goal for establishing an IT option within JDIS by Fiscal Year 20 1I.




                                                       J




U.S. Department of Justice                                                                                 113
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            114
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX VIII: OIG’S ANALYSIS OF THE UNITED STATES MARSHALS 

                        SERVICE’S RESPONSE 



      The Office of the Inspector General provided a draft of this report to the
U.S. Marshals Service (USMS) for its comment. The USMS’s response is
included in Appendix VII to this report. The OIG’s analysis of the USMS’s
response and the actions necessary to close the recommendations are
discussed below.

Recommendation 13. The USMS develop and implement policy that ensures
a zero-tolerance standard and that is aimed at preventing staff sexual abuse of
federal prisoners under USMS custody in cellblocks and during transportation.

       Status. Resolved – open.

       Summary of the USMS Response. The USMS concurred with this
recommendation. The USMS will draft and implement a zero-tolerance policy
for sexual abuse of prisoners. The policy will require all USMS employees to
complete annual training. The USMS expects to have the policy and training
implemented by January 1, 2010.

       OIG Analysis. The action planned by the USMS is responsive to our
recommendation. Please provide the OIG with a copy of the written policy and
training course.

Recommendation 14. The USMS develop and implement standard
procedures for responding to, reporting, and investigating allegations of staff
sexual abuse in cellblocks and during transportation.

       Status. Resolved – open.

       Summary of the USMS Response. The USMS concurred with this
recommendation. The USMS’s Office of Internal Investigations will meet with
the Prisoner Operations Division prior to September 30, 2009, to develop
standard procedures for responding to, reporting, and investigating allegations
of staff sexual abuse for national dissemination and implementation by
January 1, 2010.

      OIG Analysis. The actions planned by the USMS are responsive to our
recommendation. Please provide the OIG with a copy of the procedures
developed for responding to, reporting, and investigating allegations of staff
sexual abuse.



U.S. Department of Justice                                                  115
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 15. The USMS provide oversight and periodic reviews to
ensure the effectiveness of USMS staff sexual abuse prevention policy and to
assess the strengths and weaknesses of USMS prevention operations in
cellblocks and during transportation.

       Status. Resolved – open.

       Summary of the USMS Response. The USMS concurred with this
recommendation. As a part of the standard procedures established and
implemented in Recommendation 14 between the Office of Internal
Investigations and the Prisoner Operations Division, the USMS will include
periodic reviews conducted by its Office of Compliance Review. These reviews
will test compliance with the policy as well as the strengths and weaknesses of
USMS prevention operations in cellblocks and during transport.

      OIG Analysis. The actions planned by the USMS are responsive to our
recommendation. Please provide the OIG with a copy of the procedures
developed to ensure compliance with USMS policy as well as assess the
strength and weaknesses of its prevention policy.

Recommendation 16. The USMS collect and analyze data on staff sexual
abuse allegations, investigations, and prosecutions.

       Status. Resolved – open.

      Summary of the USMS Response. The USMS concurred with this
recommendation. The USMS will develop a secure module within its Justice
Detainee Information System that will allow for information specific to sexual
abuse allegations to be warehoused for periodic review and analysis. This
periodic review and analysis will be used to track trends for reporting to USMS
and DOJ management officials. Any trends discovered will drive future policy
and procedure revisions. The USMS has set a goal for establishing the module
and the review and analysis process by FY 2011.

     OIG Analysis. The actions planned by the USMS are responsive to our
recommendation. Please provide the OIG with documentation on the module
concept.

     Please provide the OIG with the information described above in each
recommendation, or the status of corrective actions, by January 5, 2010.




U.S. Department of Justice                                               116
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX IX: THE EXECUTIVE OFFICE FOR UNITED STATES 

                      ATTORNEYS’ RESPONSE 





                                                                  u.s. Department of Justice

                                                                  Execulive Office/or United SlaleS Allorneys
                                                                  Office a/lhe Direc!ar


                                                                  Main JU~lj ce Building. Room 224·1A      (202) 514-2121
                                                                  950 Pennsylvania Avenue. N W
                                                                  Washinglan. D.C. 20530




          M E MORAN D UM
                        AUG 192009
          DATE:

          TO:            Mic hael D. Gulledge
                         Ass istant Inspector General for Evaluation and Inspections



          FROM:    ~1!A~ {j~
          SUBJECT:       Response \0 OIG's Report Entitled: Review of Departmcnt of Justice' Efforts to
                         Prevent Staff Sexual Abuse of Federal Inmates. Assignment Number A-2008·002

                  This memorandum is submitted by the Executive Office for United States Attorneys
          (EOUSA) in response to the report by the Office of Inspector General (OIG) entitled " Review of
          Department of Justice' Efforts to Prevent Staff Sexual Abuse of Federal Inmates." EOUSA
          appreciates the significant work that the OIG put into this review and its attention to the important
          issues addressed in the report. We arc grateful for your efforts to promote integrity, efficiency, and
          effectiveness in the enforcement of federal criminal and civil laws. [t is in this spirit thaI EOUSA
          has reviev.'tld the OIG's report an d accepts, and will endeavor to carry out to the best of its ability,
          OIG's recommendations.

                  As an initial matter, it is important to note the unique nature of the relationship betwecn
          EOUSA and the United States Anomeys' Offices (USAOs), and the stat us of EOUSA/USAO as a
          component within the Department of Justice. Unlike most other DOJ components, EOUSA and the
          USAOs do not constitute a si ngle hierarchical organization with a headquarters office directing
          policy decisions and resource management. Rather, each United States Attorney (USA) is the chief
          law enforcement officer in his or her dist rict. Each USA, unless serving in an Acting or interim
          capacity, is appoi nted by the President and confinned by the Senate. As a holder of high office, the
          USA is afforded significant discretion to manage his or her office according to locally perceived
          priorities and needs, albeit within the umbrella of overarching Departmental priorities. The 94
          USAOs vary in size from 20 employees to over 800 employees. Each office has a unique identity
          and local " office cultures" vary greatly. It is in this context that EOUSA interacts with the USAOs to
          " [PJrovide general executive assistance and supervision to the offices of Ihe U.S. Anomeys." 28
          C.F.R. § 0.22.




U.S. Department of Justice                                                                                                  117
Office of the Inspector General
Evaluation and Inspections Division
                   The United States Attorney community remains mindful of the importance ofpwsecuting
           staff sexual abuse in the prison environment. As the report noted, since 2006, the percentage of
           criminal staff sexual abuse cases accepted for prosecution by United States Attorneys' Offices has
           increased, 83 defendants have been convicted, and the numbe r of defendants who received prison
           time has increased.

           Recommendations

                    EOUSA welcomes this review as an opportunity to make the recommended improvements in
           these areas. EOUSA will endeavor to implement both of the report's recommendations to the best of
           its ability.

                  20.     EOUSA ensure Ihal all staffsexual abuse cases presented/or prosecution, as well as
                          the reason/or any case declinations, are documented in its Legal Information Office
                          Nelwork Syslem.

                   The report recommends that all staff sexual abuse cases presented to USAOs for prosecution
           be documented in LIONS along with the reason for any declinations. Under current practice, cases
           which are fonnally presented to USAOs by law enforcement agencies and which are prosecuted by
           USAOs are entered into LIONS. Under current practice. cases which are fonnally presented to
           USAOs for prosecution, on which the AUSA spends more than an hour, but which are later declined,
           are also entered into LIONS. Currently, the LIONS system prompts the USAO to provide a reason
           for declination for every referral that is opened, j£., on which an AUSA spends more than one hour,
           but ultimately closed without prosecution.

                   There is a third category of cases, which is encompassed in the report's review, which may
           not be reflected in LIONS under current practice,.iJ;.., cases which are presented to an AUSA but on
           which the AUSA does not spend more than one hou r prior to making the determination that it cannot
           be prosecuted at that time. This situation may arise, for example, when a referral comes in the form
           of a short phone call to the AUSA from a law enforcement agent. Cases initially declined under this
           scenario may be opened at a later time when, for example, additional evidence is obtained. This
           practice reflects the fact that LIONS is a management tool intended to measure and manage the
           workloads of AUSAs in the 94 individual districts. In other words, LIONS measures the time period
           exceeding one hour during which the AUSA was performing a certain type of work. The current
           system, however, is not intended as a measure of AUSA vigilance on prison staff sexual abuse cases.

                  EOUSA accepts the report's recommendation and will finalize written guidance to the
           USAOs requesting that they document every case of prison staff sexual abuse formally presented for
           prosecution by law enforcement including those cases on which an AUSA spends less than one hOUT,
           disseminate the new guidance by memorandum to the USAO community, and update all system user
           manuals to reflect this effort. EOUSA can implement this recommendation within 180 days.




                                                           - 2-




U.S. Department of Justice                                                                                        118
Office of the Inspector General
Evaluation and Inspections Division
                  21.     EOUSA provide training to Assistant United States Allorneys on the significant
                          negative effect slaff sexual abuse has on inmates and BOP prisons, and provide
                          training on how /0 ejfoctively prosecute these cases.

                   As noted in the report, some USAOs have been very successful in pursuing staff sexual abuse
           cases at trial. In addition, the report documents the many ways that staff sexual abuse endangers the
           safety inside the federal prisons in ways that are less obvious and extend beyond the danger to the
           individual victims of sexual abuse. EOUSA recognizes the importance of disseminating this
           infonnation to those districts in which federal prisons are located.

                   In February 2007, EOUSA's Office of Legal Education (OLE) sponsored classroom training
           on Prosecution of Criminal Cases in Federal Prisons, including presentations on Investigation and
           Prosecution of Sexual Abuse and Other Crimes Committed by BOP Employees. These presentations
           were broadcast on the Justice Television Network (lTN) in August and September 2007. EOUSA
           will post these presentations on the Video-on-Demand Library of EOUSAs Learning Management
           System, JUSTLeam, wtiich is accessible to all U.S. Attorney's office personnel from their desk-top
           computer. EOUSA will advise districts of the availability and importance of such training in
           conjunction with its implementation of the recommendation regarding LIONS entries as discussed
           above. EOUSA will also develop and provide additional training to AUSAs within 180 days.




                                                           -3-




U.S. Department of Justice                                                                                         119
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            120
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX X: OIG’S ANALYSIS OF THE EXECUTIVE OFFICE FOR UNITED 

                 STATES ATTORNEYS’ RESPONSE 



      The Office of the Inspector General provided a draft of this report to the
Executive Office for United States Attorneys (EOUSA) for its comment.
EOUSA’s response is included in Appendix IX to this report. The OIG’s
analysis of EOUSA’s response and the actions necessary to close the
recommendations are discussed below.

Recommendation 20. EOUSA ensure that all staff sexual abuse cases
presented for prosecution, as well as the reasons for any case declinations, are
documented in its Legal Information Office Network System.

       Status. Resolved – open.

      Summary of the EOUSA Response. EOUSA concurred with this
recommendation. EOUSA will finalize written guidance to the U.S. Attorneys’
Offices (USAO) requesting that they document every case of prison staff sexual
abuse formally presented for prosecution by law enforcement, including those
cases on which an Assistant U.S. Attorney spends less than 1 hour,
disseminating the new guidance by memorandum to the USAO community,
and updating all system user manuals to reflect this effort. EOUSA stated it
can implement this recommendation within 180 days.

      OIG Analysis. The action planned by EOUSA is responsive to our
recommendation. Please provide the OIG with a copy of the written guidance
provided to the USAOs and the updates to system user manuals.

Recommendation 21. EOUSA provide training to Assistant U.S. Attorneys on
the significant negative effect staff sexual abuse has on inmates and BOP
prisons, and provide training on how to effectively prosecute these cases.

       Status. Resolved – open.

      Summary of the EOUSA Response. EOUSA concurred with this
recommendation. EOUSA stated that in 2007, its Office of Legal Education
presented a training course on Prosecutions of Crimes in Federal Prisons,
which included presentations on the investigation and prosecution of sexual
abuse and other crimes committed by BOP employees. EOUSA will post these
presentations on the video-on-demand library of EOUSA’s learning
management system, JUSTLearn, which is accessible to all USAO personnel
from their desktop computers. EOUSA will advise districts of the availability
and importance of such training in conjunction with its implementation of
Recommendation 20 regarding Legal Information Office Network System

U.S. Department of Justice                                                  121
Office of the Inspector General
Evaluation and Inspections Division
entries. EOUSA also will develop and provide additional training to Assistant
U.S. Attorneys within 180 days.

      OIG Analysis. The actions planned by EOUSA are responsive to our
recommendation. Please provide the OIG with a copy of the 2007
presentations, the accompanying guidance provided to USAOs, and any
additional training developed and provided by EOUSA regarding the
prosecution of staff sexual abuse of inmates.

     Please provide the OIG with the information described above in each
recommendation, or the status of corrective actions, by January 5, 2010.




U.S. Department of Justice                                               122
Office of the Inspector General
Evaluation and Inspections Division
